<html>
<title> - BEHAVIORAL SCIENCE AND SECURITY: EVALUATING TSA'S SPOT PROGRAM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                    BEHAVIORAL SCIENCE AND SECURITY:

                     EVALUATING TSA'S SPOT PROGRAM

=======================================================================


                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON INVESTIGATIONS AND

                               OVERSIGHT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 6, 2011

                               __________

                           Serial No. 112-11

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
65-053                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         DAVID WU, Oregon
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               GABRIELLE GIFFORDS, Arizona
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL, Texas             MARCIA L. FUDGE, Ohio
PAUL C. BROUN, Georgia               BEN R. LUJAN, New Mexico
SANDY ADAMS, Florida                 PAUL D. TONKO, New York
BENJAMIN QUAYLE, Arizona             JERRY McNERNEY, California
CHARLES J. ``CHUCK'' FLEISCHMANN,    JOHN P. SARBANES, Maryland
    Tennessee                        TERRI A. SEWELL, Alabama
E. SCOTT RIGELL, Virginia            FREDERICA S. WILSON, Florida
STEVEN M. PALAZZO, Mississippi       HANSEN CLARKE, Michigan
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

              Subcommittee on Investigations and Oversight

                   HON. PAUL C. BROUN, Georgia, Chair
F. JAMES SENSENBRENNER, JR.,         DONNA F. EDWARDS, Maryland
    Wisconsin                        ZOE LOFGREN, California
SANDY ADAMS, Florida                 BRAD MILLER, North Carolina
RANDY HULTGREN, Illinois             JERRY McNERNEY, California
LARRY BUCSHON, Indiana                   
DAN BENISHEK, Michigan                   
VACANCY                                  
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texas


                            C O N T E N T S

                            Date of Hearing

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Paul C. Broun, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    16
    Written Statement............................................    17

Statement by Representative Donna F. Edwards, Ranking Minority 
  Member, Subcommittee on Investigations and Oversight, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    18
    Written Statement............................................    20

                               Witnesses:

Mr. Stephen Lord, Director, Homeland Security and Justice Issues, 
  Government Accountability Office
    Oral Statement...............................................    24
    Written Statement............................................    26

Mr. Larry Willis, Program Manager, Homeland Security Advanced 
  Research Projects Agency, Science and Technology Directorate, 
  Department of Homeland Security
    Oral Statement...............................................    39
    Written Statement............................................    40

Peter J. DiDomenica, Lieutenant Detective, Boston University 
  Police
    Oral Statement...............................................    42
    Written Statement............................................    44

Dr. Paul Ekman, Professor Emeritus of Psychology, University of 
  California, San Francisco, and President and Founder, Paul 
  Ekman Group, LLC
    Oral Statement...............................................    48
    Written Statement............................................    50

Dr. Maria Hartwig, Associate Professor, Department of Psychology, 
  John Jay College of Criminal Justice
    Oral Statement...............................................    70
    Written Statement............................................    71

Dr. Philip Rubin, Chief Executive Officer, Haskins Laboratories
    Oral Statement...............................................    79
    Written Statement............................................    80

             Appendix I: Answers to Post-Hearing Questions

Mr. Stephen Lord, Director, Homeland Security and Justice Issues, 
  Government Accountability Office...............................   114

Mr. Larry Willis, Program Manager, Homeland Security Advanced 
  Research Projects Agency, Science and Technology Directorate, 
  Department of Homeland Security................................   118

Dr. Paul Ekman, Professor Emeritus of Psychology, University of 
  California, San Francisco, and President and Founder, Paul 
  Ekman Group, LLC...............................................   127

Dr. Maria Hartwig, Associate Professor, Department of Psychology, 
  John Jay College of Criminal Justice...........................   130

Dr. Philip Rubin, Chief Executive Officer, Haskins Laboratories..   131

Peter J. DiDomenica, Lieutenant Detective, Boston University 
  Police.........................................................   134

       Appendix II: Additional Materials Submitted for the Record

Mr. Stephen Lord, Director, Homeland Security and Justice Issues, 
  Government Accountability Office...............................   140


     BEHAVIORAL SCIENCE AND SECURITY: EVALUATING TSA'S SPOT PROGRAM

                              ----------                              


                        WEDNESDAY, APRIL 6, 2011

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Paul C. 
Broun [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

               SUBCOMMITTEE ON INVESTIGATIONS & OVERSIGHT

                     U.S. HOUSE OF REPRESENTATIVES

                    Behavioral Science and Security:

                     Evaluating TSA's SPOT Program

                        wednesday, april 6, 2011
                         10:00 a.m.--12:00 p.m.
                   2318 rayburn house office building

Purpose

    The Subcommittee on Investigations and Oversight meets on April 6, 
2011 to examine the Transportation Security Administration's (TSA) 
efforts to incorporate behavioral science into its transportation 
security architecture. The Department of Homeland Security (DHS) has 
been criticized for failing to scientifically validate the Screening of 
Passengers by Observational Techniques (SPOT) program before 
operationally deploying it. SPOT is a TSA program that employs 
Behavioral Detection Officers (BDO) at airport terminals for the 
purpose of detecting behavioral based indicators of threats to aviation 
security.
    The hearing will examine the state of behavioral science as it 
relates to the detection of terrorist threats to the air transportation 
system, as well as its utility to identify criminal offenses more 
broadly. The hearing will examine several independent reports-one by 
the Government Accountability Office (GAO), two by the National 
Research Council, and a number of Defense and Intelligence Community 
advisory board reports on the state of behavioral science relative to 
the detection of emotion, deceit, and intent in controlled laboratory 
settings, as well as in an operational environment. The Subcommittee 
will evaluate the initial development of the SPOT program, the steps 
taken to validate the science that form the foundation of the program, 
as well as the capabilities and limitations of using behavioral science 
in a transportation setting. More broadly, the hearing will also 
explore the behavioral science research efforts throughout DHS.

Background

    The terrorist attacks on September 11, 2001 exposed a vulnerability 
in the nation's air transportation system. In order to augment other 
screening processes and procedures, TSA conducted operational testing 
of behavior detection techniques at a limited number of airports in 
October 2003. \1\ In 2007, TSA created new BDO positions as part of the 
SPOT program with the goal of identifying persons who may pose a 
potential security risk by using behavioral indicators such as stress, 
fear, or deception. \2\
---------------------------------------------------------------------------
    \1\ Aviation Security: Efforts to validate TSA`s Passenger 
Screening Behavior Detection Program Underway, but Opportunities Exist 
to Strengthen Validation and Address Operational Challenges, Government 
Accountability Office, May 2010. Available at http://www.gao.gov/
new.items/d10763.pdf
    \2\ Ibid.
---------------------------------------------------------------------------
    The indicators BDOs use form a checklist with corresponding values 
and thresholds. These indicators, values, and thresholds are used to 
assess passengers while in line awaiting security screening. When an 
individual displays behaviors or an appearance that exceeds a 
predetermined threshold, they are referred for additional screening. 
If, during the course of this secondary screening, individuals display 
behaviors that exceed another threshold, they are referred to law 
enforcement officers for further investigation.
    Initially established to detect terrorist threats to the aviation 
transportation system, \3\ the program's mission has since broadened to 
include the identification of behaviors indicative of criminal 
activity. \4\ Critics of the program have argued that this expansion 
reflects the failure of the program to identify any terrorists, and 
therefore program success could only be quantified by broadening the 
goals to include criminal activity which has a higher rate of 
occurrence. \5\ This may or may not be a fair critique based on the 
extremely small sample size that terrorists would represent. Regardless 
of the rationale for the program's expanded scope, questions remain 
about whether indicators for terrorism are the same for criminal 
behavior.
---------------------------------------------------------------------------
    \3\ Ibid.
    \4\ Congressional Budget Justification FY2012, Department of 
Homeland Security.
    \5\ Weinberger, Sharon, ``Intent to Deceive'' Can the Science of 
Deception Detection Help to Catch Terrorists?'' Nature, Vol. 465127, 
May 26, 2010, available at: http://www.nature.com/news/2010/100526/pdf/
465412a.pdf
---------------------------------------------------------------------------
    As of March 2010, TSA employed roughly 3,000 BDOs at approximately 
161 airports at a cost of $212 million a year. \6\ In the President's 
fiscal year 2012 budget request, the Department seeks to add 175 more 
BDOs with an increase of $21 million - a 9.5 % increase over current 
funding levels. \7\ In total, the five year budget profile for the SPOT 
program accounts for roughly $1.2 billion. \8\
---------------------------------------------------------------------------
    \6\ Supra n.1.
    \7\ Supra n.4.
    \8\ Supra n.1.
---------------------------------------------------------------------------

Relevant Reviews

U.S. Government Accountability Office (GAO)
        Aviation Security: Efforts to validate TSA's Passenger 
        Screening Behavior Detection Program Underway, but 
        Opportunities Exist to Strengthen Validation and Address 
        Operational Challenges

    In May 2010, GAO issued a report titled ``Efforts to Validate TSA's 
Passenger Screening Behavior Detection Program Underway, but 
Opportunities Exist to Strengthen Validation and Address Operational 
Challenges'' in response to a Congressional request to review the SPOT 
program. In preparing the report, GAO analyzed ``(1) the extent to 
which TSA validated the SPOT program before deployment, (2) 
implementation challenges, and (3) the extent to which TSA measures 
SPOT's effect on aviation security.'' \9\
---------------------------------------------------------------------------
    \9\ Ibid.

---------------------------------------------------------------------------
        GAO issued the following findings associated with its review:

          Although the Department of Homeland Security (DHS) is in the 
        process of validating some aspects of the SPOT program, TSA 
        deployed SPOT nationwide without first validating the 
        scientific basis for identifying suspicious passengers in an 
        airport environment. A scientific consensus does not exist on 
        whether behavior detection principles can be reliably used for 
        counterterrorism purposes, according to the National Research 
        Council of the National Academy of Sciences. According to TSA, 
        no other large-scale security screening program based on 
        behavioral indicators has ever been rigorously scientifically 
        validated. DHS plans to review aspects of SPOT, such as whether 
        the program is more effective at identifying threats than 
        random screening. Nonetheless, DHS's current plan to assess 
        SPOT is not designed to fully validate whether behavior 
        detection can be used to reliably identify individuals in an 
        airport environment who pose a security risk. For example, 
        factors such as the length of time BDOs can observe passengers 
        without becoming fatigued are not part of the plan and could 
        provide additional information on the extent to which SPOT can 
        be effectively implemented. Prior GAO work has found that 
        independent expert review panels can provide comprehensive, 
        objective reviews of complex issues. Use of such a panel to 
        review DHS's methodology could help ensure a rigorous, 
        scientific validation of SPOT, helping provide more assurance 
        that SPOT is fulfilling its mission to strengthen aviation 
        security. \10\
---------------------------------------------------------------------------
    \10\ Ibid.

        Additionally, GAO found issues relating to performance metrics, 
---------------------------------------------------------------------------
        data integrity, and reach-back capabilities as well.

          TSA is experiencing implementation challenges, including not 
        fully utilizing the resources it has available to 
        systematically collect and analyze the information obtained by 
        BDOs on passengers who may pose a threat to the aviation 
        system. TSA's Transportation System Operations Center has the 
        resources to investigate aviation threats but generally does 
        not check all law enforcement and intelligence databases 
        available to it to identify persons referred by BDOs. Utilizing 
        existing resources would enhance TSA's ability to quickly 
        verify passenger identity and could help TSA to more reliably 
        ``connect the dots.'' Further, most BDOs lack a mechanism to 
        input data on suspicious passengers into a database used by TSA 
        analysts and also lack a means to obtain information from the 
        Transportation System Operations Center on a timely basis. TSA 
        states that it is in the process of providing input 
        capabilities, but does not have a time frame for when this will 
        occur at all SPOT airports. Providing BDOs, or other TSA 
        personnel, with these capabilities could help TSA ``connect the 
        dots'' to identify potential threats.

          Although TSA has some performance measures related to SPOT, 
        it lacks outcome-oriented measures to evaluate the program's 
        progress toward reaching its goals. Establishing a plan to 
        develop these measures could better position TSA to determine 
        if SPOT is contributing to TSA's strategic goals for aviation 
        security. TSA is planning to enhance its evaluation 
        capabilities in 2010 to more readily assess the program's 
        effectiveness by conducting statistical analysis of data 
        related to SPOT referrals to law enforcement and associated 
        arrests. \11\
---------------------------------------------------------------------------
    \11\ Ibid.

        Opportunities to Reduce Potential Duplication in Government 
---------------------------------------------------------------------------
        Programs, Save Tax Dollars, and Enhance Revenue

        In March of 2011, GAO issued a report to Congress in response 
        to a new statutory requirement that GAO identify federal 
        programs, agencies, offices, and initiatives, either within 
        departments or governmentwide, which have duplicative goals or 
        activities. The report contained a section on SPOT and stated:

          Congress may wish to consider limiting program funding 
        pending receipt of an independent assessment of TSA's SPOT 
        program. GAO identified potential budget savings of about $20 
        million per year if funding were frozen at current levels until 
        validation efforts are complete. Specifically, in the near 
        term, Congress could consider freezing appropriation levels for 
        the SPOT program at the 2010 level until the validation effort 
        is completed. Assuming that TSA is planning to expand the 
        program at a similar rate each year, this action could result 
        in possible savings of about $20 million per year, since TSA is 
        seeking about a $20 million increase for SPOT in fiscal year 
        2011. Upon completion of the validation effort, Congress may 
        also wish to consider the study's results-including the 
        program's effectiveness in using behavior-based screening 
        techniques to detect terrorists in the aviation environment-in 
        making future funding decisions regarding the program. \12\
---------------------------------------------------------------------------
    \12\  Opportunities to Reduce Potential Duplication in Government 
Programs, Save Tax Dollars, and Enhance Revenue, Government 
Accountability Office, March 2011, available at: http://www.gao.gov/
new.items/d11318sp.pdf
---------------------------------------------------------------------------
Credibility Assessment at Portals Report

    In April 2009, the Portals Committee issued a report for the 
Defense Academy for Credibility Assessment titled: ``Credibility 
Assessment at Portals.'' \13\ The committee recognized the need for 
``advanced and accurate credibility assessment,'' \14\ which is 
described as ``a decision making process whereby a communication is 
assessed as to its veracity.'' The Portals Committee had the following 
to say about SPOT:
---------------------------------------------------------------------------
    \13\ ``Credibility Assessment at Portals,'' Portals Committee 
Report, April 17, 2009, available at: http://truth.boisestate.edu/
eyesonly/Portals/PortalsCommitteeReport.pdf
    \14\ Ibid.

          ``The adoption of SPOT occurred despite the fact that no 
        study in the peer-reviewed scientific literature suggests that 
        accurate credibility assessments can be made from unstructured 
        observations. Within SPOT it appears that the observers are 
        attempting to assess airline passengers by casual observation 
        of facial micro-expressions (Wilber & Nakashima, 2007). There 
        are several problems with this. First, scientific research does 
        not support the notion that microexpressions reliably betray 
        concealed emotion (Porter & ten Brinke, 2008). Second, whereas 
        brief facial activity may reveal the purposeful manipulation of 
        a felt emotion (Porter & ten Brinke, 2008), the problems of 
        interpretation of such manipulation renders the approach 
        useless for practical purposes. Third, the microexpression 
        approach equates deception with manipulated emotion. This 
        conceptual confusion obscures the fact that most forensically 
        relevant lies are not lies about feelings but about actions in 
        the past, present or future. In conclusion, the use of 
        microexpressions to establish credibility is theoretically 
        flawed and has not been supported by sound scientific research 
        (Vrij, 2008).'' \15\
---------------------------------------------------------------------------
    \15\ Ibid.
---------------------------------------------------------------------------
JASON
    Comprised of world renowned scientists, JASON advises the federal 
government on science and technology issues. The vast majority of its 
work is done at the request of the Department of Defense and the 
intelligence community, so its reports are typically classified.
    However, a 2010 Nature article that discusses the SPOT program in a 
piece on deception detection provides the following: ``No scientific 
evidence exists to support the detection or inference of future 
behaviour, including intent,' declares a 2008 report prepared by the 
JASON defense advisory group.'' \16\
---------------------------------------------------------------------------
    \16\ Supra n.5.
---------------------------------------------------------------------------
National Research Council (NRC) of the National Academies
    Workshop Summary on Field Evaluation in the Intelligence and 
Counterintelligence Context
    On September 22-23, 2009, the NRC's Board on Behavioral, Cognitive, 
and Sensory Sciences held a workshop on ``the field evaluation of 
behavioral and cognitive sciences-based methods and tools for use in 
the areas of intelligence and counter intelligence.'' \17\ The workshop 
was sponsored by the Defense Intelligence Agency and the Office of the 
Director of National Intelligence. The purpose of the workshop was to 
``discuss the best ways to take methods and tools from behavioral 
science and apply them to work in intelligence operations. More 
specifically, the workshop focused on the issue of field evaluation - 
the testing of these methods and tools in the context in which they 
will be used in order to determine if they are effective in real world 
settings.'' \18\
---------------------------------------------------------------------------
    \17\ ``Field Evaluation in the Intelligence and Counterintelligence 
Context,'' National Research Council of the National Academies , 2010, 
available at: http://books.nap.edu/openbook.php?record_id=12854&page=R1
    \18\ Ibid.
---------------------------------------------------------------------------
    The NRC published a report in 2010 summarizing the presentations 
and discussions over the 2-day period. Participants of the workshop 
included NRC members and experts in the behavioral sciences and 
intelligence community. The goal of the workshop was ``not to provide 
specific recommendations but to offer some insight - in large part 
through specific examples taken from other fields - into the sorts of 
issues that surround the area of field evaluations. The discussions 
covered such ground as the obstacles to field evaluation of behavioral 
science tools and methods, the importance of field evaluation, and 
various lessons learned from experience with field evaluation in other 
areas.'' \19\
---------------------------------------------------------------------------
    \19\ Ibid.
---------------------------------------------------------------------------
    While the report identified several obstacles, one of interest to 
this Subcommittee hearing is ``the pressure to use new devices and 
techniques as soon as they become available, without waiting for 
rigorous validation. Because lives are at stake, those in the field 
often push to adopt new methods and tools as quickly as possible and 
before there has been time to evaluate them adequately. Once a method 
is in widespread use, anecdotal evidence can lead its users to believe 
in its effectiveness and to resist rigorous testing, which may show 
that it's not as effective as they think.'' \20\
---------------------------------------------------------------------------
    \20\ ?Field Evaluation in the Intelligence and Counterintelligence 
Context,? National Research Council of the National Academies, March 
2010, available at: http://www7.nationalacademies.org/bbcss/Highlights-
Field%20Evaluation%20in%20the%20Intelligence%20and%20Counterintelligence
%20Context.pdf

    Protecting Individual Privacy in the Struggle Against Terrorists - 
---------------------------------------------------------------------------
A Framework for Program Assessment

    From 2005 to 2007, the NRC's 21-member Committee on Technical and 
Privacy Dimensions of Information for Terrorism Prevention and Other 
National Goals held several meetings to ``examine the role of data 
mining and behavioral surveillance technologies in counterterrorism 
programs.'' \21\ The ensuing NRC report provides ``a framework for 
making decisions about deploying and evaluating those [programs] and 
other information based programs on the basis of their effectiveness 
and associated risks to personal privacy.'' \22\
---------------------------------------------------------------------------
    \21\ ``Protecting Individual Privacy in the Struggle against 
Terrorists - A Framework for Program Assessment,'' National Research 
Council of the National Academies, 2008, available at: http://
books.nap.edu/openbook.php?record_id=12452&page=1
    \22\ Ibid.
---------------------------------------------------------------------------
    The report presented 13 conclusions and 2 broad recommendations. Of 
interest to this Subcommittee hearing are the following conclusions:

    <bullet>  ``Conclusion 3: Inferences about intent and/or state of 
mind implicate privacy issues to a much greater degree than do 
assessments or determinations of capability.

      Although it is true that capability and intent are both needed to 
pose a real threat, determining intent on the basis of external 
indicators is inherently a much more subjective enterprise than 
determining capability. Determining intent or state of mind is 
inherently an inferential process, usually based on indicators such as 
whom one talks to, what organizations one belongs to or supports, or 
what one reads or searches for online. Assessing capability is based on 
such indicators as purchase or other acquisition of suspect items, 
training, and so on. Recognizing that the distinction between 
capability and intent is sometimes unclear, it is nevertheless true 
that placing people under suspicion because of their associations and 
intellectual explorations is a step toward abhorrent government 
behavior, such as guilt by association and thought crime. This does not 
mean that government authorities should be categorically proscribed 
from examining indicators of intent under all circumstances-only that 
special precautions should be taken when such examination is deemed 
necessary.''

    <bullet>  ``Conclusion 4: Program deployment and use must be based 
on criteria more demanding than `it's better than doing nothing.''

      In the aftermath of a disaster or terrorist incident, policy 
makers come under intense political pressure to respond with measures 
intended to prevent the event from occurring again. The policy impulse 
to do something (by which is usually meant something new) under these 
circumstances is understandable, but it is simply not true that doing 
something new is always better than doing nothing. Indeed, policy 
makers may deploy new information-based programs hastily, without a 
full consideration of (a) the actual usefulness of the program in 
distinguishing people or characteristic patterns of interest for 
follow-up from those not of interest, (b) an assessment of the 
potential privacy impacts resulting from the use of the program, (c) 
the procedures and processes of the organization that will use the 
program, and (d) countermeasures that terrorists might use to foil the 
program.

    <bullet>  ``Conclusion 10: Behavioral and physiological monitoring 
techniques might be able to play an important role in counterterrorism 
efforts when used to detect (a) anomalous states (individuals whose 
behavior and physiological states deviate from norms for a particular 
situation) and (b) patterns of activity with well-established links to 
underlying psychological states.

      Scientific support for linkages between behavioral and 
physiological markers and mental state is strongest for elementary 
states (simple emotions, attentional processes, states of arousal, and 
cognitive processes), weak for more complex states (deception), and 
nonexistent for highly complex states (terrorist intent and beliefs). 
The status of the scientific evidence, the risk of false positives, and 
vulnerability to countermeasures argue for behavioral observation and 
physiological monitoring to be used at most as a preliminary screening 
method for identifying individuals who merit additional follow-up 
investigation. Indeed, there is no consensus in the relevant scientific 
community nor on the committee regarding whether any behavioral 
surveillance or physiological monitoring techniques are ready for use 
at all in the counterterrorist context given the present state of the 
science.''

    <bullet>  ``Conclusion 11: Further research is warranted for the 
laboratory development and refinement of methods for automated, remote, 
and rapid assessment of behavioral and physiological states that are 
anomalous for particular situations and for those that have well-
established links to psychological states relevant to terrorist intent.

      A number of techniques have been proposed for the machine-
assisted detection of certain behavioral and physiological states. For 
example, advances in magnetic resonance imaging (MRI), 
electroencephalography (EEG), and other modern techniques have enabled 
measures of changes in brain activity associated with thoughts, 
feelings, and behaviors. Research in image analysis has yielded 
improvements in machine recognition of faces under a variety of 
circumstances (e.g., when a face is smiling or when it is frowning) and 
environments (e.g., in some nonlaboratory settings).

      However, most of the work is still in the basic research stage, 
with much of the underlying science still to be validated or 
determined. If real-world utility of these techniques is to be 
realized, a number of issues- practical, technical, and fundamental-
will have to be addressed, such as the limits to understanding, the 
largely unknown measurement validity of new technologies, the lack of 
standardization in the field, and the vulnerability to countermeasures. 
Public acceptability regarding the privacy implications of such 
techniques also remains to be demonstrated, especially if the resulting 
data are stored for unknown future uses or undefined lengths of time.

      For example, the current state-of-the-art of functional MRI 
technology can identify changes in the hemodynamics in certain regions 
of the brain, thus signaling activity in those regions. But such 
results are not necessarily consistent across individuals (i.e., 
different areas in the brains of different individuals may be active 
under the same stimulus) or even in the same individual (i.e., a 
slightly different part of the brain may become active even in the same 
individual under the same stimulus). Certain regions of the brain may 
be active under a variety of different stimuli.

      In short, understanding of what these regions do is still 
primitive. Furthermore, even if simple associations can be made 
reliably in laboratory settings, this does not necessarily translate 
into usable technology in less controlled situations. Behavior of 
interest to detect, such as terrorist intent, occurs in an environment 
that is very different from the highly controlled behavioral science 
laboratory.''

    <bullet>  ``Conclusion 12: Technologies and techniques for 
behavioral observation have enormous potential for violating the 
reasonable expectations of privacy of individuals.

      Because the inferential chain from behavioral observation to 
possible adverse judgment is both probabilistic and long, behavioral 
observation has enormous potential for violating the reasonable 
expectations of privacy of individuals. It would not be unreasonable to 
suppose that most individuals would be far less bothered and concerned 
by searches aimed at finding tangible objects that might be weapons or 
by queries aimed at authenticating their identity than by technologies 
and techniques whose use will inevitably force targeted individuals to 
explain and justify their mental and emotional states. Even if 
behavioral observation and physiological monitoring are used only as a 
preliminary screening methods for identifying individuals who merit 
additional follow-up investigation, Because the inferential chain from 
behavioral observation to possible adverse judgment is both 
probabilistic and long, behavioral observation has enormous potential 
for violating the reasonable expectations of privacy of individuals. It 
would not be unreasonable to suppose that most individuals would be far 
less bothered and concerned by searches aimed at finding tangible 
objects that might be weapons or by queries aimed at authenticating 
their identity than by technologies and techniques whose use will 
inevitably force targeted individuals to explain and justify their 
mental and emotional states. Even if behavioral observation and 
physiological monitoring are used only as a preliminary screening 
methods for identifying individuals who merit additional follow-up 
investigation, these individuals will be subject to suspicion that 
would not fall on others not so identified.'' \23\
---------------------------------------------------------------------------
    \23\ Ibid.
---------------------------------------------------------------------------

Issues

Detection of Emotion
    The state of science relative to the detection of emotion, deceit, 
and intent are vastly different. Decades of research have been devoted 
to the detection of emotion using verbal, nonverbal, and microfacial 
expressions. Each of these observational techniques have shown to have 
varying degrees of success at determining an individual's emotion, but 
generally speaking, a scientific foundation does exist to support the 
assertion that emotion can be determined through behavioral cues.
Detection of Deceit
    The foundation of research for detecting an expression of deceit is 
rooted in that of emotion. For example, it is posited that a deceitful 
person would express emotions such as stress, and that stress can be 
attributed to concealing a lie. The state of the science in this regard 
is less solid. Witnesses at the hearing will testify to the current 
strengths and weaknesses of this field.
Detection of Intent
    Even less certainty exists regarding the ability to determine 
intent. This ability is asserted by assuming that a person who intends 
to do harm will be concealing this fact, thereby expressing deceitful 
behaviors - and that deceitful behavioral cues are founded in stress, 
which in turn are displayed in emotion. This chain of reasoning takes 
the underlying assumption that behavioral indicators exist for 
detecting emotion and infers that indicators can therefore be used to 
detect deceit, and therefore intent. Very little, if any, evidence 
exists in the scientific literature to support this hypothesis, yet 
this is the goal of the SPOT program - to identify individuals who may 
pose a threat to aviation security.
Laboratory vs. Operational Settings
    The vast preponderance of behavioral science research conducted 
relative to the detection of emotion, deceit, and intent has been done 
in a laboratory setting. As the National Research Council noted in its 
2008 report, ``Behavior of interest to detect, such as terrorist 
intent, occurs in an environment that is very different from the highly 
controlled behavioral science laboratory.'' \24\
---------------------------------------------------------------------------
    \24\ Supra n.21.
---------------------------------------------------------------------------
Utility for Counterterrorism
    Even if one was to stipulate that a body of evidence existed to 
support the claim that one could detect intent using behavioral 
indicators, it remains to be seen how useful this would be in a 
counterterrorism context. In all likelihood, anyone seeking to cause 
harm would employ countermeasures designed to conceal their emotions. 
It remains to be seen what impact countermeasures will have on the 
ability to detect emotions, deception, or intent, but if other 
deception detection tools (such as the polygraph) are any indicator, 
they could severely degrade the capability.
Utility in a U.S. Aviation Transportation Setting
    The SPOT program is loosely based on the Israeli model successfully 
employed by El Al Airlines. This highly successful program employs more 
agents in more locations throughout the airport, conducts multiple face 
to face interviews, actively profiles passengers, and operates in 
smaller and fewer airports. They also have much fewer passengers and 
far fewer flights than the U.S. air transportation system. Israeli 
screeners also receive more training than the four days of classroom 
training, and three days of on the job training that BDOs receive. 
Scaling up such an enterprise to accommodate the U.S. Aviation 
Transportation Sector would severely restrict the flow of commerce and 
passengers.

DHS S&T Validation

    In its report, GAO states that ``TSA deployed SPOT nationwide 
without first validating the scientific basis for the program.'' \25\ 
To its credit, DHS S&T initiated a review two and a half years ago to 
``determine whether SPOT is more effective at identifying passengers 
who may be threats to the aviation system than random screening.'' \26\ 
GAO goes on to point out in its report, ``However, S&T's current 
research plan is not designed to fully validate whether behavior 
detection and appearances can be effectively used to reliably identify 
individuals in an airport terminal environment who pose a risk to the 
aviation system.'' \27\ The report further states that, according to 
the National Research Council, ``an independent panel could provide an 
objective assessment of the methodologies and findings of DHS's study 
to better ensure that SPOT is based on valid science.'' \28\
---------------------------------------------------------------------------
    \25\ Supra n.1.
    \26\ Ibid.
    \27\ Ibid.
    \28\ Ibid.
---------------------------------------------------------------------------
    These are two important points. First, the S&T review is not 
designed to validate the underlying behavioral cues, but rather to 
simply demonstrate whether the program, as a whole, is more successful 
than random sampling. As GAO stated in its recent ``Duplication'' 
report, ``DHS's response to GAO's report did not describe how the 
review currently planned is designed to determine whether the study's 
methodology is sufficiently comprehensive to validate the SPOT 
program.'' \29\ Second, based on the Statement of Work associated with 
S&T's review, questions remain as to whether or not the review is truly 
independent.
---------------------------------------------------------------------------
    \29\ Supra n.12.
---------------------------------------------------------------------------
    The Statement of Work affirms that S&T had a direct role in 
selecting peer reviewers, as well as planning and structuring workshops 
that informed the methodology to validate the program. The Statement of 
Work also afforded DHS the ability to review and provide revision 
recommendations at numerous points in the process. Finally, the 
Statement of Work indicates that deliverables are to be provided to S&T 
directly. \30\ Whether or not this affected the outcome is uncertain. 
The validation work was conducted by the American Institute for 
Research, a high respected and reputable firm, but ultimately they are 
contractually bound by the parameters and scope defined by Statement of 
Work negotiated with DHS. It remains to be seen whether the review was 
an independent assessment, as recommended by the National Research 
Council, or more of a collaboration.
---------------------------------------------------------------------------
    \30\ Statement of Work for the Naval Research Laboratory, Project 
Hostile Intent: Behavioral-Based Screening Indicators Validation, U.S. 
department of Homeland Security, Science and Technology Directorate, 
Human Factors and Behavioral Sciences Division, PR# RSHF-11-00007.
---------------------------------------------------------------------------
    Nevertheless, S&T's two and a half year review (at a cost of $2.5 
million) was initially planned to be delivered in Fiscal year 2011, 
\31\ then February 2011, \32\ and then the end of March 2011. Its 
current release date is for April 8th, two days after our hearing. The 
Subcommittee postponed this hearing, initially scheduled for March 
17th, for a number of reasons, including allowing S&T more time to 
produce the report.
---------------------------------------------------------------------------
    \31\ Supra n.1.
    \32\ Supra n.12.
---------------------------------------------------------------------------

Witnesses

    <bullet>  Mr. Stephen Lord, Director, Homeland Security and Justice 
Issues, Government Accountability Office

    <bullet>  Transportation Security Administration (Invited)

    <bullet>  Mr. Larry Willis, Program Manager, Homeland Security 
Advanced Research Projects Agency, Science and Technology Directorate, 
Department of Homeland Security

    <bullet>  Dr. Paul Ekman, Professor Emeritus of Psychology, 
University of California, San Francisco, and President and Founder, 
Paul Ekman Group, LLC

    <bullet>  Dr. Maria Hartwig, Associate Professor, Department of 
Psychology, John Jay College of Criminal Justice

    <bullet>  Dr. Philip Rubin, Chief Executive Officer, Haskins 
Laboratories

    <bullet>  Lieutenant Detective Peter J. DiDomenica, Boston 
University Police

                               Appendix 1

                    Department of Homeland Security

                   Science and Technology Directorate

               Human Factors Behavioral Sciences Projects

    These projects advance national security by developing and applying 
the social, behavioral, and physical sciences to improve identification 
and analysis of threats, to enhance societal resilience, and to 
integrate human capabilities into the development of technology.

Commercial Data Sources Project

Project Manager: Patty Wolfhope
Project Overview: The Science and Technology (S&T) Directorate Human 
Factors Behavior Sciences Division (HFD) Commercial Data Sources 
Project will quantitatively assess the utility of commercial data 
sources to augment governmentally available information about people, 
foreign and domestic, being screened, investigated, or vetted by the 
Department. The use of commercial data sources may provide a valuable 
source of corroborating information to ensure that an individual's 
identity and eligibility for a particular license, privilege, or status 
is correctly evaluated during screening. This project is part of the 
Personal Identification Systems Thrust Area and Credentialing Program 
within HFD.

Community Perceptions of Technology Panel Project

Project Manager: Ji Sun Lee

Project Overview: The Science and Technology (S&T) Directorate Human 
Factors/ Behavioral Sciences Division (HFD) Community Perceptions of 
Technology Panel (CPT) Project brings together representatives of 
industry, public interest, and community-oriented organizations to 
better understand and integrate community perspectives and concerns in 
the development, deployment, and public acceptance of technology. This 
will yield feedback to aid ongoing technology and process development 
and strategies to accurately inform the public of new approaches to 
securing the homeland. This is designed to better ensure acceptance of 
the technology within affected communities. This project is part of the 
Human Technology Integration Thrust Area and Technology Acceptance and 
Integration Program within HFD.

Community Resilience Project

Project Manager: Michael Dunaway

Project Overview: The Science and Technology (S&T) Directorate Human 
Factors/ Behavioral Sciences Division (HFD) Counter-Improvised 
Explosives Devices (IED) Community Resilience Project conducts research 
into methodologies for effective hazard and risk communications to 
enhance the ability of local officials to convey understandable and 
credible warnings of IED activity to the public. This project will help 
local government and civic officials understand how to properly frame 
risk warnings and post-event instructions to the public in a manner 
that maximizes the public's understanding of the instructions provided 
and maintains public trust and confidence. HFD is executing this 
project as part of the Counter Improvised Explosive Devices (C-IED) 
Thrust Area and Mitigate Program within Explosives Division.

Counter-IED Actionable Indicators and Countermeasures Project

Project Manager: Allison Smith, Ph.D.

Project Overview: The Science and Technology (S&T) Directorate Human 
Factors/Behavioral Sciences Division (HFD) Counter-Improvised 
Explosives Devices (IED) Actionable Indicators and Countermeasures 
Project supports the intelligence and law enforcement communities in 
identifying actors that pose significant IED threats in the United 
States homeland. This project will provide practical tools through the 
synthesis of state-of-the-art social and behavioral science databases, 
case studies, surveys, and fieldwork and advanced computational 
modeling, simulation, and visualization technologies. It will also 
provide policymakers with scientifically tested strategies to prevent 
radicalization and IED attacks before they occur by examining how 
social and behavioral science principles can support the development of 
counter-radicalization efforts. HFD is executing this project as part 
of the Counter Improvised Explosive Devices (C-IED) Thrust Area and 
Prevent/Deter Program.

Credentialing Project

Project Manager: Patty Wolfhope

Project Overview: The Science and Technology (S&T) Directorate Human 
Factors Behavior Sciences (HFD) Division Credentialing Project develops 
tamper-proof credentialing systems that incorporate biometric 
information; such as a biometrics-based card-and-reader system. The 
project developed a laboratory test and evaluation protocol for the 
transportation worker identification card (TWIC) reader and plans to 
initiate research and design activities to improve the range and 
reliability of secure contactless technologies. This project is part of 
the Personal Identification Systems Thrust Area and Credentialing 
Program within HFD.

Enhanced Screener - Technology Interface Project

Project Manager: Josh Rubinstein, Ph.D.

Project Overview: The Science and Technology (S&T) Directorate Human 
Factors Behavioral Sciences (HFD) Division Enhanced Screener-Technology 
Interface Project characterizes screener-performance issues, proposes 
new screener technologies and procedures, and develops training 
curricula to optimize security effectiveness and reduce human fatigue 
and injury, while reducing training requirements and overall cost. This 
project is part of the Human Technology Integration Thrust Area and 
Transportation Technology-Human Integration Program within HFD.


Enhancing Public Response and Community Resilience Project

Project Manager: Michael Dunaway

Project Overview: The Science and Technology (S&T) Directorate Human 
Factors/ Behavioral Sciences Division (HFD) Enhancing Public Response 
and Community Resilience Project examines public needs (shelter, food, 
disaster relief, etc.) that arose during the evacuation from southern 
Texas during Hurricanes Katrina and Rita in order to enhance federal, 
state, local and private sector response to future catastrophic events. 
The goal is to capture and communicate lessons learned to enhance 
federal, state, local and private sector responses to future 
catastrophic events. This project is part of the Social and Behavioral 
Threat Analysis (SBTA) Thrust Area and Community Preparedness and 
Resilience Program within HFD.

High Impact Technological Solution - Biometric Detector Project

Project Manager: Arun Vemury

Project Overview: The Science and Technology (S&T) Directorate High 
Impact Technological Solutions (HITS) Project executed by the Human 
Factors/Behavioral Science Division (HFD) will provide efficient, high 
quality, contact less acquisition of fingerprint biometric signatures 
for identity management. This will result in significantly improved 
throughput and signal quality, thereby improving recognition and 
reducing false positive rates. The goal is to develop a fingerprint 
acquisition device that can be transitioned for implementation across 
Department components. This project is part of the Innovations 
Portfolio/Homeland Security Advanced Research Project Agency Program 
(HSARPA) within the S&T Directorate.

Homeland Innovation Prototypical Solutions - Future Attribute

Screening Technology (FAST) Project

Project Manager: Bob Burns

Project Overview: The Homeland Security Advanced Research Project 
Agency (HSARPA) and Science and Technology (S&T) Directorate Human 
Factors/Behavioral Sciences Division (HFD) Future Attribute Screening 
Technology (FAST) Project is an initiative to develop innovative, non-
invasive technologies to screen people at security checkpoints. FAST is 
grounded in research on human behavior and psychophysiology, focusing 
on new advances in behavioral/human-centered screening techniques. The 
aim is a prototypical mobile suite (FAST M2) that would be used to 
increase the accuracy and validity of identifying persons with 
malintent (the intent or desire to cause harm). Identified individuals 
would then be directed to secondary screening, which would be conducted 
by authorized personnel. This project is part of the Innovations 
Portfolio/Homeland Security Advanced Research Project Agency (HSARPA) 
Program within the S&T Directorate.

Hostile Intent Detection - Automated Prototype Project

Project Manager: Larry Willis

Project Overview: The Science and Technology (S&T) Directorate Human 
Factors/Behavioral Sciences Division (HFD) Hostile Intent Detection - 
Automated Prototype Project demonstrates real-time automated intent 
detection using non-invasive and culturally neutral behavioral 
indicators. S&T plans to transition the automated hostile intent 
prototype to the Transportation Security Administration, Customs and 
Border Protection, and Immigration and Customs Enforcement. This 
project is a part of the Social and Behavioral Threat Analysis Thrust 
Area and Suspicious Behavior Detection Program within HFD.

Hostile Intent Detection - Training & Simulation Project

Project Manager: Larry Willis

Project Overview: The Science and Technology (S&T) Directorate Human 
Factors/Behavioral Sciences Division (HFD) Hostile Intent Detection - 
Training and Simulation Project develops computer-based simulation to 
train behavior-based stand-off detection for future hostile intent 
using indicators from the interactive screening environment (Hostile 
Intent Detection - Automated Prototype) and the observational 
environment (Hostile Intent Detection - Validation) to support 
screening and interviewing interactions at air, land, and maritime 
portals. This project is part of the Social and Behavioral Threat 
Analysis Thrust Area and Suspicious Behavior Detection Program within 
HFD.

Hostile Intent Detection - Validation Project

Project Manager: Larry Willis

Project Overview: The Science and Technology (S&T) Directorate Human 
Factors/Behavioral Sciences Division (HFD) Hostile Intent Detection - 
Validation Project provides cross-cultural validation of behavioral 
indicators employed by Department of Homeland Security's operational 
components to screen passengers at air, land, and maritime ports. The 
project will integrate these validated behavioral indicators into the 
screening curriculum of each component's existing training program. 
This project is part of the Social and Behavioral Threat Analysis 
Thrust Area and Suspicious Behavior Detection Program within HFD.

Human Systems Engineering Project

Project Managers: Darren P. Wilson and Janae Lockett-Reynolds, Ph.D.

Project Overview: The Science and Technology (S&T) Directorate Human 
Factors/Behavioral Sciences Division (HFD) Project develops, 
demonstrates and evaluates a standardized process for implementing 
human systems integration. It will focus on defining human performance 
requirements in the development of systems and technology, and on 
methods and measures needed to evaluate existing technology in terms of 
human performance requirements. This effort also will result in greater 
understanding of the needs of the various Department end-user 
communities, as well as developing tools to best identify how to 
recruit, select, train, support, and retain operational staff. A 
systematic approach based on the integration of the human component 
will lead to enhanced system design, safety, efficiency, and 
operational performance. This project is part of the Human Technology 
Integration Thrust Area and Human Systems Research and Engineering 
Program within HFD.

Human Systems Engineering Research Project

Project Manager: Jennifer O'Connor, Ph.D.

Project Overview: The Science and Technology (S&T) Directorate Human 
Factors/Behavioral Science Division (HFD) projects examine human 
perception and ability to detect targets and threats as they pertain to 
the design of systems that maximize human performance, and the 
effectiveness of the technology operators use in the field. Results of 
this research allow the program to focus more closely on the 
psychological determiners that impact successful discrimination of 
threats and reduce false alarms. In addition to focusing on human 
perception, the project will also address how humans process 
information and how that impacts the human-machine interface. This 
project is part of the Human Technology Integration Thrust Area and 
Human Systems and Engineering Program within HFD.

Insider Threat Detection Program

Project Manager: Jennifer O'Connor, Ph.D.

Project Overview: The Science and Technology (S&T) Directorate Human 
Factors/Behavioral Sciences Division (HFD) Insider Threat Detection 
Project will detect insider behavior that is likely to present or lead 
to a threat to critical infrastructure using behavioral indicators. 
Department of Homeland Security will collaborate with other U.S. 
agencies and international partners to move beyond the current focus on 
responses to accomplished hostile insider acts, and begin developing a 
greater capacity to deter and detect insider threats before substantial 
harm has been done. The immediate operational goal is to produce new 
and better tools to identify behavior patterns and characteristics 
identifiable before, during, and after employment that are associated 
with insider threats. This project is part of the Social and Behavioral 
Threat Analysis Thrust Area and Suspicious Behavior Detection Program 
withinHFD.

Mobile Biometrics System Project

Project Manager: Patty Wolfhope

Project Overview: The Science and Technology (S&T) Directorate Human 
Factors/Behavior Sciences Division (HFD) Mobile Biometrics Project 
develops prototype technologies for mobile biometrics screening at 
remote sites along U.S. borders, during disasters and terrorist 
incidents, at sea, and in other places where communications access is 
limited. The goal is to demonstrate mobile biometrics screening 
capabilities and technologies that meet the future needs of Department 
operational users, but currently are not available with conventional 
biometrics systems. This project is part of the Personal Identification 
Systems Thrust Area and Biometrics Program within HFD.

Multi-modal Biometrics Project

Project Manager: Arun Vemury

Project Overview: The Science and Technology (S&T) Directorate Human 
Factors/Behavior Sciences Division (HFD) Multi-modal Biometrics Project 
develops biometric technologies that accurately and rapidly identify 
individuals. The operational goal is to provide the capability to non-
intrusively collect two or more biometrics (fingerprint, face image, 
and iris recognition) in less than ten seconds at a ninety-five percent 
acquisition rate without impeding the movement of individuals. The 
multi-modal technology will allow the Department to compare and match 
biometric samples from different sources, collected with different 
sensor technologies, under varying environmental conditions -- a 
capability that eludes existing technology. This project is part of the 
Personal Identification Systems Thrust Area and Biometrics Program 
within HFD.

Muslim Community Integration Project

Project Manager: Allison Smith, Ph.D.

Project Overview: The Science and Technology (S&T) Directorate Human 
Factors/Behavioral Sciences Division (HFD) Muslim Community Integration 
Project conducts ethnographic research to examine the experiences of 
Muslims and non-Muslims in several communities throughout the U.S. The 
project will provide insights into the current state of Muslim 
communities focusing on their role and status in America and their 
perceptions of American society. This project is part of the Social and 
Behavioral Threat Analysis Thrust Area and Community Preparedness, 
Response and Recovery Program within HFD.

Predictive Screening Project

Project Manager: Larry Willis

Project Overview: The Science and Technology (S&T) Directorate Human 
Factors/Behavioral Sciences Division (HFD) Counter-Improvised 
Explosives Devices (Counter-IED) Predictive Screening Project will 
derive observable behaviors that precede a suicide bombing attack and 
develop extraction algorithms to identify and alert personnel to 
indicators of suicide bombing behavior. HFD is executing this project 
as part of the Counter-IED Thrust Area and Predict Program.

Risk Prediction Project

Project Manager: Larry Willis

Project Overview: The Science and Technology (S&T) Directorate Human 
Factors/Behavioral Sciences Division (HFD) Counter-Improvised 
Explosives Devices Risk Prediction Project will develop high speed 
software to identify improvised explosive device (IED) target and 
staging areas based upon group-and-cultural-specific tactics, 
techniques, and procedures derived from past foreign attacks. The goal 
is to use this information to prioritize the risk of likely potential 
targets of IED attacks within the United States. HFD is executing this 
project as part of the Counter-IED Thrust Area and Predict Program.

Social Network Analysis for Community Resilence Project

Project Manager: Michael Dunaway

Project Overview: The Science and Technology (S&T) Directorate Human 
Factors/Behavioral Sciences Division (HFD) Social Network Analysis for 
Community Resilience Project develops a modeling capability for 
identifying formal and informal social networks that may be useful in 
enhancing preparedness and community resilience to natural disasters 
and terrorist events. This effort will leverage social network analysis 
research for understanding terrorist networks, social and financial 
transactions, and the spread of infectious diseases, and apply that 
knowledge to the construction of networks dedicated to strengthening 
local response capabilities and preparedness. It will also leverage 
past and on-going work from the Department of Defense (DOD) and other 
agencies. This project is part of the Social and Behavioral Threat 
Analysis Thrust Area and Community Preparedness and Resilience Program 
within HFD.

Violent Intent Modeling and Simulation Project

Project Manager: Ji Sun Lee

Project Overview: The Science and Technology (S&T) Directorate Human 
Factors/Behavioral Sciences Division (HFD) Violent Intent Modeling and 
Simulation Project develops intelligence analysis frameworks, including 
extraction of terrorist intention signatures, systematic estimation of 
future terrorist behavior based on social and behavioral sciences, and 
modeling and simulations of future terrorist behavior influences. It 
identifies leading edge social science modeling and simulation 
technologies and advances social science modeling and data fusion 
capabilities in such areas as hybrids of neural nets, structural 
equations, genetic algorithms, social networks, etc. This project is 
part of the Social and Behavioral Threat Analysis Thrust Area and 
Motivation and Intent Program within HFD.

Source: http://www.dhs.gov/files/programs/gc_1218480185439.shtm
    Chairman Broun. The Subcommittee on Investigations and 
Oversight will come to order. Good morning. Welcome to today's 
hearing titled ``Behavioral Science and Security: Evaluating 
TSA's SPOT Program.'' You will find in front of you packets 
containing our witness panel's written testimony, biographies, 
and Truth-in-Testimony disclosures.
    Before we get started, this being the first meeting of the 
Investigations and Oversight Subcommittee for the 112th 
Congress, I would like to ask the Subcommittee's indulgence to 
introduce myself. It is an honor and a pleasure for me to chair 
the I&O Subcommittee for this Congress, and it is a position 
that I do not take lightly. I want all Members of this 
Subcommittee to know that my door is always open, that I will 
endeavor to serve all Members fairly and impartially, and that 
I will work to serve the best interests of Congress, and all 
Americans, to ensure that the agencies and programs under our 
jurisdiction are worthy of the public's support.
    And I recognize myself for five minutes for an opening 
statement. Today the Subcommittee meets to evaluate TSA's SPOT 
program. Developed in the wake of September 11, 2001, it was 
deployed on a limited basis in a select number of airports in 
2003. In 2007, TSA created new Behavioral Detection Officer 
(BDO) positions whose goal was to use behavioral indicators to 
identify persons who may pose a potential security risk to 
aviation. This goal expanded in recent years to include the 
identification of any criminal activity. TSA currently employs 
about 3,000 BDOs in about 161 airports at the cost of over $200 
million a year. The President's fiscal year 2012 budget request 
asks for an increase of 9.5 percent and an additional 175 BDOs. 
Over the next five years, the SPOT program will cost roughly 
$1.2 billion.
    Outside of a few brief exchanges at Appropriations 
Committee hearings, Congress has not evaluated this program. 
That isn't to say that Congress wasn't paying attention, as GAO 
conducted a comprehensive review that culminated in a report on 
the SPOT program last May. In that report, GAO identified 
several problems with the program, most notably that it was 
deployed without being scientifically validated.
    This is a common theme that this Committee is increasingly 
forced to deal with. Expensive programs are rolled out without 
conducting the necessary analysis. This has become a trend 
throughout the Federal Government but particularly at the 
Department of Homeland Security.
    This Committee has a long history with the development and 
acquisition of the Advanced Spectroscopic--as a southerner it 
is hard to say Spectroscopic--Portal program, but other 
technology programs such as the Backscatter Advanced Imaging 
Technology, explosives trace-detection portal machines, and the 
Cargo Advanced Automated Radiography System all ran into 
problems because they were rolled out before they were ready. 
DHS either fails to properly test and evaluate the technology, 
does not conduct a proper risk analysis, or neglects to conduct 
a cost/benefit analysis.
    A crucial aspect that is oftentimes taken for granted by 
DHS is the nexus between those developing the technology and 
those actually using it. In the case of SPOT, it seems as 
though the operators got out ahead of the developers, but 
typically what we see is the opposite; the scientists and 
engineers developing capabilities that do not appropriately fit 
into an operational environment. Unfortunately, this is an 
issue that the Committee is unable to address today because of 
TSA's refusal to attend.
    The goal of this hearing is to shed light on the processes 
by which DHS created the SPOT program, to better understand the 
state of the science that forms the foundation of the program, 
to examine the methodologies by which DHS S&T is evaluating the 
program, and to identify any opportunities to improve how 
behavioral sciences are utilized in the security context. The 
goal is not to throw out the proverbial baby with the bath 
water, but rather to ensure that the science being used is not 
oversold or undersold.
    SPOT is the first behavioral science program to stick its 
neck out for evaluation. This review is an opportunity to look 
at how behavioral sciences can be used appropriately across the 
security enterprise and to understand its limitations and 
strengths.
    To its credit, DHS S&T is conducting an evaluation of the 
program for TSA. This report was due earlier this year in 
February, then at the end of March, and now is expected 
shortly. And hopefully we will get that shortly. While this is 
a good first step, I am eager to hear how independent this 
evaluation truly is. I look forward to understanding the 
review's methodology, its assumptions, and what level of input 
and access DHS S&T had in its design, formulation, and 
findings.
    As GAO stated in its recent duplication report, ``DHS's 
response to GAO's report did not describe how the review 
currently planned is designed to determine whether the study's 
methodology is sufficiently comprehensive to validate the SPOT 
program.'' I hope you all understood that bureaucratese.
    The use of behavioral sciences in the security setting is 
not just another layer to security. There is clear opportunity 
costs that have to be paid. For every BDO employed to identify 
behaviors, there is one screener who is not looking at an x-ray 
of baggage, one intelligence analyst not employed, or one air 
marshal not in the sky. I realize this isn't a one-for-one 
substitute, but clearly there are tradeoffs that have to be 
made in a very difficult fiscal environment.
    Also, I would be remiss if I did not address the clear 
privacy issues that this technology and other DHS technologies 
present. Privacy, along with the serious Constitutional 
questions I have, only compounds the complexity of the issue. 
While the focus of the hearing today is the science behind the 
program, I don't want these other important issues to be 
forgotten.
    Now, the Chair recognizes Ms. Edwards for an opening 
statement. Ms. Edwards?
    [The prepared statement of Mr. Broun follows:]
               Prepared Statement of Chairman Paul Broun
    Today the Subcommittee meets to evaluate TSA's SPOT program. 
Developed in the wake of September 11, 2001, it was deployed on a 
limited basis in a select number of airports in 2003. In 2007, TSA 
created new Behavioral Detection Officer (BDO) positions whose goal was 
to use behavioral indicators to identify persons who may pose a 
potential security risk to aviation. This goal expanded in recent years 
to include the identification of any criminal activity. TSA currently 
employs about 3,000 BDOs in about 161 airports at a cost of over $200 
million a year. The President's FY12 budget request asks for an 
increase of 9.5%, and an additional 175 BDOs. Over the next five years, 
the SPOT program will cost roughly $1.2 billion.
    Outside of a few brief exchanges at Appropriations Committee 
Hearings, Congress has not evaluated this program. That isn't to say 
that Congress wasn't paying attention, as GAO conducted a comprehensive 
review that culminated in a report on the SPOT program last May. In 
that report, GAO identified several problems with the program, most 
notably that it was deployed without being scientifically validated.
    This is a common theme that this Committee is increasingly forced 
to deal with. Expensive programs are rolled out without conducting the 
necessary analysis. This has become a trend throughout the federal 
government, but particularly at the Department of Homeland Security. 
This Committee has a long history with the development and acquisition 
of the Advanced Spectroscopic Portal program, but other technology 
programs such as the Backscatter Advanced Imaging Technology, 
explosives trace-detection portal machines, and the Cargo Advanced 
Automated Radiography System all ran into problems because they were 
rolled out before they were ready. DHS either fails to properly test 
and evaluate the technology, does not conduct a proper risk analysis, 
or neglects to conduct a cost-benefit analysis. A crucial aspect that 
is often times taken for granted by DHS is the nexus between those 
developing the technology, and those actually using it. In the case of 
SPOT, it seems as though the operators got out ahead of the developers, 
but typically what we see is the opposite, the scientists and engineers 
developing capabilities that do not appropriately fit into an 
operational environment. Unfortunately, this is an issue that the 
Committee is unable to address today because of TSA's refusal to 
attend.
    The goal of this hearing is to shed light on the processes by which 
DHS created the SPOT program, to better understand the state of the 
science that forms the foundation of the program, to examine the 
methodologies by which DHS S&T is evaluating the program, and identify 
any opportunities to improve how behavioral sciences are utilized in 
the security context. The goal is not to ``throw the baby out with the 
bath water,'' but rather to ensure that the science being used is not 
oversold, or undersold. SPOT is the first behavioral science program to 
stick its neck out for validation. This review is an opportunity to 
look at how behavioral sciences can be used appropriately across the 
security enterprise and to understand its limitations and strengths.
    To its credit, DHS S&T is conducting an evaluation of the program 
for TSA. This report was due earlier this year in February, then at the 
end of March, and is now expected shortly. While this is a good first 
step, I am eager to hear how independent this evaluation truly is. I 
look forward to understanding the review's methodology, its 
assumptions, and what level of input and access DHS S&T had in its 
design, formulation and findings. As GAO stated in its recent 
duplication report, ``DHS's response to GAO's report did not describe 
how the review currently planned is designed to determine whether the 
study's methodology is sufficiently comprehensive to validate the SPOT 
program.''
    The use of behavioral sciences in the security setting is not just 
another layer to security. There are clear opportunity costs that have 
to be paid. For every BDO employed to identify behaviors, there is one 
screener who is not looking at an x-ray of baggage, one intelligence 
analyst not employed, or one air marshal not in the sky. I realize this 
isn't a one-for-one substitute, but clearly there are trade-offs that 
have to be made in a very difficult fiscal environment. Also, I would 
be remiss if I did not address the clear privacy issues that this 
technology and other DHS technologies present. Privacy, along with the 
serious Constitutional questions I have, only compounds the complexity 
of the issue. While the focus of the hearing today is the science 
behind the program, I don't want these other important issues to be 
forgotten.

    Ms. Edwards. Thank you, Mr. Chairman. And congratulations 
to you as you convene the first of what I hope are many 
oversight hearings to make sure that we are paying attention to 
the kind of oversight that we need to engage in on the Science 
and Technology Committee on behalf of the taxpayers.
    I would like to say that I, too, am disappointed that TSA 
is not here today, wasn't able to provide a witness. I think 
they lost an important opportunity to inform the Congress and 
the public why they believe the SPOT program is worthy of our 
support. And I hope they will cooperate with this Committee and 
the Congress in the future. And I hope it is not terribly 
distracting as we get to the witnesses. I don't want any one of 
them to be identified as TSA and I know it is a little 
confusing for me up here.
    Let me just say in opening that I think each one of us has 
had an experience of instinctively sensing that something about 
a situation or person is wrong or it is worrying. Police 
officers, immigration officers, transportation security 
officers have those instinctive feelings all the time. However, 
it is an open question whether instinctive reactions are 
reliable as warnings of mal-intent. We also do not know whether 
a person can be trained to accurately sort through their 
instinctive reactions, choosing to intervene when faced with a 
potential threat and to resist reactions based on racial 
profiling.
    What the Transportation Security Administration has tried 
to do is develop behavioral training for officers so they can 
quickly and accurately assess and screen passengers. Can 
hunches be harnessed in service of identifying potential 
threats to air safety? That is the key question that underlies 
today's hearing and I hope we will be able to dig deeply into 
those questions.
    After Richard Reid's failed shoe bombing, some in the 
aviation security community concluded that we were spending too 
much time and money on trying to stop the bomb and not enough 
to stop the bomber. Screening of passengers by observation 
techniques, or SPOT, was viewed by TSA as a way to get some 
officers' eyes off the scanning screens and onto the 
passengers.
    Those credited with helping to develop the SPOT program, 
some of whom are testifying before us today, intended the 
program to train Behavior Detection Officers (BDOs) to focus on 
an individual's behavior, appearance, and demeanor. An ongoing 
concern, however, with the BDOs and with law enforcement as 
well is that they not engage in racial profiling. If BDOs focus 
on a passenger's ethnic, religious, or racial qualities, they 
are violating the law, and they are not acting to protect the 
flying public.
    Terrorists have come in all colors, shapes, and sizes, and 
if security personnel were fixated on a profiling approach to 
finding the next Mohammed Atta, then they would miss 
identifying the next John Walker Lindh, Timothy McVeigh, or 
Richard Reid.
    The SPOT program tries to identify a specific menu of 
behaviors that will naturally emerge due to elevated levels of 
anxiety or stress. The hypothesis is that terrorists would 
display those cues when attempting to enter a secure facility 
such as an airport. But behavioral scientists do not agree on 
these nonverbal cues and they don't agree on whether terrorists 
would exhibit them. Because it is impossible to get a group of 
terrorists to participate in a double-blind experiment, it is 
hard to validate the theory.
    DHS points to the program's success in identifying people 
who have violated the law and are caught, but no one can be 
certain criminals and terrorists behave in a similar fashion. 
TSA relies on nonverbal cues to help sort through the more than 
one million passengers that fly into the United States each 
day. Nonverbal cues provide a filtering method to allow 
officers to determine who they should engage in discussion 
looking for verbal signs of deception. There is more agreement 
among social scientists that verbal interactions with 
individuals can actually help in detecting deception.
    We would hope that a DHS-funded validation report on the 
SPOT program would be available for this hearing today. That 
report purportedly shows that SPOT-trained Behavior Detection 
Officers are much more likely to identify what TSA deems as 
``high-risk passengers'' as against a purely random sample of 
passengers. We look forward to the report's completion and its 
findings, but without it, we are missing an important initial 
assessment of the program's performance.
    Over the past ten years since the 9/11 terrorist attacks, 
Congress has allocated billions of dollars to the Department of 
Homeland Security for the development of tools and technologies 
to keep our air travel secure. Too often that investment has 
been wasted and too often we have relied on technology that is 
not adequately tested before it is deployed. It is not based on 
adequate scientific evidence of effectiveness, and almost 
inevitably, the technology has proven costly to acquire, 
deploy, and service.
    So I look forward to today's hearing and to asking 
questions about the more than $200 million a year that we are 
spending to make sure that we carefully evaluate SPOT's 
operational merit. And with that, I yield.
    [The prepared statement of Ms. Edwards follows:]
         Prepared Statement of Ranking Member Donna F. Edwards
    Every one of us has had the experience of instinctively sensing 
that something about a situation or a person is wrong, worrying. Police 
officers, immigration officers, Transportation Security Officers have 
those same instinctive feelings all the time. However, it is an open 
question whether instinctive reactions are reliable as warnings of mal-
intent. We also do not know whether a person can be trained to 
accurately sort through their instinctive reactions, choosing to 
intervene when faced with a potential threat and to resist reactions 
based on racial profiling.
    What the Transportation Security Administration (TSA) has tried to 
do is develop behavioral training for officers so that they can quickly 
and accurately screen passengers. Can hunches be harnessed in service 
of identifying potential threats to air traffic safety? That is the key 
question that underlies today's hearing.
    After Richard Reid's failed shoe-bombing, some in the aviation 
security community concluded that we were spending too much time and 
money on trying to stop the bomb and not enough effort trying to stop 
the bomber. Screening of Passengers by Observation Techniques or SPOT 
was viewed by TSA as the way to get some officers' eyes off the 
scanning screens and onto the passengers.
    Those credited with helping to develop the SPOT program, some of 
whom are testifying before us today, intended the program to train 
behavior detection officers (BDOs) to focus on an individual's 
behavior, appearance and demeanor. An ongoing concern with the BDOs, 
and with law enforcement as well, is that they not engage in racial 
profiling, If BDO's focus on a passenger's ethnic, religious or racial 
qualities they are violating the law, and they are not acting to 
protect the flying public. Terrorists have come in all colors, shapes 
and sizes. If security personnel were fixated on a profiling approach 
to finding the next Mohammed Alta, then they would miss identifying the 
next John Walker Lindh, Timothy McVeigh or Richard Reid.
    The SPOT program tries to identify a specific menu of behaviors 
that will naturally emerge due to elevated levels of anxiety or stress. 
The hypothesis is that terrorists would display those cues when 
attempting to enter a secure facility such as an airport. But 
behavioral scientists do not agree on these non-verbal cues and they do 
not agree on whether terrorists would exhibit them. Because it is 
impossible to get a group of terrorists to participate in a double-
blind experiment, it is hard to validate the theory. DHS points to the 
program's success in identifying people who have violated the law, and 
are caught, but no one can be certain criminals and terrorists behave 
in a similar fashion.
    TSA relies on non-verbal cues to help sort through the more than I 
million passengers that fly in the U.S. each day. Non-verbal cues 
provide a filtering method to allow officers to determine who they 
should engage in discussion looking for verbal signs of deception. 
There does is more agreement among social scientists that verbal 
interactions with individuals can help in detecting deception.
    We had hoped that a DRS-funded ``validation report'' on the SPOT 
program would be available for this hearing today. That report 
purportedly shows that SPOT-trained behavior detection officers are 
much more likely to identify what TSA deems ``high risk'' passengers as 
against a purely random sample of passengers. We look forward to the 
report's completion and its findings; without it we are missing an 
important initial assessment of the program's performance.
    Over the past ten years, since the 9.11 terrorist attacks, Congress 
has allocated billions of dollars to the Department of Homeland 
Security for the development of tools and technologies to keep our air 
travel secure. Too often that investment has been wasted. Too often we 
have relied on technology that is not adequately tested before it is 
deployed, is not based upon adequate scientific evidence of its 
effectiveness and almost inevitably the technology has proven costly to 
acquire, deploy and service. This Subcommittee has examined some of 
these DRS technologies in the past, including the Advanced 
Spectroscopic Portal (ASP) radiation monitors. DRS has been forced to 
withdraw other technologies and to re-scope and re-think programs, 
including the ASP program, SBInet, explosive detection ``air puffers'' 
and Advanced Imaging Technology (AIT) to screen passengers.
    Costing more than $200 million per year we need to carefully 
evaluate SPOT's operational merit. Is the SPOT program -as it is now 
constructed worthwhile? Should it be restructured? Should it be 
expanded? Can it be improved-and if so, how? What are the ultimate 
costs of the program and would that money be spent elsewhere for 
greater effect helping to improve security on unsecured non-aviation 
transportation modes, for instance?
    I hope our witnesses can help address some of these issues today. I 
again want to express my disappointment at the lack of cooperation of 
TSA with the Committee. One of the reasons that it is unclear to me 
what training TSA provides BDOs regarding ``racial profiling'' in their 
SPOT program is because TSA has so far refused to permit Subcommittee 
staff to observe this training. They have also refused to provide a 
witness for this hearing. It is hard to make the case that the SPOT 
program is working and worthy of continued Congressional funding and 
support when the agency that runs the program refuses to participate in 
a hearing. I hope that the agency will rethink their position. I want 
to thank the Chairman for calling this hearing and I look forward to 
hearing the testimony of the witnesses who are here today.

    Chairman Broun. Thank you, Ms. Edwards. If there are 
Members who wish to submit additional opening statements, those 
statements will be added to the record at this point.
    At this time I would like to introduce our panel of our 
witnesses. Mr. Stephen Lord is the GAO executive responsible 
for directing GAO's numerous engagements on aviation and 
service transportation issues. Before his appointment to the 
Senior Executive Service in 2007, Mr. Lord led GAO's work on a 
number of key international security, finance, and trade 
issues. Mr. Lord has received numerous GAO awards for 
meritorious service, outstanding achievement, and teamwork. 
Congratulations.
    Mr. Larry Willis is the Program Director for suspicious 
behavior detection within the Human Factors Division of the 
Homeland Security Advanced Research Projects Agency, Science 
and Technology Directorate, Department of Homeland Security. 
Boy, your business card must be a big one with all that.
    Detective Lieutenant Peter J.--how do you pronounce your 
name, sir?
    Mr. DiDomenica. DiDomenica.
    Chairman Broun. DiDomenica. Okay. Mine is pronounced Broun. 
My family either can't spell or can't pronounce, so I am very 
cognizant of people's pronunciation. Detective Lieutenant Peter 
J. DiDomenica is employed by the Boston University Policy where 
he commands the Police Detective Division. Prior to this he 
served as a Massachusetts State Police Officer, as well as the 
Director of Security Policy at Boston Logan International 
Airport, where he developed innovative antiterrorism programs.
    Dr. Paul Ekman is Professor Emeritus of Psychology at UCSF 
and is currently the President of the Paul Ekman Group. He has 
authored or edited 15 books--wow, you have been busy, sir--and 
has consulted with federal and local law enforcement and 
national security organizations. The American Psychological 
Association identified Dr. Ekman as one of the 100 most 
influential psychologists of the 20th century. Quite an honor, 
sir. ``Time'' Magazine selected him as one of the 100 most 
influential people of 2009. He is also the Scientific Advisor 
to the dramatic television series on Fox TV, ``Lie to Me,'' 
which was inspired by his research. I hope you are getting rich 
with all that. I love the market system. This is great.
    Dr. Maria Hartwig is an Associate Professor in the 
Department of Psychology at John Jay College of Criminal 
Justice. She has published research on deception in a number of 
scientific journals, is on the Editorial Board of Law and Human 
Behavior. In 2008, Dr. Hartwig received an Early Career Award 
by the European Association of Psychology and Law for her 
contributions to psychological research. Congratulations.
    Dr. Philip Rubin is the Chief Executive Officer and a 
Senior Scientist at Haskins Laboratories, a private, nonprofit 
research institute affiliated with Yale University and the 
University of Connecticut. In 2010, Dr. Rubin received APA's 
Meritorious Research Service Commendation. Dr. Rubin is the 
Chair of the National Academies Board on Behavioral, Cognitive, 
and Sensory Sciences, and was previously the Chair of the 
National Research Council Committee on Field Evaluation of 
Behavioral and Cognitive Sciences Based Methods and Tools for 
Intelligence and Counterintelligence and a member of the NRC 
Committee on Developing Metrics for Department of Homeland 
Security's Science and Technology Research.
    Noticeably absent from the witness table is the 
Transportation Security Administration. TSA was invited to the 
initial hearing on March 13 that was postponed. They were 
invited to this hearing several weeks ago. In response to these 
invitations, DHS has refused to send a TSA representative. On 
another Committee hearing just yesterday the Department of 
Homeland Security refused to have a witness sit on a panel with 
other witnesses. DHS has staked out a claim that I think is 
intolerable. It is unconscionable that TSA will not send their 
representative here today to this important hearing on this 
program that is slated to spend $1.2 billion of the taxpayers' 
money to talk to us about it, and I find that totally 
reprehensible.
    In a letter to this Committee, DHS sought to detail the 
Subcommittee's interest, presumably quoting from Rule 10 of the 
House of Representatives that delineates jurisdiction. In this 
letter they state ``Given the Subcommittee's interest in 
scientific research, development, and demonstration in 
projects,'' Larry Willis, Project Manager for the Hostile 
Intent Detection Validation Project at DHS's Science and 
Technology Directorate, ``S&T will represent DHS at the 
aforementioned hearing.''
    I find it highly presumptuous that DHS thinks it knows our 
jurisdiction better than we do. It shows their arrogance. I 
find it appalling. Considering this Committee was formed in 
1958 and played an active role in creating the Department of 
Homeland Security. While DHS surprisingly cites our black-
letter jurisdiction under Rule 10 correctly, they must have 
stopped reading there. Under Rule 11, the Committee on Science, 
Space, and Technology is tasked with the responsibility to 
``review and study on a continuing basis laws, programs, and 
government activities relating to non-military research and 
development.''
    Unless TSA and DHS are arguing that science and research 
played no role in the development of SPOT program, I see a 
compelling reason for their attendance here today. The nexus 
between science and operations is vitally important to 
understanding how programs were developed, why there are 
problems, and how they can improve.
    If TSA and DHS are, in fact, making a claim that science 
and research played no role in the formation of the program 
whatsoever, then this program should be shut down immediately 
for lacking any scientific basis and being little more than 
snake oil. If DHS does not value this Committee's role in 
overseeing the Agency and if TSA does not value S&T's 
scientific advice, there are a number of legislative options 
that this Committee could employ to change that impression.
    I will also note that DHS has sent Agency officials to 
testify before this Committee from Customs and Border 
Protection and the Coast Guard. I find it odd that in this 
instance TSA would not want to talk about this program. It 
makes me wonder what they are trying to hide. When DHS is 
asking for a 9.5 percent increase in the fiscal year 2011 
budget request for SPOT, you would think that they could 
justify that increase to us here in Congress.
    Let me be clear. The Administration does not tell Congress 
how to run its hearings. We will likely return to this issue 
once again after the validation report is delivered. At that 
point we may seek TSA's input once again. If that is decided, 
this Committee may seek more aggressive measures to compel 
TSA's attendance, including the issuance of a subpoena.
    This Committee has not needed to issue a subpoena in almost 
two decades and has been successful in reaching accommodations 
with Republican and Democratic administrations. I am hopeful 
that TSA will determine that they have a valuable contribution 
to make to this topic in the future so that we do not find it 
necessary to go down that road.
    Now, as our witnesses should note, spoken testimony is 
limited to five minutes each, if you all would please try to 
hold it to the five minutes. If you go over a few seconds, then 
that will be okay. But if you just go on and on, then I may 
have to tap the gavel so you know please wrap up very quickly. 
Your written testimony will be included in the record of the 
hearing. It is the practice of the Subcommittee on 
Investigations and Oversight to receive testimony under oath. 
Do any of you have any objections to taking an oath? Any of 
you? Okay. Let the record reflect that all witnesses were 
willing to take an oath. They all showed that by nodding their 
head from side to side indicating no. You also may be 
represented by counsel. Do any of you have counsel here with 
you today? No? Okay. Let the record reflect that none of the 
witnesses have counsel. Now, if you would, please, stand and 
raise your right hand.
    Do you solemnly swear or affirm to tell the whole truth and 
nothing but the truth, so help you, God?
    Let the record reflect that all witnesses participating 
have taken the oath. Thank you. You all may sit down.
    I now recognize our first witness, Mr. Stephen Lord, 
Director of Homeland Security Justice Issues, Government 
Accountability Office. Mr. Lord, five minutes.

              TESTIMONY OF STEPHEN LORD, DIRECTOR,

             HOMELAND SECURITY AND JUSTICE ISSUES,

                GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Lord. Thank you. Chairman Broun, Ranking Member 
Edwards, and other Members of the Committee, thank you for 
inviting me here today to discuss TSA's behavior-detection 
program, also known as SPOT.
    Today, I would like to discuss two issues. First, DHS's 
ongoing efforts to validate the program and second, TSA's 
efforts to make better use of the information collected through 
this program. This is an important issue as the Department is 
currently seeking $254 million in fiscal year 2012 funds, 
including 350 additional Behavioral Officer positions. And as 
we reported in May 2010, TSA deployed SPOT to 161 airports 
across the Nation before completing ongoing validation efforts. 
Thus, it is still unclear whether behavior and appearance 
indicators can be used to reliably identify individuals who may 
pose a threat to the U.S. aviation system. According to TSA, 
the program was deployed before these efforts were completed to 
help address potential security threats.
    To help ensure the program is based on sound science, our 
report recommended that TSA and DHS convene an independent 
panel of experts to review the methodology and results of the 
ongoing validation effort you mentioned in your opening 
comments. The good news is DHS agreed with this recommendation. 
However, as other panel members will note in their statements 
today, a scientific consensus does not yet exist on whether 
behavior detection principles can be reliably used for 
counterterrorism purposes in an airport environment.
    It is also important to note that the current DHS 
validation effort will not answer several important questions. 
For example, how long can Behavior Detection Officers observe 
passengers without becoming fatigued? What is the optimal 
number of officers needed to ensure adequate coverage? To what 
extent are the behavior and appearance indicators the right mix 
of indicators? Should the list of indicators be larger or 
should the list be smaller? Also, while Mr. Willis will report 
that SPOT is nine times more effective than random screening in 
identifying so-called high-risk individuals, the results of 
this analysis have yet to be shared with GAO or independently 
reviewed.
    Our report also highlighted some difficulties that TSA 
faced in capturing and analyzing the rich information that was 
collecting at airports. Thus, we recommended that TSA better 
collect and analyze SPOT information to help connect the dots 
on passengers who may pose a threat to the U.S. aviation 
system.
    For example, we recommended that TSA clarify its guidance 
to BDOs for inputting information into the database used to 
track suspicious activities. We also recommended that they 
expand access to this database across all SPOT airports. The 
good news is TSA agreed with our recommendations and has 
revised its procedures accordingly. TSA also expanded access to 
this database to all SPOT airports as of March of this year.
    Our 2010 report also recommended that TSA make better use 
of information collected through airport video systems. We 
noted that 16 individuals who were later charged with or 
pleaded guilty to terrorism-related offenses transited through 
eight SPOT airports on 23 different occasions. Thus, we 
recommended that TSA examine the feasibility of using airport 
video systems to refine the current number of behaviors 
currently assessed and also to use this information to help 
refine the program going forward. We believe such recordings 
could help identify behaviors that may be common among 
terrorists or could demonstrate that terrorists do not 
generally display any identifying behaviors. Again, TSA agreed 
with our recommendation and is now exploring ways to better use 
these video recordings.
    In closing, behavior and appearances monitoring might be 
able to play a useful role in airport counterterrorism efforts. 
However, it is still an open question whether these techniques 
can be successfully applied on a large scale in the airport 
environment. And while I am encouraged that DHS has taken steps 
to validate the program, I am still surprised the Department is 
seeking additional funding for this program before the issue is 
fully addressed. Now, hopefully, today's hearing will help 
clarify S&T's future plans for validating the program.
    Chairman Broun, Ranking Member Edwards, and other Members 
of the Committee, this concludes my statement. I look forward 
to your questions.
    [The prepared statement of Mr. Lord follows:]
Prepared Statement of Mr. Stephen Lord, Director, Homeland Security and 
            Justice Issues, Government Accountability Office
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Broun. Thank you, Mr. Lord. I now recognize our 
next witness, Dr. Paul Ekman, Professor Emeritus--wait a 
minute. I skipped over one and I apologize. I now recognize Mr. 
Willis--our next witness, Mr. Larry Willis, Program Manager, 
Homeland Security Advanced Research Project Agency, Science and 
Technology Directorate, Department of Homeland Security. Mr. 
Willis, you have five minutes. Thank you, sir.

          TESTIMONY OF LARRY WILLIS, PROGRAM MANAGER,

          HOMELAND SECURITY ADVANCED RESEARCH PROJECTS

   AGENCY, SCIENCE AND TECHNOLOGY DIRECTORATE, DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Willis. Thank you. Good afternoon, Chairman Broun, 
Ranking Member Edwards, distinguished Members of the 
Subcommittee. I am honored to appear before you today on behalf 
of the Department of Homeland Security, Science and Technology 
Directorate, to discuss our evaluation of the Transportation 
Security Administration's Screening Passenger by Observation 
Technique, or SPOT referral report, which is a checklist of 
predefined behavior indicators used by TSA to identify 
potentially high-risk travelers.
    For the purpose of S&T's studies, high-risk travelers are 
defined as those passengers in possession of serious prohibited 
and/or illegal items or individuals engaging in conduct leading 
to arrest.
    For background purposes, the SPOT validation effort began 
in 2007 as a result of the component-led, S&T-managed People 
Screening Capstone Integrated Product Team process that 
identified and prioritized capability gaps of DHS operational 
customers. As an active participant in this IPT process, TSA 
identified the SPOT Referral Report and its associated 
indicators as a candidate for the validation study. The SPOT 
Referral Report contains a discrete list of observable 
indicators which have been designated by TSA as Sensitive 
Security Information, or SSI. TSA's Behavior Detection 
Officers, or BDOs, are trained to identify these indicators and 
use them to make screening decisions, such as referral for 
additional screening at the TSA checkpoint.
    It is important to note that the behavioral screening isn't 
limited to aviation security and is conducted formally or 
informally by DHS agencies, the Department of Defense, the 
intelligence community, and law enforcement worldwide. The SPOT 
validation research is a rigorous evaluation of TSA's SPOT 
Referral Report that supports our better understanding of the 
threat, the screening accuracy of the existing indicators, and 
advances of science of behavioral-based screening.
    S&T, in cooperation with the American Institute for 
Research designed the Base Rate Study to compare TSA's SPOT 
Referral Report process with a random screening process. AIR is 
one of the largest non-profit behavioral science research 
organizations in North America and has performed numerous 
validation studies. Two databases were used for the study.
    The first was designed to include case information from 
randomly selected travelers who were subjected to the SPOT 
referral process during the Base Rate Study conducted from 
December 2009 through October 2010 and included a total of 
71,589 referrals from 43 airports. To make direct comparisons 
between the Base Rate database and the Operational Referrals, a 
second dataset was created for the 23,265 Operational SPOT 
Referrals collected during the same time and at the same 
locations of the Base Rate Study.
    Together, these two datasets allowed AIR to assess the 
extent to which the SPOT Referral Report of observable 
indicators lead to correct screening decisions. A key number of 
findings emerged from the analysis of the SPOT Referral Report, 
including the following, which I would like to share with you.
    One, Operational SPOT identifies high-risk travelers at a 
significantly higher rate than random screening. The study data 
indicate that a high-risk traveler is nine times more likely to 
be identified using Operational SPOT versus random screening. 
Moreover, to achieve this outcome, BDOs within the study were 
able to engage 50,000 fewer travelers using Operational SPOT 
than with random selection methods.
    The second result is a population base rate for SPOT 
indicators is low. Among those selected for random screening 
the Base Rate Study, the most frequently observed indicator was 
displayed in only 2.8 percent of the randomly selected 
travelers. All of the other indicators were observed in fewer 
than two percent of the travelers selected during the Base Rate 
Study.
    In conclusion, these results indicate that the SPOT program 
is significantly more accurate than random screening in 
identifying high-risk travelers using the metrics that we 
employed. Our validation process, which included an independent 
and comprehensive review of SPOT Referral Report, is a key 
example of how S&T works to enhance the effectiveness of the 
Department's operational activities.
    Chairman Broun, Ranking Member Edwards, I thank you again 
for this opportunity to discuss the research to validate the 
Screening of Passengers by Observation Technique Referral 
Report. And I am happy to answer the questions that the 
Subcommittee may have.
    [The prepared statement of Mr. Willis follows:]
Prepared Statement of Mr. Larry Willis, Program Manager for the Science 
      and Technology Directorate, Department of Homeland Security

Introduction and Study Objective:

    Good afternoon, Chairman Broun, Ranking Member Edwards and 
distinguished Members of the Subcommittee. I am honored to appear 
before you today on behalf of the Department of Homeland Security (DHS) 
Science and Technology Directorate (S&T) to discuss our evaluation of 
the Transportation Security Administration's (TSA) Screening of 
Passengers by Observation Techniques (SPOT) program. SPOT is a behavior 
observation and analysis program in which personnel are trained to 
identify behaviors that deviate from an established baseline that could 
be possible indicators for terrorism or criminal activity. Today, I 
will describe S&T's research assessing the validity of the SPOT 
Referral Report, which is a checklist of predefined observable 
indicators used by TSA to identify potentially high risk travelers. For 
the purpose of S&T's study, high risk travelers are defined as those 
passengers in possession of serious prohibited and/or illegal items or 
individuals engaging in conduct leading to an arrest. Specifically, our 
study offers an assessment of the extent to which the SPOT Referral 
Report of observable indicators leads to correct screening decisions at 
the security checkpoint.

Research Requirements and Background:

    Approximately 1.2 million people fly within the United States 
daily. The SPOT program trains TSA personnel to serve as an additional 
layer of security in airports by providing a non-intrusive means of 
identifying individuals who may pose a risk of terrorism or criminal 
activity. In behavior-based screening, trained personnel attempt to 
identify anomalous behaviors by observing passengers and comparing what 
they see to an established behavioral baseline of other passengers 
developed in the same general location and within the same timeframe. 
It is important to note that behavioral screening isn't limited to 
aviation security and is conducted formally or informally by other DHS 
agencies, the Department of Defense, the Intelligence Community, and 
law enforcement worldwide. The SPOT validation effort appears to be the 
most rigorous evaluation of behavioral-based screening.
    The SPOT validation effort began in 2007 as a result of the 
component-led, S&T-managed People Screening Capstone Integrated Product 
Team (IPT) process that identified and prioritized capability gaps of 
DHS operational components.
    The ``People Screening'' Capstone IPT established the research 
requirement to identify and validate observable behavior indicators of 
threats and suspicious behaviors in a screening environment. As an 
active participant in this IPT, TSA identified the SPOT Referral Report 
and its associated indicators as a candidate for the validation study. 
Through a series of interactions with TSA, S&T determined that the SPOT 
screening process and the effectiveness of the observable indicators 
list was testable. The SPOT Referral Report contains a discrete list of 
observable indicators which have been designated by TSA as Sensitive 
Security Information (SSI). TSA's Behavior Detection Officers (BDOs) 
are trained to identify these indicators and use them to make screening 
decisions, such as referral for additional screening at the TSA 
checkpoint. Furthermore, TSA records each behavior-based screening 
event, as well as its corresponding indicators, screening results, and 
outcomes to help inform future screening decisions. The SPOT process 
leads to three possible actions: the traveler proceeds through the TSA 
checkpoint and to their flight as normal; the traveler is identified as 
possibly carrying serious prohibited/illegal items and receives 
additional screening at the TSA checkpoint; or the traveler is 
identified to a Law Enforcement Officer (LEO) for appropriate 
intervention.

Research Approach:

    S&T, in cooperation with the American Institutes for Research 
(AIR), designed the Base Rate Study to compare TSA's SPOT Referral 
Report process with a random screening process and to estimate the 
population base rate of high-risk travelers. AIR is one of the largest 
non-profit behavioral science research organizations in North America 
and has performed numerous validation studies. Two databases were used 
for this study. The first was designed to include case information from 
randomly selected travelers who were subjected to the SPOT referral 
process during the Base Rate Study from December 1, 2009 through 
October 31, 2010, including a total of 71,589 referrals from 43 
airports. To make direct comparisons between the Base Rate database and 
the Operational SPOT Referrals, a second dataset (SPOT comparison 
dataset) was extracted from TSA's SPOT Referral database to contain the 
23,265 Operational SPOT referrals collected during the same time period 
and from locations covered by the Base Rate Study. Together, these two 
datasets allowed AIR to assess the extent to which the SPOT Referral 
Report of observable indicators leads to correct screening decisions at 
the security checkpoint.

Research Results:

    A number of key findings emerged from the analysis of the SPOT 
Referral Report, including four that I would like to share with you:

    1.  Operational SPOT identifies high-risk travelers at a 
significantly higher rate than random screening. The study data 
indicate that a high risk traveler is nine times more likely to be 
identified using Operational SPOT versus random screening. (Operational 
SPOT refers to the standard operating procedure of the BDOs executing 
the referral reporting process at the checkpoint as opposed to the 
program as a whole.) Moreover, to achieve these outcomes, BDOs were 
able to engage with 50,000 fewer travelers using Operational SPOT than 
they did when using random selection methods.

    2.  SPOT indicators appear to be observed and utilized consistently 
across varying airport characteristics. When we examined the 
consistency in implementation overall, we found that observable 
indicators within the SPOT Referral Report are used at relatively the 
same rate regardless of the year, time of year, or size of airport. 
Moreover, indicators tended to be consistently related to outcomes in 
the same ways across these characteristics, providing further evidence 
that the indicators are reliable. These results also serve as initial 
support for reliability in the use of the SPOT Referral Report, with 
little to no evidence of major coding variations or random 
fluctuations.

    3.  The population base rate for high-risk travelers is extremely 
low. In other words, the large majority of travelers pose no security 
risks. Results of the Base Rate Study confirm that the measurable 
outcomes that represent high-risk travelers are rare events. These data 
indicate that the estimated population parameter for:

           i.  Arrested by Law Enforcement Officer is 1 in 10,000 
        travelers
             (or 0.01 percent).

          ii.  Possession of Fraudulent Documents is 1 in 2,000 
        travelers
             (or 0.05 percent).

         iii.  Possession of Serious Prohibited/Illegal Items is 1 in 
        750 travelers
             (or 0.13 percent).

         iv.  Combined Outcome, or presence of any outcome (of the 
        above),
            is 1 in 750 travelers (or 0.13 percent).

    4.  The population base rate for SPOT indicators is low. Among 
those selected for random screening in the Base Rate Study, very few 
travelers (approximately 8 percent) exhibited any SPOT indicators. The 
most frequently observed indicator (again, SPOT indicators are 
designated SSI) was displayed in only 2.8 percent of the randomly 
selected travelers. In contrast, this indicator is exhibited in more 
than half of SPOT-referred travelers. All of the other indicators were 
observed in fewer than 2 percent of the travelers selected by the Base 
Rate Study.

Conclusion:

    In conclusion, these results indicate that the SPOT program is 
significantly more effective than random screening: a high-risk 
traveler is nine times more likely to be identified using Operational 
SPOT versus random screening. Our validation process, which included an 
independent and comprehensive review of SPOT, is a key example of how 
S&T works to enhance the effectiveness of the Department's operational 
activities. Expanding on these initial findings, we would like to 
conduct further research to assess the screening accuracy of these 
observable indicators in similar operational screening environments, in 
aviation and beyond. Additionally, we would like to work to identify 
other indicators that could further increase accuracy in operational 
screening.
    Chairman Broun, Ranking Member Edwards, I thank you again for this 
opportunity to discuss the Screening of Passengers by Observation 
Techniques program. I am happy to answer any questions the Subcommittee 
may have.
    Chairman Broun. Thank you, Mr. Willis. You kept your 
remarks under five minutes, and sometimes that is not done 
here. In fact, most times it is not done here.
    Our next witness is Mr. Peter DiDomenica of the Boston 
University Police. Thank you, Lieutenant. Appreciate it. You 
have five minutes, sir.

TESTIMONY OF PETER J. DIDOMENICA, LIEUTENANT DETECTIVE, BOSTON 
                       UNIVERSITY POLICE

    Mr. DiDomenica. Thank you. Good morning. Chairman Broun, 
Ranking Member Edwards, and Members of the Committee, I thank 
you for this opportunity to address you today regarding the 
future of the TSA SPOT program that I originally developed.
    By way of additional background, I have trained over 3,000 
police, intelligence, and security officials in over 100 
federal, state, and local agencies in the United States and 
U.K. in behavior assessment. I have also been a lecturer or 
advisor on behavior assessment for the FBI, CIA, Secret 
Service, DHS, U.S. Army Night Vision Lab, Defense Department 
Criminal Investigations Task Force, and the National Science 
Foundation. I appear today representing only myself and not any 
of the organizations I am or have been employed by.
    On December 22, 2001, while assigned to Logan International 
Airport as a member of the State Police, I was part of a large 
team of public safety officials who responded to the airfield 
to meet American Airlines flight 63, diverted to Boston from a 
flight from Paris, France to Miami. On board was a passenger 
named Richard Reid who attempted to detonate an improvised 
explosive device artfully concealed in his footwear that, if 
successful, would have killed all 197 passengers and 
crewmembers aboard. As I stood only a few feet away from Reid, 
who was now securely in custody in the back of a state police 
cruiser, it hit me that this man was the real thing, that the 
threat of another terrorist attack by Al Qaeda would not stop, 
and that we need to do more, much more, to properly screen 
passengers than merely focusing on weapons detection. Thus 
began the development of what would become the Behavior 
Assessment Screening System or BASS in the SPOT program.
    I began to explore the scientific literature in an effort 
to quantify the human capacity to detect dangerous people. My 
research included many disciplines including physiology, 
psychology, neuroscience, as well as specific research into 
suicide bombers. In developing the program, specific behaviors 
were selected that were both supported in the scientific 
literature and consistent with law enforcement experience.
    The BASS program went on to be delivered to numerous 
agencies, including the entire Washington, D.C., Metro Transit 
Police, Amtrak Police, and the Atlanta Police officers assigned 
to the world's busiest airport, Atlanta Hartsfield-Jackson 
International Airport. In 2006, two BASS trainers and I spent 
two weeks in London where we set up a British version of the 
BASS program for the British Transport Police as a response to 
the July 7, 2005, terrorist attacks on the London Underground.
    During the course of training police officers around the 
Nation, the State Police BASS instructors discovered four 
individuals with suspected terrorist ties. In 2004, while 
conducting BASS training with the New Jersey Transit Police at 
Newark Penn Station, I observed three males exhibiting 
suspicious behavior using BASS techniques. One of the subjects 
was in the United States on a religious visa from a Middle 
Eastern country and was being escorted to an Amtrak train for a 
claimed week-long trip with no luggage. It was later confirmed 
the subject listed on the visa was on a terror watch list. I 
even intercepted a DHS inspector on a covert test of the 
screening checkpoint at Logan Airport in late 2003 with a 
concealed weapon through BASS techniques.
    Although I believe that the SPOT program is effective at 
identifying high-risk passengers, its effectiveness is limited 
because proper resolution of highly suspicious people 
discovered by the TSA BDOs requires a law-enforcement response 
by police officers trained in the same behavior detection and 
interview skills. I designed the program so that the most 
dangerous people would be either removed from the critical 
infrastructure or arrested by BASS-trained police officers. I 
do not believe the current TSA airport SPOT familiarization 
training program is enough. The airport police, in my opinion, 
need to be trained in the same techniques and skill sets which 
would engender confidence in the program and their own ability 
to detect terrorist behavior and prevent additional devastating 
attacks.
    Another issue I see with the SPOT program is that the TSA 
has created too high an expectation for what it is able to 
achieve. The original SPOT program I designed was not primarily 
for the apprehension of suspects but as a means to deny access 
to critical infrastructure of high-risk persons who could be 
involved in terrorism or other dangerous activity. It was to be 
the last and, most importantly, the best chance to prevent a 
tragedy when other methods such as intelligence and traditional 
physical screening have failed. Catching a terrorist through a 
random encounter in a public place without any prior 
intelligence is extremely difficult.
    By way of example, if we use the known number of terrorist 
suspects who boarded domestic commercial flights at airports 
with BDOs and the approximately four billion passenger 
enplanements at U.S. commercial airports from 2004 to 2009, the 
base rate of terrorist passengers is about 1 in 173 million. 
The expectation that the SPOT program will result in the arrest 
of all terrorists attempting to board a domestic flight in the 
United States is unrealistic and threatens its continued 
support. If, however, it is seen as part of a multi-layered 
approach with the primary goal of preventing terrorist access 
to critical infrastructure in conjunction with properly trained 
law enforcement, the program sets reasonable and attainable 
goals and should have the support of this Congress.
    Thank you for this opportunity to address the program and I 
am prepared to answer any questions that you may have.
    [The prepared statement of Mr. DiDomenica follows:]
             Prepared Statement of Mr. Peter J. DiDomenica,
             Lieutenant Detective, Boston University Police
    Good morning. Chairman Broun, Ranking Member Edwards, and Members 
of the Committee, I thank you for this opportunity to address you today 
regarding the future of the TSA Screening of Passengers by Observation 
Techniques program that I developed, which is more commonly referred to 
as the SPOT program.
    I am Peter DiDomenica presently employed as a Detective Lieutenant 
with the Boston University Police Department. I recently joined the 
Boston University force after serving for more than 22 years with the 
Massachusetts State Police where I retired as a Lieutenant. While a 
member of the State Police I served as an investigator in the Major 
Crime Unit, as the Director of Legal Training for the State Police 
Academy, as a staff member to five different superintendents, and as 
Director of Security Policy for Boston Logan International Airport in 
the two years after the devastating 9/11 attacks. I also served the 
State Police for a decade as a subject matter expert and lead trainer 
for Massachusetts police agencies in racial profiling and biased 
policing. In this capacity I designed statewide police training 
programs and the State Police traffic stop data collection and analysis 
system created to monitor enforcement efforts for indications of biased 
policing. I am also presently a consultant for EOIR Technologies of 
Fredericksburg, VA where I serve as an advisor on human behavior 
detection for the U.S. Army Night Vision and Electronic Sensors 
Directorate. I am a certified instructor in the interview, behavior 
assessment, and deception detection programs for The Forensic Alliance, 
a consulting firm of forensic psychologists based in British Columbia, 
Canada. I am presently an adjunct instructor for the graduate criminal 
justice program at Anna Maria College in Paxton, MA. I am a licensed 
attorney in Massachusetts having earned my J.D. in 1995. I have trained 
over 3,000 police, intelligence, and security officials in over 100 
federal, state, and local agencies in the U.S. and U.K. in behavior 
assessment. I have also been a lecturer or advisor on behavior 
assessment for the FBI, CIA, Secret Service, Department of Homeland 
Security, Defense Department Criminal Investigations Task Force, and 
National Science Foundation. I appear today representing only myself 
and not any of the organizations I am or have been employed by.
    On December 22, 2001, while assigned to Logan International Airport 
as a member of the State Police and as Director of Security Policy, I 
was part of a large team of public safety officials who responded to 
the airfield to meet American Airlines flight 63, diverted to Boston on 
a flight from Paris, France to Miami. On board was a passenger named 
Richard Reid who attempted to detonate an improvised explosive device 
artfully concealed in his footwear that, if successful, would have 
killed all 197 passengers and crewmembers aboard. As I stood only a few 
feet away from Reid, who was now securely in custody in the back of a 
state police cruiser, it hit me that this man was the real thing, that 
the threat of another terrorist attack from Al Qaeda would not stop, 
and that we needed to do more, much more, to properly screen passengers 
than merely focusing on weapons detection. Over the next several days I 
met with the incident commander for Reid's arrest, Major Tom Robbins, 
who was the Aviation Security Director for Logan Airport and Troop 
Commander for State Police Troop F at the airport. One evening, while 
having dinner with Major Robbins, he wrote the words ``walk and talk'' 
on a dinner napkin - a reference to airport narcotics interdiction - 
and directed me to look into airport drug interdiction programs as a 
model for a terrorist behavioral profiling program to augment the 
weapons screening process. Thus began the development of what would 
become the Behavior Assessment Screening System or BASS.
    Because of my legal background and experience in training on racial 
profiling and bias policing, I knew immediately what the BASS program 
would not be. Whatever program we would create to identify potential 
terrorists, it would not include racial profiles that target people of 
apparent Islamic belief or Arab, Middle Eastern, or South and Central 
Asian ethnicities. As well as being illegal such profiling could 
distract security officials from detecting true threats. Moreover, the 
unconscious bias against these groups would be so strong because of 9/
11 that security officials would need training to counter these biases. 
I began to explore the scientific literature in an effort to quantify 
the human capacity to detect dangerous people. My research included 
many disciplines including, physiology, psychology, neuroscience, as 
well as specific research into suicide bombers. What this literature 
indicated was that a person who is engaged in a serious deception of 
consequence or otherwise engaged in an act in which the person has much 
to lose by being discovered or by failing to succeed will suffer mental 
stress, fear, or anxiety. Such stress, fear, or anxiety will be 
manifested through involuntary physical and physiological reactions 
such as an increase in heart rate, facial displays of emotion, and 
changes in speed and direction of movement. In developing the program 
specific behaviors were selected that were both supported in the 
scientific literature and consistent with law enforcement experience. 
In addition to avoiding the legal prohibition on selective enforcement 
based on race, ethnicity, or religion \1\ the program also had to 
ensure that police encounters with the public not meeting the standard 
of reasonable suspicion were voluntary under the U.S. Supreme Court 
case of U.S. v. Medenhall. \2\ In addition to behavior, the program 
also examines: aspects of appearance unrelated to race, ethnicity, or 
religion; responses to law enforcement presence and questioning; and, 
the circumstances surrounding the presence of the person at a specific 
location. I created a simple method called ``A-B-C-D'' which means 
Analysis of Baseline, addition of a Catalyst, and scan for Deviations. 
Baselines are merely an evaluation of what was normal for a specific 
environment and a catalyst is the insertion into the environment of 
something that would be particularly threatening to a terrorist or 
criminal to provoke behavioral changes.
---------------------------------------------------------------------------
    \1\ Whren v. United States, 517 U.S. 806 at 813 (1996).
    \2\ 446 U.S. 544 at 554 (1980). (``We conclude that a person has 
been `seized' within the meaning of the Fourth Amendment only if, in 
view of all of the circumstances surrounding the incident, a reasonable 
person would have believed that he was not free to leave.'')
---------------------------------------------------------------------------
    In 2002 and 2003 I taught the BASS program to all the troopers, the 
primary law enforcement agency for Logan Airport, and developed a staff 
of additional instructors. We also began training other police 
departments In Massachusetts; in fact we trained the entire 
Massachusetts Transit Police force and a group of Boston Police 
officers in preparation for the 2004 Democratic National Convention. 
Because of the success of the program, I created a derivative program 
called PASS or the Passenger Assessment Screening System suitable for 
TSA screeners that eventually became the SPOT program. Over the course 
of two years I worked with TSA officials at Boston, including the 
Federal Security Director George Niccara, and officials at TSA 
headquarters including their Office of Civil Rights, Science and 
Technology, and Workforce Performance and Training. In 2004 my team of 
State Police BASS instructors conducted a training program with TSA to 
create two pilot SPOT programs at Portland International Jetport in 
Maine and T.F. Green International Airport in Rhode Island.
    One of the reasons the BASS program got the interest of TSA 
headquarters as a model for a behavior detection program was an 
incident that occurred in the fall of 2003 at Logan Airport while I was 
training members of the Boston Police in BASS. A middle-age male caught 
my attention due to an appearance and luggage deviation as well as 
baseline deviation in movement. When the Boston police officer and I 
engaged this purported passenger in conversation he immediately 
produced credentials identifying himself as an official of the 
Department of Homeland Security Office of Investigations and stated he 
was on his way to test a screening checkpoint to see if they would 
discover a concealed weapon he was carrying.
    The BASS program went on to be delivered to numerous agencies 
including the entire Washington DC Metro Transit Police, Amtrak Police, 
and Atlanta Police officers assigned to the world's busiest airport, 
Atlanta Hartsfield-Jackson International Airport. In 2006 Two BASS 
trainers and I spent two weeks in London where we set up a British 
version of BASS for the British Transport Police as a response to the 
July 7, 2005 terrorist attacks on the London Underground.
    During the course of training police officers around the nation, 
the State Police BASS instructors discovered four individuals with 
suspected terrorist ties. In 2004, while conducting BASS training with 
the New Jersey Transit Police at Newark Penn Station, I observed three 
males exhibiting suspicious behavior using BASS techniques. One of the 
subjects was in the United States on a religious visa from a Middle 
Eastern country and was being escorted to an Amtrak train for a claimed 
week long trip with no luggage. Another subject presented a non-
government ID card that was designed to look like a real government ID. 
There were three behavior cues that led to the encounter followed by 
three non-verbal cues during the interview as well as conflicting 
factual statements that made these individuals highly suspicious. It 
was later confirmed that the subject on the visa was on a terror watch 
list. In 2004 at the Metro Center rail station in Washington D.C. a 
member of the BASS training team, while conducting training with the 
TSA, observed a suspicious male subject who exhibited five behavioral 
cues under the BASS program. The subject had a British passport with 
visa stamps from visits to Iraq and was in the U.S. to learn how to fly 
planes. It was later confirmed that the subject was under investigation 
for terrorism. Back in 2002 at Logan Airport, a BASS trainer discovered 
a suspicious subject exhibiting four BASS behavior cues and three non-
verbal cues during an interview who had failed to report for 
deportation and was connected to Ahmed Ressam of the 1999 Millennium 
bombing plot of Los Angeles Airport.
    Unfortunately, since the successful pilot programs in 2004 the TSA 
has chosen not to continue my services despite my strong recommendation 
that I remain involved in training, particularly with respect to 
airport police officers in BASS techniques at airports where the SPOT 
program is implemented. Although I believe the SPOT program is 
effective at identifying high risk passengers, its effectiveness is 
limited because proper resolution of highly suspicious people 
discovered by the TSA Behavior Detection Officers, or BDOs, requires a 
law enforcement response by police officers trained in the same 
behavior detection and interview skills. I designed the program so that 
the most dangerous people would be either removed from the critical 
infrastructure or arrested by BASS trained police officers. So, no 
matter how effective the BDOs are, the most dangerous people will tend 
to slip through the cracks because of a response by non-BASS trained 
police officers who may discount the validity of SPOT or who may fail 
to follow-up with BASS techniques. In most cases where denials of 
access occur or arrests or detentions are made by police, it is because 
there are warrants for arrest or because contraband is discovered in 
the screening process. I do not believe the current TSA airport police 
SPOT familiarization training program is enough. The airport police, in 
my opinion, need to be trained in the same techniques and skill sets 
which will engender confidence in the program and in their own ability 
to detect terrorist behavior and prevent additional devastating 
attacks.
    Another issue I see with the SPOT program is that the TSA has 
created too high an expectation for what it is able to achieve. The 
original SPOT program I designed was not primarily for the apprehension 
of suspects but as a means to deny access to critical infrastructure of 
high risk persons who could be involved in terrorism or other dangerous 
activity. It was to be the last and, most importantly, the best chance 
to prevent a tragedy when other methods such as intelligence and 
traditional, needle in the haystack, screening have failed. Catching a 
terrorist through a random encounter in a public place without any 
prior intelligence is extremely difficult. By way of example, if we use 
the number of known terrorism suspects who boarded domestic commercial 
flights at airports with BDOs, as cited in the Government 
Accountability Office May 2010 report on Aviation Securitythe last and, 
most importantly, the best chance to prevent a tragedy when other 
methods such as intelligence and traditional, needle in the haystack, 
screening have failed. Catching a terrorist through a random encounter 
in a public place without any prior intelligence is extremely 
difficult. By way of example, if we use the number of known terrorism 
suspects who boarded domestic commercial flights at airports with BDOs, 
as cited in the Government Accountability Office May 2010 report on 
Aviation Securitythe last and, most importantly, the best chance to 
prevent a tragedy when other methods such as intelligence and 
traditional, needle in the haystack, screening have failed. Catching a 
terrorist through a random encounter in a public place without any 
prior intelligence is extremely difficult. By way of example, if we use 
the number of known terrorism suspects who boarded domestic commercial 
flights at airports with BDOs, as cited in the Government 
Accountability Office May 2010 report on Aviation Security \3\, and the 
approximately 4 billion passenger enplanements at U.S. commercial 
airports from 2004 to 2009, the base rate of terrorist passengers is 
about one in every 173 million or .0000006 percent. The expectation 
that the SPOT program will result in the arrest of all terrorists 
attempting to board a domestic flight in the United States is 
unrealistic and threatens its continued support. If, however, it is 
seen as part of a multi-layered approach with the primary goal of 
preventing terrorist access to critical infrastructure in conjunction 
with properly trained law enforcement, the program sets more reasonable 
and attainable goals.
---------------------------------------------------------------------------
    \3\ GAO-10-763. The report cites 23 suspected terrorists having 
passed through SPOT airports.
---------------------------------------------------------------------------
    In 2004 Major Robbins and I, as well as the Massachusetts Port 
Authority and Massachusetts State Police, were sued by an African-
American lawyer for the ACLU who served at the National Coordinator of 
the American Civil Liberties Union's Campaign Against Racial Profiling. 
The plaintiff alleged that he was unlawfully detained by the State 
Police at Logan Airport in October of 2003 and that this unlawful 
detention was based on BASS training that the troopers received. It was 
alleged that the BASS training directed the troopers at the airport to 
detain people without reasonable suspicion of criminal activity and 
condoned and encouraged racial and ethnic profiling. After a weeklong 
trial in December 2008 in the Federal District Court for Massachusetts 
\4\, the jury found that the plaintiff was, in fact, unlawfully 
detained by State Police officers but that the BASS program was not the 
cause of the unlawful detention. During the trial the judge asked the 
plaintiff what provisions of the BASS program on its face violate 
federal law? The plaintiff responded the following provision was 
unlawful: a provision that allows police, after reasonable efforts to 
dispel elevated suspicion have failed to escort away from critical 
infrastructure persons who refuse to identify themselves. The plaintiff 
also cited the provision allowing for a running of a records check on 
such persons. The judge ruled from the bench: ``I don't see this as on 
its face being unconstitutional. I mean, there is nothing 
unconstitutional about running a records check of a person, subjecting 
a person to additional consensual searches or testing [or] preventing a 
person from proceeding into the critical infrastructure or escort[ing] 
the person away from the critical infrastructure.'' (Emphasis added) 
One of the key components of the BASS program is its anti-detention 
policy: to empower police to deny persons access to critical 
infrastructure such as commercial aircraft who display elevated 
suspicion after reasonable attempts to dispel the suspicion fail. The 
elevated suspicion is articulable facts and circumstances that do not 
necessarily have to rise to the level required for a lawful detention 
under the U.S. Supreme Court case of Terry v. Ohio \5\. In keeping with 
Constitutional mandates, this denial of access in an extremely small 
number of cases of unresolved suspicion may be the best we can do but 
it may be enough to prevent a tragedy and it also may provide for the 
collection of crucial intelligence for an investigation and later 
arrest. It is important to note that the 9th Circuit U.S. Court of 
Appeals in the case of Gilmore v. Gonzales has ruled that ``the 
Constitution does not guarantee the right to travel by any particular 
form of transportation.'' \6\ The Supreme Court has declined to review 
this decision.
---------------------------------------------------------------------------
    \4\ King Downing v. Massachusetts Port Authority, et al, Civil 
Action No. 2004-12513-RBC.
    \5\ 392 U.S. 1 (1968).
    \6\  435 F. 3d 1125.
---------------------------------------------------------------------------
    For SPOT to be effective there has to be a cadre of BASS trained 
police officers to bring about an appropriate resolution from an 
initial TSA observation. Based on my extensive law enforcement 
experience using behavioral analysis and those other police officers 
who have similar experience, as well as having a basic understanding of 
psychological, neurological, and physiological processes, I know SPOT 
and BASS techniques do work in identifying potential terrorists and 
other dangerous people. If done correctly, the process only takes a 
couple of minutes and is done openly in public areas minimizing 
interference with the free flow of the public and, most importantly, 
without interfering with civil rights. This program specifically trains 
TSA personnel and police officers to counter the effects of unconscious 
bias that may otherwise result in undue attention on certain ethnic and 
religious groups and the failure to detect suspicious behavior by truly 
dangerous people who do not fit the unstated but subconsciously present 
religious or ethnic profile. When the next shoe bomber or underwear 
bomber arrives at one of our airports or train stations to blow up one 
of our planes or subway trains or if they try to gain access to the 
Super Bowl or other major sporting event, even when we don't have the 
constitutional authority to arrest we must have the confidence to deny 
them access based on the sound principles of BASS and SPOT. This is our 
last and best chance of preventing another terrorist attack.
    Thank you again for this opportunity to address the SPOT program 
and I am prepared now to answer any questions you may have.

    Chairman Broun. Thank you, Lieutenant. You did not exceed 
your five minutes either. Congratulations and thank you for 
being here and----
    Mr. DiDomenica. Two seconds.
    Chairman Broun. That is right. I recognize our next 
witness, Dr. Paul Ekman, Professor Emeritus of Psychology, 
University of California, San Francisco, and President and 
Founder of the Paul Ekman Group. Doctor, you have five minutes 
for your testimony.

                    TESTIMONY OF PAUL EKMAN,

               PROFESSOR EMERITUS OF PSYCHOLOGY,

            UNIVERSITY OF CALIFORNIA, SAN FRANCISCO,

        AND PRESIDENT AND FOUNDER, PAUL EKMAN GROUP, LLC

    Dr. Ekman. Thank you, Chairman Broun, Ranking Member 
Edwards. I really appreciate this opportunity to testify on 
this very important issue.
    I have been working with TSA on SPOT for eight years based 
on 40 years of research on how demeanor--facial expression, 
gesture, voice, speech, gaze and posture--can help in 
identifying lies and also harmful intent. My research has 
examined four very different kinds of lies: lies to conceal a 
very strong emotion felt at that moment, lies claiming to hold 
a social political opinion the exact opposite of your truly 
strongly held opinion, lies denying that you have taken money 
that isn't yours, and lies in which members of extremist 
political groups attempt to block an opposing political group 
from receiving money.
    Now, our research focuses on real-world lies that matter to 
society in which each person decided for him or herself whether 
to lie or tell the truth, just as we do in the real world. No 
scientist comes out of the clouds and tells us you are supposed 
to lie, you are supposed to tell the truth, except in 
experiments published in journals. The person who tells the 
truth knows that if he or she is mistakenly judged to be lying, 
they will receive the same punishment of the liar who is 
caught. This makes the truthful person apprehensive and harder 
to distinguish from the liar, just as it is in the real world. 
And the punishment threatened is as severe and highly credible 
to those who participate in the research as we could make it, 
passed by the University IRB.
    I should mention I work in a medical school. I would never 
get it passed at Berkley, but at a medical school what I do is 
considered trivial.
    Now, unlike any other research team, we have performed the 
most precise comprehensive measurements of face, gesture, 
voice, speech, and gaze, and those measurements have yielded 
between 80 and 90 percent identification of who is lying and 
who is telling the truth. The clues we have found are not 
specific to what the lie is about. As long as the stakes are 
very high, especially the threat of punishment, the behavioral 
clues to lying will be the same. It is this finding that 
suggested there would be no clues specific to the terrorist 
hiding harmful intent than the money smuggler, the drug 
smuggler, or the wanted felon.
    In my written testimony I raised three questions. First, 
what is the basis for the SPOT checklist? I have explained why 
I believe our findings on four very different kinds of lies 
provided a solid basis for reviewing what was on the SPOT 
checklist.
    Question two, what is the evidence for the effectiveness of 
SPOT? Mr. Willis has already covered that. I won't attempt to 
repeat it. I am very eager to see that report that you are 
eager to see.
    Question three, can SPOT be improved? That is a dangerous 
question to ask a scientist. We could always think that more 
research is necessary. But is it a wise investment compared to 
other things that the government can invest in regarding 
airport security? That is your decision, not mine. In my 
testimony I have outlined a couple of types of research that I 
think could be useful if you decide you would want to do more 
research. But we do not need to do more research now to feel 
confidence in this layer of security provided to the American 
people.
    In my written testimony I attempted to answer questions 
that have been raised by critics of SPOT. Would it have not 
been better to base SPOT on how terrorists actually behave? 
Wasn't SPOT based on--Why wasn't SPOT based on people role-
playing terrorists? Why is SPOT catching felons and smugglers, 
not just terrorists? And aren't people with Middle Eastern 
names or Middle Eastern appearance more likely to be identified 
by SPOT?
    I would be glad in responding to questions to provide brief 
answers to each of these that are in my written testimony. 
Again, my thanks to the Committee and the staff of the 
Committee for the opportunity to talk to you and to the men and 
women in TSA who make flying a safer path than it would be 
without their dedicated efforts. Thank you.
    [The prepared statement of Dr. Ekman follows:]
Prepared Statement of Dr. Paul Ekman, Professor Emeritus of Psychology,
  University of California, San Francisco, and President and Founder, 
                         Paul Ekman Group, LLC
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Broun. Thank you, Doctor. I appreciate your 
testimony. I now recognize our next witness, Dr. Maria Hartwig, 
Associate Professor, Department of Psychology, John Jay College 
of Criminal Justice. Dr. Hartwig, your testimony for five 
minutes.

        TESTIMONY OF MARIA HARTWIG, ASSOCIATE PROFESSOR,

                   DEPARTMENT OF PSYCHOLOGY,

              JOHN JAY COLLEGE OF CRIMINAL JUSTICE

    Dr. Hartwig. Good morning. It is an honor to be here. Thank 
you for allowing me the opportunity.
    The SPOT program is based on the idea that judgments of 
credibility can be made on the basis of observing facial cues 
and nonverbal cues that indicate stress, fear, or deception. 
And I have been asked to address the scientific support for 
this.
    First of all, there are more than 30 years of research on 
deception that shows that people are quite poor at detecting 
deception on the basis of observing behavior. In a recent meta-
analysis, a statistical overview of all the research, people 
obtained a hit-rate of 54 percent and you should, of course, 
keep in mind that 50 percent is the hit-rate you obtain by 
chance alone. So why are people so poor at detecting deception 
on the basis of observation? And one answer is that there are 
very few non-verbal demeanor-based cues to deception and these 
cues of deception tend to be weak. So simply put, there may not 
be much to observe. And contrary to what laypeople and presume 
lie experts such as law enforcement believe, liars don't 
display more signs of stress, fear, and arousal.
    And critics of this research very often say that these 
findings are due to the nature of the laboratory experiments 
that most research relies on. And the claim is that when 
liars--when the stakes are sufficiently high, these cues to 
deception will appear. Research has addressed this concern by 
studying high-stake lies, such as lies told by people suspected 
of serious crimes like murder and rape, and these studies don't 
show any evidence that cues to stress and anxiety appear as the 
stakes increase.
    And let me turn to the issue of detecting deception from 
facial cues to emotion. So this is based on the idea that liars 
experience emotion or fear of detection and that observing 
these facial cues can help you detect lies. I don't have time 
to go into details about the theoretical problems of that 
assumption, but in brief, it invites both missives and false 
alarms. It may miss travelers with hostile intentions who don't 
experience these emotions or who successfully conceals them and 
it may generate false alarms for travelers who don't have 
hostile intentions but experience these feelings for other 
reasons.
    Most people are quite surprised to hear that there is very 
little evidence on the issue of these so-called micro-
expressions, brief displays of an underlying emotion that are 
revealed automatically. I am aware of only one study published 
in the peer-reviewed literature conducted by Steve Porter and 
his colleague, Leanne ten Brinke, in the Journal of 
Psychological Science, they examined the prevalence of micro-
expressions in falsified and genuine displays of emotion. They 
found no complete micro-expression in any of the 697 facial 
expressions they analyzed. They found 14 partial micro-
expressions occurring in either the lower or the upper half of 
the face, but these micro-expressions occurred with similar 
frequency in true and falsified expressions.
    So this study shows that micro-expressions occur very 
rarely, and to the extent that they do occur, they occur in 
genuine displays as well. And the authors of this paper 
conclude that the occurrence of micro-expressions in true 
expressions makes their usefulness in airline security settings 
questionable. And they also state that the current training 
that relies heavily on the identification of full-faced micro-
expressions may be misleading.
    And finally, I would like to address a point of view 
expressed by Dr. Ekman in a recent article in Nature on the 
SPOT program. He stated that he no longer publishes all of the 
details of his work in the peer-reviewed literature because 
those papers are closely followed by scientists in countries 
such as Syria, Iran, and China, which the United States view as 
a potential threat. I object to deliberate strategy not to 
publish research for three reasons.
    First, in that the enemy, whoever they are, a potential 
terrorist or criminals, may be aware of results from research 
applies to all deception research, so if we took this argument 
seriously, we shouldn't publish any lie-detection research 
because it may ultimately help the enemy.
    And second, it is my understanding of the theory of micro-
expression that these are automatic involuntary displays, and 
if that is the case, I fail to see how knowledge about these 
behaviors or the research on these behaviors could help the 
person.
    And third and most importantly, these claims of micro-
expressions as cues to deception or the cues included in the 
SPOT program, they are empirical questions that should be 
addressed with data and subjected to scientific peer review. 
And given the amount of resources that have already been spent 
on this program, I think such validation is absolutely 
necessary.
    So in summary, my view is that the SPOT program is out of 
step with the scientific research. It relies on an outdated 
view of deception and there is very little support in the peer-
reviewed literature. And if I had more time, I would say a few 
words about what I think may be a more productive approach to 
assessing credibility, but I believe I am out of time.
    [The prepared statement of Dr. Hartwig follows:]
     Prepared Statement of Dr. Maria Hartwig, Associate Professor, 
     Department of Psychology, John Jay College of Criminal Justice
    The TSA has implemented the SPOT program, a security screening 
protocol that relies on observation of nonverbal and facial cues to 
assess the credibility of travelers. In particular, the program relies 
on behavioral indicators of ``stress, fear, or deception'' (GAO, p. 2). 
A key question is whether there is a scientifically validated basis for 
using behavior detection for counterterrorism purposes. This testimony 
will review the relevant empirical evidence on this question. In brief, 
the accumulated body of scientific work on behavioral cues to deception 
does not provide support for the premise of the SPOT program. The 
empirical support for the underpinnings of the program is weak at best, 
and the program suffers from theoretical flaws. Below, I will elaborate 
on the scientific findings of relevance for this issue.

Accuracy in deception judgments

    For several decades, behavioral scientists have conducted empirical 
research on deception and its detection. There is now a considerable 
body of work in this field (Granhag & Stromwall, 2004; Vrij, 2008). 
This research focuses on three primary questions: First, how good are 
people at judging credibility? Second, are there behavioral differences 
between deceptive and truthful presentations? Third, how can people's 
ability to judge credibility be improved?
    Most research on credibility judgments is experimental. An 
advantage of the experimental approach is that researchers may randomly 
assign participants to conditions, which provides internal validity 
(the ability to establish causal relationships between the variables, 
in this context between deception and a given behavioral indicator) and 
control of extraneous variables. Importantly, the experimental approach 
also allows for the unambiguous establishment of ground truth, that is, 
knowledge about whether the statements given by research participants 
are in fact truthful or deceptive. In this research, participants 
provide truthful or deliberately false statements, for example by 
purposefully distorting their attitudes, opinions, or events they have 
witnessed or participated in. The statements are subjected to various 
analyses including codings of verbal and nonverbal behavior. This 
allows for the mapping of objective cues to deception-behavioral 
characteristics that differ as a function of veracity. Also, the 
videotaped statements are typically shown to other participants serving 
as lie-catchers who are asked to make judgments about the veracity of 
the statements they have seen. Across hundreds of such studies, people 
average 54% correct judgments, when guessing would yield 50% correct. 
Meta-analyses (statistical summaries of the available research on a 
given topic) show that accuracy rates do not vary greatly from one 
setting to another (Bond & DePaulo, 2006) and that individuals barely 
differ from one another in the ability to detect deceit (Bond & 
DePaulo, 2008). Contrary to common expectations (Garrido, Masip, & 
Herrero, 2004), presumed lie experts such as police detectives and 
customs officers who routinely assess credibility in their professional 
life do not perform better than lay judges (Bond & DePaulo, 2006). In 
sum, that judging credibility is a near-chance enterprise is a robust 
finding emerging from decades of systematic research.

Cues to deception

    Why are credibility judgments so prone to error? Research on 
behavioral differences between liars and truth tellers may provide an 
answer to this question. A meta-analysis covering 1,338 estimates of 
158 behaviors showed that few behaviors are related to deception 
(DePaulo et al., 2003). The behaviors that do show a systematic 
covariation with deception are typically only weakly related to deceit. 
In other words, people may fail to detect deception because the 
behavioral signs of deception are faint.
    Lie detection may fail for another reason: People report relying on 
invalid cues when attempting to detect deception. Both lay people and 
presumed lie experts, such as law enforcement personnel, report that 
gaze aversion, fidgeting, speech errors (e.g., stuttering), pauses and 
posture shifts indicate deception (Global Deception Research Team, 
2005; Stromwall, Granhag, & Hartwig, 2004). These are cues to stress, 
nervousness and discomfort. However, meta-analyses of the deception 
literature show that these behaviors are not systematically related to 
deception. For example, in DePaulo et al. (2003), the effect size d (a 
statistical measure of the strength of association between two 
variables) of gaze aversion as a cue to deception across all studies is 
a non-significant 0.03. DePaulo et al. state: ``It is notable that none 
of the measures of looking behavior supported the widespread belief 
that liars do not look their targets in the eye. The 32 independent 
estimates of eye contact produced a combined effect that was almost 
exactly zero (d = 0.01)'' (p. 93). Moreover, fidgeting with object does 
not occur more frequently when lying, d = -0.12 (the negative value 
suggests that object fidgeting occurs less, not more frequently when 
lying, but this difference is not statistically significant), nor does 
self-fidgeting (d = -0.01) and facial fidgeting (d = 0.08). Speech 
disturbances are not related to deception (d = 0.00), nor are pauses 
(silent pauses d = 0.01; filled pauses d = 0.00; mixed pauses d = 
0.03). Posture shifts are not systematically related to deception 
either, d = 0.05.
    In sum, the literature shows that people perform poorly when 
attempting to detect deception. There are two primary reasons: First, 
there are few, if any, strong cues to deception. Second, people report 
relying on cues to stress, anxiety and nervousness, which are not 
indicative of deceit.
    High-stake lies. Some aspects of the deception literature have been 
criticized on methodological grounds, in particular with regard to 
external validity (i.e., the generalizability of the findings to 
relevant non-laboratory settings, see Miller & Stiff, 1993) The most 
persistent criticism has concerned the issue of generalizing from low-
stake situations to those in which the stakes are considerably higher. 
Critics have argued that when the deceit concerns serious matters, 
liars will experience stronger fear of detection, leading to cues to 
deception. There are several bodies of work of relevance for this 
concern. In a meta-analytic overview of the literature on credibility 
judgments (Bond & DePaulo, 2006), the evidence on the effects of stakes 
was mixed: Within studies that manipulated motivation to succeed, lies 
were easier to tell from truths when there is relevant motivation. 
However, the effect size was fairly small (d = 0.17). However, when the 
comparison was made between studies that differed in stakes, no 
difference in lie detection accuracy was observed. Also, the meta-
analysis revealed that as the stakes rise, both liars and truth tellers 
seem more deceptive to observers. That is, lie-catchers are more prone 
to make false positive errors - mistaking an innocent person for a liar 
- when judging highly motivated senders.
    Furthermore, research on real-life high-stake lies, such as lies 
told by suspects of serious crimes during police interrogations, shows 
that people obtain at best moderate hit rates when judging such 
material (for a review of these studies, see Vrij, 2008). Behavioral 
analyses of the suspects in these studies do not support the assertion 
that cues to deception in the form of stress, arousal and emotions 
appear when senders are highly motivated. Vrij noted that the pattern 
from high-stake lies studies are ``in direct contrast with the view of 
professional lie-catchers who overwhelmingly believe that liars in 
high-stake situations will display cues to nervousness, particularly 
gaze aversion and self-adaptors'' (2008, p. 77). Moreover, he notes 
that the results ``show no evidence for the occurrence of such cues'' 
(2008, p. 77).
    In sum, neither the research in general nor specific results on 
high-stake lies support the assumption that liars leak cues to stress 
and emotion, which can be used for the purposes of lie detection.

Verbal vs. nonverbal cues to deception

    The SPOT program seems to rely heavily on evaluation of nonverbal 
cues. This emphasis on nonverbal behavior as opposed to verbal content 
cues runs counter to the recommendations from research. A number of 
findings suggest that reliance on nonverbal cues impairs lie detection 
accuracy. First, the meta-analysis on accuracy in deception judgments 
investigated accuracy under four conditions: a) watching videotapes 
without sound b) watching tapes with sound c) listening to audiotapes 
and d) reading transcripts (Bond & DePaulo, 2006). The accuracy rates 
in the first condition, where people based their judgments solely on 
nonverbal behavior, was significantly lower than in the other three, 
which did not differ significantly from each other. Thus, the combined 
results of hundreds of studies on lie detection suggest that having 
access to only nonverbal cues impairs lie detection accuracy.
    Second, a number of studies have correlated lie-catchers' self-
reported use of cues with lie detection accuracy. The purpose of such 
analyses is to investigate whether failure to detect deception 
coincides with the self-reported use of a particular set of cues. The 
results of these studies are consistent: They show that the more 
frequently a participant reports relying on nonverbal behavior, the 
less likely they are to be accurate in detecting deception. First, Mann 
et al. (2004) investigated police officers' ability to assess the 
veracity of suspects accused of murder, rape and arson. They found that 
successful lie detectors mentioned story cues (e.g., contradictions in 
the statement, vague responses) more frequently than poor lie 
detectors. Moreover, the more nonverbal cues the detectives mentioned 
(e.g., gaze aversion, movements, posture shifts), the lower their lie 
detection accuracy was. Second, Anderson et al. (1999) and Feeley and 
Young (2000) found that the more vocal cues lie-catchers mentioned, the 
more accurate they were in detecting deception. Third, Vrij and Mann's 
(2001) analysis of accuracy in judging the statement of a convicted 
murderer showed that the participants who mentioned cues to stress and 
discomfort obtained the lowest hit rates. Fourth, Porter et al. (2007) 
found that the more visual cues participants reported, the poorer they 
were at detecting deception.
    It should be noted that reliance on nonverbal cues is associated 
not only with poorer lie detection accuracy, but also a more pronounced 
lie bias (a tendency to judge statements as lies rather than truths). 
That is, paying attention to visual cues increases the tendency for 
false positive errors - mistaking an innocent person for a deceptive 
one. This finding was obtained in one of the meta-analyses on deception 
judgments (Bond & DePaulo, 2006), as well as in a study of police 
officers' judgments of suspects of serious crimes (Mann et al., 2004).
    The finding that reliance on nonverbal cues hampers lie detection 
is not surprising, given the research findings on cues to deception. 
These findings suggest that speech-related cues may be more diagnostic 
of deception than nonverbal cues (DePaulo et al., 2003; Sporer & 
Schwandt, 2006, 2007; Vrij, 2008). For example, DePaulo et al. (2003) 
showed that liars talk for a shorter time (d = -0.35), and include 
fewer details (d = -0.30). Liars' stories are also less logically 
structured (d = -0.25) and less plausible (d = -0.20). Liars and truth 
tellers differ in verbal and vocal immediacy (d = -0.55), and with 
respect to the inclusion of particular verbal elements, such as 
admissions of lack of memory (d = -0.42), spontaneous corrections (d = 
-0.29) and related external associations (d = 0.35). These findings are 
in line with predictions from content analysis frameworks (e.g., 
Kohnken, 2004).

Detecting deceptions from facial displays of emotion

    Theoretical concerns. Parts of the SPOT program seem to be 
predicated on the assumption that analyses of facial displays of 
emotion can improve deception detection accuracy. The claims of 
effectiveness for such approaches are not modest. In an interview with 
the New York Times, Ekman claimed that ``his system of lie detection 
can be taught to anyone, with an accuracy rate of more than 95 
percent'' (Henig, 2006). However, no such finding has ever been 
reported in the peer-reviewed literature (Vrij et al., 2010). More 
broadly, there is no support for the assertion that training programs 
focusing on identifying facial displays of emotions can improve lie 
detection accuracy (Vrij, 2008).
    Apart from lack of empirical support for the effectiveness of 
training programs focusing on the analysis of facial displays of 
emotion, there are theoretical problems with the approach. The 
assumption behind the training program is that concealed emotions may 
be revealed automatically, through brief displays sometimes referred to 
as microexpressions. Implicit in this assumption is the notion that 
liars will experience emotions, and that leakage of emotions can betray 
their deceit. This seems to equate cues to emotion with cues to deceit. 
But what is the evidence that lying will entail emotions, while truth 
telling will not? Several scholars have noted that the assumption that 
liars will experience emotion is a prescriptive view - it suggests how 
liars should feel. Common moral reasoning suggests that lying is 
``bad'' (Backbier et al., 1997). In line with this reasoning, Bond and 
DePaulo (2006) proposed a double-standard hypothesis to explain the 
discrepancy between people's beliefs about deceptive behavior (that 
liars will display signs of discomfort and stress) and the actual 
findings on deceptive behavior (that liars typically do not display 
such signs). The double-standard hypothesis suggests that people have 
two views about lying: one about the lies they themselves tell, and one 
about the lies told by others (a form of fundamental attribution error; 
Ross, 1977). In the words of the authors: ``As deceivers, people are 
pragmatic. They accommodate perceived needs by lying. [.] [Lies] are 
easy to rationalize. Yes, deception may demand construction of a 
convincing line and enactment of appropriate demeanor. Most strategic 
communications do. To the liar, there is nothing exceptional about 
lying'' (p. 216). However, people's view of the lies told by others is 
markedly different: ``Indignant at the prospect of being duped, people 
project onto the deceptive a host of morally fuelled emotions - 
anxiety, shame, and guilt. Drawing on this stereotype to assess others' 
veracity, people find that the stereotype seldom fits. In 
underestimating the liar's capacity for self-rationalization, judges' 
moralistic stereotype has the unintended effect of enabling successful 
deceit. Because deceptive torment resides primarily in the judge's 
imagination, many lies are mistaken for truths. When torment is 
perceived, it is often not a consequence of deception but of a 
speaker's motivation to be believed. High-stakes rarely make people 
feel guilty about lying; more often, they allow deceit to be easily 
rationalized. When motivation has an impact, it is on the speaker's 
fear of being disbelieved, and it matters little whether or not the 
highly motivated are lying (pp. 231-232).''
    These are important points, in that they highlight the discrepancy 
between the perspective of the liar and the lie-catcher: People fall 
prey to an error of reasoning when assuming that the liars are plagued 
by emotions. They fail to take into account the pragmatic nature of 
lies, as well as the liar's ability to rationalize their lie. Moreover, 
they may misinterpret the fear of a motivated innocent person as a sign 
of deceit.
    Beyond naive moral reasoning about lies, is it psychologically 
sound to assume that people experience stress and negative emotion 
about lying? Can we expect that a criminal will experience guilt or 
shame about the actions he has committed, or that a prospective 
terrorist is plagued by negative feelings about the actions he is about 
to commit? They may, but given the double-standard hypothesis, we 
cannot be certain that this is the case. Apart from guilt and shame, it 
could be argued that liars may experience fear of not being able to 
convince. However, we must acknowledge the important fact that truth 
tellers might also experience such fear. For example, Ekman coined the 
term ``Othello error'' to describe how lie-catchers may misinterpret an 
innocent person's fear of not being believed as a sign of deception 
(Ekman, 2001). Moreover, people may react not only with fear but also 
anger in response to suspicion. Indeed, one study found that truth 
tellers reacted with more anger to suspicion than did liars (Hatz & 
Bourgeois, 2010). For an innocent person, suspicion is obviously 
undeserved. An emotional reaction to such treatment fits with a large 
body of social justice research suggesting that people have affective 
responses to violations of fairness (De Cremer & van den Bos, 2007; 
Mikula et al., 1998).
    Empirical support. In sum, the concern raised above is that 
equating arousal, fear and stress with deception may rest on shaky 
theoretical grounds. If one rejects this concern and insists that such 
processes accompany lying, there is yet another hurdle to overcome. If 
people do experience affective processes, can they conceal them? Given 
the attention to microexpressions in the media, one might assume that 
there is an abundance of research published in peer-reviewed journals 
addressing this question. However, this is not the case. Porter and ten 
Brinke (2008) noted that ``to [their] knowledge, no published empirical 
research has established the validity of microexpressions, let alone 
their frequency during falsification of emotion'' (p. 509). They 
proceeded to conduct an analysis of people's ability to a) fabricate 
expressions of emotions they did not experience and b) conceal emotions 
that they did in fact experience. Their results showed that people are 
not perfectly capable of fabricating displays of emotions they do not 
experience: When people were asked to present a facial expression 
different from the emotion they were experiencing, there were some 
inconsistencies in these displays. However, the effect depended on the 
type of emotion people were trying to portray. People performed better 
at creating convincing displays of happiness compared to negative 
expressions. This is plausibly due to people's experience of creating 
false expressions of positive emotion in everyday life. With regard to 
concealing an emotion people did in fact experience, they performed 
better: There was no evidence of leakage of the felt emotion in these 
expressions. As for microexpression, no complete microexpression 
(lasting 1/5th-1/25th of a second) involving both the upper and lower 
half of the face was found in any of the 697 facial expressions 
analyzed in the study. However, 14 partial microexpressions were found, 
7 in the upper and 7 in the lower half of the face. Interestingly, 
these partial microexpression occurred both during false and genuine 
facial expressions. That is, not only those who were falsifying or 
concealing emotions displayed these expressions; true displays of 
emotion involved microexpressions to the same extent. Porter and ten 
Brinke concluded that the ``occurrence [of microexpressions] in genuine 
expressions makes their usefulness in airline-security settings 
questionable, given the implications of false-positive errors (i.e., 
potential human rights violations). Certainly, current training that 
relies heavily on the identification of full-face microexpressions may 
be misleading.'' (p. 513).

Passive vs. active lie detection

    If it is difficult, or even impossible to detect deception through 
analyses of leakage of cues to affect, how can lie detection be 
accomplished? The research reviewed here suggests that it is more 
fruitful to focus on the content of a person's speech than to observe 
their nonverbal behavior, since the latter provides little valid 
information about deceit. The implication of this is that in order for 
lie judgments to be reasonably accurate, lie-catchers cannot simply 
observe targets. Instead, they should elicit verbal responses from 
these targets, as verbal messages may be the carriers of cues to 
deceit.
    The proposition that lie-catchers ought to elicit verbal responses 
from targets fits with an important paradigm shift in the literature on 
deception detection. In brief, this paradigm shift involves moving from 
passive observation of behavior to the active elicitation of cues to 
deception (Vrij, Granhag, & Porter, 2010). This shift in the approach 
to lie detection is based on the now well-established finding that 
liars do not automatically leak behavioral cues. However, that the 
behavioral traces of deception are faint is not necessarily a universal 
fact: it may be possible to increase the behavioral differences between 
liars and truth tellers by exploiting some of the cognitive differences 
between the two. The approaches to elicit cues to deception are thus 
anchored in a cognitive rather than emotional model of deception. This 
model assumes that lying is a calculated, strategic enterprise that may 
demand cognitive and self-regulatory resources: Liars have to suppress 
the truth and formulate an alternative account that is sufficiently 
detailed to appear credible, while being mindful of the risk of 
contradicting particular details or one's own statement if one has to 
repeat it later on. Liars may experience greater self-regulatory 
busyness than truthful communicators, as a function of the efforts 
involved in deliberately creating a truthful impression (DePaulo et 
al., 2003).
    Departing from this theoretical framework, it is possible to 
identify several different approaches to elicit behavioral differences 
between liars and truth tellers. First, if it is true that liars are 
operating under a heavier burden of cognitive load than truth tellers, 
imposing further cognitive load should hamper liars more than truth 
tellers. This hypothesis has been tested in several studies, in which 
cognitive load was manipulated (for example, by asking targets to tell 
the story in reverse order) and cues to deception were measured (e.g., 
Vrij et al., 2008; Vrij, Mann, Leal, & Fisher, 2010). In support of the 
cognitive load framework, cues to deception were more pronounced, and 
veracity judgments were more correct in the increased cognitive load 
conditions.
    A related line of research has investigated whether it is possible 
to elicit cues to deception by exploiting the strategies liars employ 
in order to convince. For example, this research has attempted to 
elicit cues to deception by asking unanticipated questions, based on 
the assumption that liars plan some, but not all of their responses 
(Vrij et al., 2009). In line with the predictions, liars and truth 
tellers did not differ with regard to anticipated questions, but when 
unanticipated questions were asked, cues to deception emerged. 
Moreover, liars' verbal strategies of avoidance can be exploited 
through strategic use of background information, which elicits 
inconsistencies or contradictions between the target's statement and 
the background information (Hartwig et al., 2005; 2006). For an 
extensive discussion on approaches to elicit cues to deception, see 
Vrij et al. (2010).

Summary and directions for future research

    In summary, the research reviewed above suggests that lie detection 
based on observations of behavior is a difficult enterprise. Hundreds 
of studies show that people obtain hit rates just slightly above the 
level of chance. This can be explained by the scarcity of cues to 
deception, as well as the finding that people report relying on 
behavioral cues that have little diagnostic value. A wave of research 
conducted during the last decade suggests that lie judgments can be 
improved by the elicitation of cues to deception through various 
methods of strategic interviewing. This wave of research has been 
accompanied by a theoretical shift in the literature, moving from an 
emotional model of deception towards a cognitive view of deception.
    The SPOT program's focus on passive observations of behavior and 
its emphasis on emotional cues is thus largely out of sync with the 
developments in the scientific field. The evidence that accurate 
judgments of credibility can be made on the basis of such observations 
is simply weak. Of course, it must be acknowledged that engaging 
travelers in verbal interaction (ranging from casual conversations to 
more or less structured interviews) is more time-consuming and 
effortful than simply observing behaviors from some distance. Still, 
the literature on elicitation of cues to deception suggests that this 
approach is likely to be substantially more effective than passive 
observations of behavior.
    Evaluation of the SPOT program. At the time this testimony is 
written, the DHS's report on the validation of the SPOT program has yet 
to be released. Therefore, I cannot comment on the methodological 
merits of this validation study. However, as requested, I will briefly 
outline some methodological processes that I would expect a validation 
study to follow. First, it would be necessary to establish clear 
operational definitions of the target(s) of the program. What is the 
program supposed to accomplish? In order to evaluate the outcomes of 
the program, such definitions are crucial. Moverover, I would expect 
analyses of the outcomes of the SPOT program using the framework of 
decision theory. That is, a validation study should minimally provide 
information about the frequency of hits, false alarms, misses and 
correct rejections (to do this, one must have an operational definition 
of what a hit is). Those values should be compared to chance 
expectations based upon the baserate of the defined target condition. 
Then the obtained outcomes should be compared to a screening protocol 
that does not include the key elements of the SPOT program. For 
example, the outcome of a comparable sample of airports employing a 
random screening method may serve as an appropriate control group.
    In addition to analyzing the results using a decision theory 
framework, it would be desirable to empirically examine the behavioral 
cues displayed by targets who pose threats to security, and compare 
them to targets who do not. That is, videotaped recordings of these 
targets (to the extent that they are available) should be subjected to 
detailed coding to determine the behavioral indicators that indicate 
deception and/or hostile intentions as these travelers move through an 
airport. The behaviors displayed by such targets should be compared to 
an appropriate control group, for example, a random sample of innocent 
travelers. The purpose of such analyses would be twofold: First, the 
results would empirically establish the behavioral indicators of 
deception and malicious intent in the airport setting. Second, the 
results could be compared to the SPOT criteria to establish whether 
there is an overlap between the two sets of indicators.
    Moreover, it would be useful to evaluate the criteria on which 
Behavior Detection Officers rely to make judgments that a target is 
worthy of further scrutiny. That is, analyses of the behaviors of 
targets selected for scrutiny could be subjected to coding, to 
establish a) whether the officers rely on valid indicators of deception 
and hostile intentions and b) whether they rely on the criteria set 
forth in the SPOT training program. This would validate the SPOT 
program in a slightly different manner, as it would assess to what 
extent the Behavior Detection Officers follow the protocol of their 
training.
    A problem of using field data is that important data will likely be 
missing. That is, while databases may include information about hits 
and false alarms from travelers who are subjected to further scrutiny, 
the data on misses and correct rejections are will be incomplete. For 
example, misses may not be detected for years, if ever. For this reason 
it may be appropriate to subject the SPOT program to an experimental 
test, in which the ground truth about the travelers' status is known. 
The field and experimental approaches are obviously not mutually 
exclusive: It is possible (and perhaps even preferable) to conduct both 
types of validation studies, as the strength and weaknesses of each 
approach in terms of internal and external validity complement each 
other. A multi-methodological approach to validating the SPOT program 
may also provide convergent validity. If a concern with the laboratory 
approach is that participants in an experimental study would not be 
sufficiently motivated, it may be worth mentioning that it is possible 
to experimentally examine the effect of motivation on targets' 
behaviors within the context of a laboratory paradigm. Some targets 
could be randomly assigned to receive a weaker incentive for 
successfully passing through the screening, while others receive a 
stronger incentive. Of course, it would not be possible to create a 
fully realistic incentive system due to ethical considerations. Still, 
such a manipulation could provide some insight into the role of 
motivation in targets' behaviors, and to what extent motivation 
moderates the display of relevant behavioral cues.
    In closing, I will briefly note a few areas of relevance for the 
airport security screening settings that I believe future research 
ought to focus on. First, most research has examined truths and lies 
about past actions. In the airport setting, truths and lies about 
future actions (intentions) may be of particular relevance. A few 
recent studies have examined true and false statements about future 
actions (Granhag & Knieps, in press; Vrij, Granhag, Mann, & Leal, in 
press; Vrij et al., in press). The studies reveal some findings in line 
with the research on true and false statements about past actions, for 
example in that false statements about intentions are less plausible 
(Vrij et al., in press). However, there are also some differences in 
these results. While research on statements about past actions shows 
that lies are less detailed than truths, this finding has not been 
replicated for statements about future actions. However, this body of 
work is still small, and further empirical attention is needed. Second, 
and relatedly, it would be valuable to attempt to extend the research 
findings on elicitation of cues to deception to airport settings. That 
is, it would be useful to establish to what extent it is possible to 
increase cues to deception using cognitive models when the statements 
concern future actions. Such knowledge could be translated into brief, 
standardized questioning protocols that could be used to establish the 
veracity of travelers' reports about both their past actions and their 
intentions.

References

      Anderson, D. E., DePaulo, B. M., Ansfield, M. E., Tickle, J. J., 
& Green, E. (1999). Beliefs about cues to deception: Mindless 
stereotypes or untapped wisdom? Journal of Nonverbal Behavior, 23, 67-
89.

      Backbier, E., Hoogstraten, J., & Meerum Terwogt-Kouweenhove, K. 
(1997). Situational determinants of the acceptability of telling lies. 
Journal of Applied Social Psychology, 27, 1048-1062.

      Bond, C. F., Jr., & DePaulo, B. M. (2006). Accuracy of deception 
judgments. Personality and Social Psychology Review, 10, 214-234.

      Bond, C. F., Jr., & DePaulo, B. M. (2008). Individual differences 
in judging deception: Accuracy and bias. Psychological Bulletin, 134, 
477-492.

      De Cremer, D., & van den Bos, K. (2007). Justice and feelings: 
Toward a new era in justice research. Social Justice Research, 20, 1-9.

      DePaulo, B. M., Lindsay, J. J., Malone, B. E., Muhlenbruck, L., 
Charlton, K., & Cooper, H. (2003). Cues to deception. Psychological 
Bulletin, 129, 74-118.

      Ekman, P. (2001). Telling lies: Clues to deceit in the 
marketplace, politics and marriage. New York: Norton.

      Feeley, T. H., & Young, M. J. (2000). The effects of cognitive 
capacity on beliefs about deceptive communication. Communication 
Quarterly, 48, 101-119.

      Garrido, E., Masip, J., & Herrero, C. (2004). Police officers' 
credibility judgments: Accuracy and estimated ability. International 
Journal of Psychology, 39, 254-275.

      The Global Deception Research Team (2006). A world of lies. 
Journal of Cross-Cultural Psychology, 37, 60-74.

      Government Accountability Office (2010). Aviation security. GAO-
1-763.

      Granhag, P. A., & Knieps, M. (in press). Episodic future thought: 
Illuminating the trademarks of true and false intent. Applied Cognitive 
Psychology.

      Granhag, P. A., & Stromwall, L. A. (2004). The detection of 
deception in forensic contexts. New York, NY: Cambridge University 
Press.

      Hartwig, M., Granhag, P. A., Stromwall, L. A., & Kronkvist, O. 
(2006). Strategic use of evidence during police interviews: When 
training to detect deception works. Law and Human Behavior, 30, 603-
619.

      Hartwig, M., Granhag, P. A., Stromwall, L. A., & Vrij, A. (2005). 
Deception detection via strategic disclosure of evidence. Law and Human 
Behavior, 29, 469-484.

      Hatz, J. L., & Bourgeois, M. J. (2010). Anger as a cue to 
truthfulness. Journal of Experimental Social Psychology, 46, 680-683.

      Henig, R. M. (2006). Looking for the lie. New York Times, Feb 5.

      Kohnken, G. (2004). Statement validity analysis and the 
`detection of the truth'. In P.A. Granhag, & L.A. Stromwall (Eds.), The 
detection of deception in forensic contexts (pp. 41-63). Cambridge: 
Cambridge University Press.

      Mann, S., Vrij, A., & Bull, R. (2004). Detecting true lies: 
Police officers' ability to detect suspects' lies. Journal of Applied 
Psychology, 89, 137-149.

      Mikula, G., Scherer, K. R., & Athenstaedt, U. (1998). The role of 
injustice in the elicitation of differential emotional reactions. 
Personality and Social Psychology Bulletin, 24, 769-783.

      Miller, G. R., & Stiff, J. B. (1993). Deceptive communication. 
Newbury Park: Sage Publications.

      Porter, S., & ten Brinke, L. (2008). Reading between the lies: 
Identifying concealed and falsified emotions in universal facial 
expressions. Psychological Science, 19, 508-514.

      Porter, S., Woodworth, M., McCabe, S., & Peace, K. A. (2007). 
``Genius is 1% inspiration and 99% perspiration''.or is it? An 
investigation of the impact of motivation and feedback on deception 
detection. Legal and Criminological Psychology, 12, 297-310.

      Ross, L. D. (1977). The intuitive psychologist and his 
shortcomings: Distortions in the attribution process. In L. Berkowitz 
(Ed.), Advances in experimental social psychology (Vol. 10), pp. 174-
221. New York: Academic Press.

      Sporer, S. L., & Schwandt, B. (2006). Paraverbal indicators of 
deception: A meta-analytic synthesis. Applied Cognitive Psychology, 20, 
421-446.

      Sporer, S. L., & Schwandt, B. (2007). Moderators of nonverbal 
indicators of deception: A meta-analytic synthesis. Psychology, Public 
Policy, and Law, 13, 1-34.

      Stromwall, L. A., Granhag, P. A., & Hartwig, M. (2004). 
Practitioners' beliefs about deception. In P. A. Granhag & L. A. 
Stromwall (Eds.), The detection of deception in forensic contexts (pp. 
229-250). New York, NY: Cambridge University Press.

      Vrij, A. (2008). Detecting lies and deceit: Pitfalls and 
opportunities (2nd ed.). New York, NY: John Wiley & Sons.

      Vrij, A., Granhag, P. A., Mann, S., & Leal, S. (in press). Lying 
about flying: The first experiment to detect false intent. Psychology, 
Crime & Law.

      Vrij, A., Granhag, P. A., & Porter, S. (2010). Pitfalls and 
opportunities in nonverbal and verbal lie detection. Psychological 
Science in the Public Interest, 11, 89-121.

      Vrij, A., Leal, S., Granhag, P. A., Fisher, R. P., Sperry, K., 
Hillman, J., & Mann, S. (2009). Outsmarting the liars: The benefit of 
asking unanticipated questions. Law and Human Behavior, 33, 159-166.

      Vrij, A., Leal, S., Mann, S., & Granhag, P. A. (in press). A 
comparison between lying about intentions and past activities: Verbal 
cues and detection accuracy. Applied Cognitive Psychology.

      Vrij, A., & Mann, S. (2001). Telling and detecting lies in a 
high-stake situation: The case of a convicted murderer. Applied 
Cognitive Psychology, 15, 187-203.

      Vrij, A., Mann, S., Leal, S., & Fisher, R. P. (2007). ``Look into 
my eyes'': Can an instruction to maintain eye contact facilitate lie 
detection? Psychology, Crime & Law, 16, 327-348.

      Vrij, A., Mann, S., Fisher, R. P., Leal, S., Milne, R., & Bull, 
R. (2008). Increasing cognitive load to facilitate lie detection: The 
benefit of recalling an event in reverse order. Law and Human Behavior, 
32, 253-265.

    Chairman Broun. Thank you, Dr. Hartwig. If you want to add 
some suggestions, we would be glad to enter those in the record 
and entertain those suggestions that you may have. And 
hopefully, we can get those from you.
    Now, I would like to recognize our final witness and that 
is Dr. Philip Rubin, Chief Executive Officer of Haskins 
Laboratories. Dr. Rubin, you have five minutes for your oral 
testimony.

  TESTIMONY OF PHILIP RUBIN, CHIEF EXECUTIVE OFFICER, HASKINS 
                          LABORATORIES

    Dr. Rubin. Chairman Broun, Ranking Member Edwards, and 
distinguished Members of the Subcommittee, thank you for the 
opportunity to speak to you today. My name is Philip Rubin. I 
am here as a private citizen. However, I currently serve or 
have served in a number of roles, both inside and outside of 
government, that might be relevant to today's hearing.
    In addition to the activities previously mentioned by 
Chairman Broun, I am also a member of the Technical Advisory 
Committee that was formed to provide critical input related to 
analyses and methodologies used in the SPOT program.
    I was invited here today to describe the current state of 
research in science and the behavior and cognitive sciences 
related to laboratory studies and field evaluation of various 
tools, techniques, and technologies used in security and the 
detection of deception. My written testimony provides some 
brief historical background on selected activities in the 
behavioral sciences related to security and it mentions a 
variety of documents and reports, some of which I have here, 
include many produced by the National Academies National 
Research Council, such as consensus reports and other 
documents. But the written testimony focuses on two that I was 
involved with: a workshop on field evaluation in the 
intelligence and counterintelligence context, and a short set 
of papers on threatening communications and behavior. Because 
of time limitations, I am not able to describe these in detail 
and refer you to my written testimony.
    Regarding the field evaluation workshop summary, however, a 
number of the participants spoke about various obstacles to 
field evaluation, obstacles they believe must be overcome if 
field evaluation of techniques and devices derived from the 
behavioral sciences is to become more common and accepted. 
Perhaps the most basic obstacle is simply a lack of 
appreciation among many for the value of objective field 
evaluations and how inaccurate informal ``lessons learned'' 
approaches can be to field evaluation.
    A number of people throughout the process of developing 
this summary spoke about the pressures to use new devices and 
techniques once they have become available because lives are at 
stake. This sense of urgency can lead to pressure to use 
available tools before they are evaluated, and it can even lead 
to ignoring the results of evaluations if they disagree with 
the user's conviction that the tools are useful.
    As indicated earlier, I am a member of the Technical 
Advisory Committee for SPOT. As the GAO report indicates, the 
Technical Advisory Committee's role is extremely limited. It 
focused in the main on determining whether or not the research 
program successfully accomplished the goal of evaluating 
whether SPOT can identify high-risk travelers--defined as 
individuals who are knowingly and intentionally attempting to 
defeat the airport security process. The advisory committee has 
not been asked to evaluate the overall SPOT program, nor has it 
been asked to evaluate the validity of indicators used in the 
program, not asked to evaluate consistency across measurement, 
field conditions, training issues, scientific foundations of 
the program, and/or behavioral detective methodologies, et 
cetera. In order to appropriately scientifically evaluate a 
program like SPOT, all of these and more would be needed.
    To summarize my written testimony, I would like to just 
mention a few points as highlights. These are some 
recommendations of how to move forward, so I am just going to 
hit some bullets.
    First, create a reliable research base of studies examining 
many of the issues related to security and the detection of 
deception.
    Peer review where and when possible is particularly 
important. Shining a light on the process by making information 
on methodologies and result as open as possible is necessary 
for determining if these technologies and devices are 
performing in a known and reliable manner.
    Incorporate knowledge on the complexities, subtleties, 
irregularities, and idiosyncrasies of human behavior.
    Next, understand the interplay and differences between 
affect, emotion, stress, and other factors.
    Make sure that we are not distracted or misled by the tools 
and toys that fascinate us.
    Pay serious attention to the ethical issues and regulations 
related to human subjects research, including 45 C.F.R. 46, the 
Common Rule, where applicable, and relevant emerging areas, 
including privacy concerns, neuro-ethics, and ethical 
implications of the deployment of autonomous agents and 
devices.
    Reduce conflicts of interest to the extent possible, 
including financial conflicts of interest.
    Develop an understanding of how urgency, organizational 
structure, and institutional barriers can shape program 
development and assessment.
    And support the importance of the need for independent 
evaluation of new and controversial projects and issues with 
appropriate scientific, technical, statistical, and 
methodological expertise.
    Thank you.
    [The prepared statement of Dr. Rubin follows:]
                 Prepared Statement of Dr. Philip Rubin
             Chief Executive Officer, Haskins Laboratories

    Chairman Broun, Ranking Member Edwards, and Members of the 
Subcommittee on Investigations and Oversight of the Committee on 
Science, Space, and Technology, thank you for the opportunity to speak 
to you today. My name is Philip Rubin, a resident of Fairfield, 
Connecticut. I am here as a private citizen. However, I currently serve 
or have served in a number of roles, both inside and outside of 
government, that might be relevant to today's hearing. In addition to 
the separate biography and resume that I have provided, I will mention 
some key positions and/or responsibilities. I am the Chief Executive 
Officer and a senior scientist at Haskins Laboratories in New Haven, 
Connecticut, a private, non-profit research institute affiliated with 
Yale University and the University of Connecticut that has a primary 
focus on the science of the spoken and written word, including speech, 
language, and reading, and their biological basis. I am also an adjunct 
professor in the Department of Surgery, Otolaryngology at the Yale 
University School of Medicine. My research spans a number of 
disciplines, combining computational, engineering, linguistic, 
physiological, and psychological approaches to study embodied 
cognition, most particularly the biological bases of speech and 
language.
    Since 2006 I have served as the Chair of the National Academies 
Board on Behavioral, Cognitive, and Sensory Sciences. I was also the 
Chair of the National Research Council (NRC) Committee on Field 
Evaluation of Behavioral and Cognitive Sciences-Based Methods and Tools 
for Intelligence and Counter-Intelligence, and a member of the NRC 
Committee on Developing Metrics for Department of Homeland Security 
Science and Technology Research. I am a member-at-large of the 
Executive Committee of the Federation of Associations in Behavioral & 
Brain Sciences. The American Institutes for Research (AIR), at the 
request of the Department of Homeland Security Science & Technology, is 
conducting a study to assess the validity of the Transportation 
Security Administration's (TSA) Screening of Passengers by Observation 
Techniques (SPOT) program's primary instrument, the SPOT Referral 
Report, to identify ``high risk travelers.'' I am a member of the 
Technical Advisory Committee (TAC) that was formed to provide critical 
input related to analyses and methodologies in this project. The final 
report is expected shortly. The SPOT review is an ongoing activity and 
I have let this committee's staff know that I have signed a 
nondisclosure agreement about aspects of the program. Since Feb. 2011 I 
have also been a member of the federal interagency High-Value Detainee 
Interrogation Group (HIG) Research Committee. From 2000 through 2003 I 
served as the Director of the Division of Behavioral and Cognitive 
Sciences at the National Science Foundation (NSF). During that period I 
served as the co-chair of the interagency NSTC Committee on Science 
Human Subjects Research Subcommittee under the auspices of the 
Executive Office of the President, Office of Science and Technology 
Policy (OSTP) during both the Clinton and Bush administrations. I was 
also a member of the NSTC Interagency Working Group on Social, 
Behavioral and Economic Sciences Task Force on Anti-Terrorism Research 
and Development during the Bush administration.
    I was invited here today to describe the current state of research 
and science in the behavioral and cognitive sciences related to 
laboratory studies and field evaluation of various tools, techniques, 
and technologies used in security and the detection of deception. My 
testimony will summarize some activities in these areas, particularly 
those with which I have personal experience, that might be of use to 
this subcommittee.
    Before describing some recent reports of significance, let me begin 
by noting some activities of particular relevance to behavioral science 
and security. The significance of the behavioral and cognitive sciences 
to matters of security was highlighted within the intelligence 
community in a number of articles written from 1978 to 1986 by Richards 
J. Heuer, Jr., an analyst with the Central Intelligence Agency. These 
were later collected in a book, Psychology of Intelligence Analysis 
(Heuer, 1999), that surveyed cognitive psychology literature and 
suggested ways to apply these research findings to improve performance 
in various tasks.
    On Feb. 10, 2005, The National Science and Technology Council 
(NSTC) released the report ``Combating Terrorism: Research Priorities 
in the Social, Behavioral and Economic Sciences.'' Produced by the 
Subcommittee on Social, Behavioral and Economic Sciences, this was the 
first NSTC report on the role of the social and behavioral sciences 
(which include psychology, sociology, anthropology, geography, 
linguistics, statistics, and statistical and data mining) in helping 
the American public and its leaders to understand the causes of 
terrorism and how to counter terrorism. As a member of the NSTC 
Interagency Working Group on Social, Behavioral and Economic Sciences 
Task Force on Anti-Terrorism Research and Development, I was one of the 
individuals who helped to draft the initial versions of this report. 
The focus of the report was on how these sciences can help us to 
predict, prevent, prepare for and recover from a terrorist attack or 
ongoing terrorists' threats. A revised, printed form of the report was 
released in 2009. Speaking of this report, John H. Marburger III, then 
science advisor to the President and director of the Office of Science 
and Technology Policy, said, ``Our ability to maintain our American way 
of life depends on our understanding of human behavior, which is the 
domain of the social, behavioral and economic sciences. The report 
describes the powerful tools and strategies these sciences offer as we 
respond to the threats and actions of terrorists.'' The report goes on 
to say, in part, that:

          ``Terrorism has enormous impacts beyond the immediate 
        destruction, injury, loss of life, and consequent fear and 
        panic. These impacts span the personal, organizational and 
        societal levels and can have profound psychological, economic 
        and social consequences. They apply not just to terrorist 
        activity, but to other crises of national and/or regional 
        import, such as natural disasters, industrial accidents, and 
        other extreme events. Research in the social, behavioral and 
        educational sciences has also provided the knowledge, tools, 
        techniques, and trained scientists that are needed if we are to 
        be prepared to understand, prevent, mitigate, and intervene 
        where required in events related to such national 
        crises.Lessons learned from previous research and development 
        efforts are diverse and numerous. For example, research on the 
        mental health consequences of disasters, including terrorist 
        acts such as the Oklahoma City bombing, has produced a better 
        understanding of the course of disruptive and disabling 
        symptoms of distress, who is at risk of developing a serious 
        mental illness, and helpful interventions to reduce trauma-
        related distress including depression and anxiety disorders. 
        Basic economic research on how markets work was used by 
        government economic advisors to devise policies that would 
        provide the right incentives and not interfere with transitions 
        in industries most affected by the changed security situation 
        after 9/11.''

    Other important work related to the behavioral sciences and 
security included work by the Intelligence Science Board on the art and 
science of interrogation, described in the volume Educing Information 
(2006). Rapid developments in cognitive neuroimaging technologies (PET, 
fMRI, MEG, NIRS, EEG, etc.) and their possibility use in the detection 
of deception, attitude, and affect, have led to the beginnings of a 
cottage industry in what some have called ``brain reading'' or ``brain 
fingerprinting.'' In his 2006 book, Mind Wars: Brain Research and 
National Defense, Jonathan Moreno, discusses current concerns related 
to such developments.
    ``It's especially hard to assess the plausibility that something 
such as mind reading or mind control is feasible through the kinds of 
devices I've described . . . Many of the technologies do seem hyped; 
just because national security agencies are spending money on them 
doesn't mean they are a sure thing . . . With brain theory as 
inconclusive as it is, there are bound to be conflicting claims among 
neuroscientists about what's technically possible and what isn't. Since 
neuroscience hasn't come close to finding the boundaries of its 
possibilities yet, that uncertainty is likely to persist for a long 
time.'' (112-113)
    Things change rapidly in science and technology, however as 
recently as this month one of our leading cognitive neuroscientists, 
Michael Gazzaniga, while enthusiastic about the potential of work in 
the area, struck a note of caution in an article in Scientific American 
(April 2011) called ``Neuroscience in the Courtroom.'' Speaking from a 
legal perspective related to the admissibility of juvenile brain scans 
as evidence, he said, ``In spite of the many insights pouring forth 
from neuroscience, recent findings from research into the juvenile mind 
highlight the need to be cautious when incorporating such science into 
the law.'' . . . ``Exciting as the advances that neuroscience is making 
everyday are, all of us should look with caution at how they may 
gradually become incorporated into our culture. The legal relevance of 
neuroscientific discoveries is only part of the picture.''
    The National Academies, comprised of the National Academy of 
Sciences, the National Academy of Engineering, the Institute of 
Medicine, and their operating arm, the National Research Council, 
provide independent, objective advice on issues that affect all of our 
citizens' lives. Often this advice takes that form of published 
documents known as consensus reports. A number of these are of 
particular relevance to today's hearing, and I will list or summarize 
the most important ones. Most of these were produced under the 
supervision of the Division of Behavioral and Social Sciences and 
Education (DBASSE) of the NRC and the Board on Behavioral, Cognitive, 
and Sensory Sciences (BBCSS) that I chair. Since its founding in 1997, 
BBCSS has developed and managed many major studies conducted by expert 
panels, involving hundreds of volunteers including scientists, 
policymakers, government employees, and public citizens. The goal has 
been to create a sustainable infrastructure for ongoing review of 
fundamental and translational research, to inform policy on issues of 
national priority, and to facilitate interactions among scholars and 
policymakers. Meetings and activities of BBCSS have been sponsored, in 
part, by: the National Science Foundation, Directorate for Social, 
Behavioral and Economic Sciences; the National Institutes of Health, 
including the National Institute on Aging, Division of Behavioral and 
Social Research, the National Cancer Institute; and the Office of 
Behavioral and Social Science Research (OBSSR); the American 
Psychological Association; the Office of the Director of National 
Intelligence (ODNI); the Defense Intelligence Agency (DIA); and the U. 
S. Secret Service. For today's purposes, the most relevant reports 
include:

        <bullet>  The Polygraph and Lie Detection. (2003)
        <bullet>  Human Behavior in Military Contexts. (2008)
        <bullet>  Behavioral Modeling and Simulation: From Individuals 
        to Societies. (2008)
        <bullet>  Emerging Cognitive Neuroscience and Related 
        Technologies. (2008)
        <bullet>  Protecting Individual Privacy in the Struggle Against 
        Terrorists. (2008)
        <bullet>  Field Evaluation in the Intelligence and 
        Counterintelligence Context. (2010)
        <bullet>  Intelligence Analysis: Behavioral and Social 
        Scientific Foundations. (2011)
        <bullet>  Intelligence Analysis for Tomorrow: Advances from the 
        Behavioral and Social Sciences. (2011)
        <bullet>  Threatening Communications and Behavior: Perspectives 
        on the Pursuit of Public Figures. (2011)

    Time and space prevent a detailed description of these important 
documents. Instead I will focus on the Field Evaluation and Threatening 
Communications reports.
Field Evaluation
    On September 22-23, 2009, the Board on Behavioral, Cognitive, and 
Sensory Sciences of the NRC held a workshop on the field evaluation of 
behavioral and cognitive sciences-based methods and tools for use in 
the areas of intelligence and counterintelligence. The workshop was 
organized by the Planning Committee on Field Evaluation of Behavioral 
and Cognitive Sciences-Based Methods and Tools for Intelligence and 
Counterintelligence that I chaired. Its purpose was to discuss the best 
ways to apply methods and tools from the behavioral sciences to work in 
intelligence operations. The workshop focused on the issue of field 
evaluation-the testing of these methods and tools in the context in 
which they will be used in order to determine if they are effective in 
real-world settings. The workshop was sponsored by the DIA and the ODNI 
and had considerable support from Susan Brandon, then chief for 
research, Behavioral Science Program DEO- Defense CI and HUMINT Center 
DIA, and Steven Rieber, then research director, Office of Analytic 
Integrity and Standards, ODNI.
    In 2010, the NRC published a Workshop Summary called Field 
Evaluation in the Intelligence and Counterintelligence Context. This 
short report summarized the meeting and highlighted key issues. 
Following [single-spaced sections] are extracts/adaptations of the 
Field Evaluation Workshop Summary, edited for continuity [attribution 
quotes omitted], that detail some of these issues and illustrate 
weaknesses in our current approaches, while also considering future 
opportunities.

          In one of the workshop presentations, David Mandel, a senior 
        defense scientist atDefence Research and Development Canada 
        (DRDC), discussed the ways in which the behavioral sciences can 
        benefit intelligence analysis and why it is important for the 
        intelligence community to build a partnership with the 
        behavioral sciences community.The intelligence community has 
        long relied on science and technology for insights and 
        techniques, Mandel noted, so one might wonder why it is 
        necessary to talk about the importance of strengthening the 
        relationship between the intelligence community and the broad 
        community of behavioral scientists. One important reason, he 
        said, is that there area number of factors that tend to weaken 
        the relationship between the two communities and make analysts 
        less likely to take advantage of what the behavioral sciences 
        can offer. First, Mandel said, there is a natural inclination 
        among most people- including those in the intelligence 
        community-to react poorly to ``scholarly verdicts that deal 
        with issues such as the quality of their judgment and decision 
        making, their susceptibility to irrational biases, their use of 
        sub optimal heuristics, and over reliance on non-diagnostic 
        information.'' Like most people, experts have the sense that 
        they are competent. Psychological research shows that most 
        people believe themselves to be better than average at what 
        they do. Thus, Mandel said, experts are prone to challenge 
        conclusions offered by behavioral scientists with their own 
        knowledge gained from personal experience and, furthermore, to 
        believe that such a challenge is completely legitimate.This is 
        a fundamental problem that behavioral scientists face in making 
        contributions to any practitioner community, Mandel said, 
        ``Their research is very easily disregarded on the basis of 
        intuition and common sense. A second reason that analysts tend 
        to disregard lessons from behavioral science is that it is seen 
        as being ``soft'' science. Thus its knowledge is considered to 
        be less objective or trustworthy than knowledge generated by 
        the ``hard'' sciences and technology, such as satellite imaging 
        or electronic eavesdropping. Although that attitude is common 
        in the intelligence community, Mandel cautioned, it is 
        misguided and underestimates both the value and the analytical 
        power of behavioral science. ``When someone uses the term `soft 
        science,' I correct them. I say` probabilistic science' and 
        [note that] we deal with some very difficult problems.'' 
        Third,Mandel said, the relationship between the intelligence 
        community and the behavioral science community is still 
        relatively new, so analysts do not necessarily understand what 
        behavioral science has to offer. Thus, he noted, forums like 
        this workshop are important for exploring ways in which the 
        partnership between the two communities can be developed.

          It is telling, Mandel noted, that no one else has come along 
        since Heuer to continue his work of translating cognitive 
        psychology and other areas of behavioral science into tools for 
        analysis. In cognitive psychology alone there is at least a 
        quarter century of new research since Heuer published 
        Psychology of Intelligence Analysis that is waiting to be 
        exploited by the intelligence community. Another way in which 
        establishing a connection with the research community can help 
        the intelligence community is with validation, Mandel said. 
        Once knowledge and insights from behavioral science are used to 
        develop new tools for the intelligence community, it is still 
        necessary to validate them. Simply basing recommendations on 
        scientific research is not the same thing as showing 
        scientifically that those recommendations are effective or 
        testing to see if they could be substantially improved. Even 
        Heuer was unable to do much to validate his recommendations, 
        Mandel noted, and, more generally, this is not something that 
        the intelligence community is particularly well equipped to do. 
        It is, however, exactly what research scientists are trained to 
        do. Science offers a method for testing which ideas lead to 
        good results and which do not. Thus, partnering with the 
        behavioral science community can help the intelligence 
        community zero in on the techniques that work be stand avoid 
        those that work poorly or not at all.

          In theory, Mandel said, it would be possible for the 
        intelligence community to build its own applied behavioral 
        research capability, but that would draw significant resources 
        away from other operational areas and add an entirely new focus 
        and purpose to the intelligence community's existing tasks. 
        Furthermore, if the intelligence community were to hire 
        behavioral scientists, it would find itself in competition with 
        both academia, with its unparalleled freedoms, and industry, 
        with its lucrative salaries. It makes more sense,Mandel 
        suggested, for the intelligence community to develop 
        partnerships with universities and other institutions that 
        already have the expertise and capability to perform behavioral 
        science research. A final advantage of partnering with the 
        existing behavioral science community, Mandel said, is the 
        ``multiplier effect.'' By working with scientists in academia, 
        for example, the intelligence community is not only drawing on 
        the knowledge of those subject-matter experts but on all of 
        their contacts. ``As a researcher in a research and development 
        organization and government,'' Mandel said, ``I am very keen on 
        partnering with academics because I understand that they have 
        the ability to reach back into other areas of academia and 
        connect me with other experts who could be of use.'' There is a 
        tremendous amount of such leverage that can be achieved by 
        building relationships rather than trying to do everything in-
        house.

          In what ways might particular tools and techniques from the 
        behavioral sciences assist the intelligence and 
        counterintelligence community? A variety of devices and 
        approaches derived from the behavioral sciences have been 
        suggested for use or have already been used by the intelligence 
        community. Several of these were described, with a particular 
        emphasis on how the techniques have been evaluated in the 
        field. As Robert Fein put it, ``Our spirit here is to move 
        forward, to figure out what kinds of new ideas, approaches, old 
        ideas might be useful to defense and intelligence communities 
        as they seek to fulfill what are often very difficult and 
        sometimes awesome responsibilities.'' To that end the speakers 
        provided case studies of various technologies with potential 
        application to the intelligence field. One common thread among 
        all of these disparate techniques, a point made throughout the 
        workshop, is that none of them has been subjected to a careful 
        field evaluation.

          Deception Detection

          People in the military, in law enforcement, and in the 
        intelligence community regularly deal with people who deceive 
        them. These people may be working for or sympathize with an 
        adversary, they may have done something they are trying to 
        hide, or they may simply have their own personal reasons for 
        not telling the truth. But no matter the reasons, an important 
        task for anyone gathering information in these arenas is to be 
        able to detect deception. In Iraq or Afghanistan, for example, 
        soldiers on the front line often must decide whether a 
        particular local person is telling the truth about a cache of 
        explosives or an impending attack. And since research has shown 
        that most individuals detect deception at a rate that is little 
        better than random chance, it would be useful to have a way to 
        improve the odds. Because of this need, a number of devices and 
        methods have been developed that purport to detect deception. 
        Two in particular were described at the workshop: voice stress 
        technologies and the Preliminary Credibility 
        AssessmentScreening System (PCASS).

          Voice Stress Technologies

          Of the various devices that have been developed to help 
        detect lies and deception, a great many fall in the category of 
        voice stress technologies. I offered a brief overview of these 
        technologies and of how well they have performed on objective 
        tests. The basic idea behind all of these technologies is that 
        a person who answers a question deceptively will feel a 
        heightened degree of stress, and that stress will cause a 
        change in voice characteristics that can be detected by a 
        careful analysis of the voice. The change in the voice may not 
        be audible to the human ear, but the claim is that it can be 
        ascertained accurately and reliably by using signal-processing 
        techniques. More specifically, many of the voice stress 
        technologies are based on the assumption that micro tremors-
        vibrations of such a low frequency that they cannot be detected 
        by the human ear-are normally present in human speech but that 
        when a person is stressed, the micro tremors are suppressed. 
        Thus by monitoring the micro tremors and noting when they 
        disappear, it should be possible to determine when a person is 
        speaking under stress-and presumably lying or otherwise trying 
        to deceive.

          Over the years, these technologies have been tested by 
        various researchers in various ways. A review of these studies 
        that was carried out by Sujeeta Bhatt and Susan Brandon of the 
        Defense Intelligence Agency (Bhatt and Brandon, 2009). After 
        examining two dozen studies conducted over 30 years, the 
        researchers concluded that the various voice stress 
        technologies were performing, in general, at a level no better 
        than chance-a person flipping a coin would be equally good at 
        detecting deception. In short, there was no evidence for the 
        validity or the reliability of voice stress analysis for the 
        detection of deception in individuals. Furthermore not only is 
        there no evidence that voice stress technologies are effective 
        in detecting stress, but also the hypothesis underlying their 
        use has been shown to be false. If indeed there are micro 
        tremors in the voice, then they must result from tremors in 
        some part of the vocal tract-the larynx, perhaps, or the supra 
        laryngeal vocal tract, which is everything above the larynx, 
        including the oral and nasal cavities. Using a technique called 
        electromyography to measure the electrical signals of muscle 
        activities, physiologists have found that there are indeed 
        micro tremors of the correct frequency-about 8 to 12 hertz-in 
        some muscles, including those of the arm. So it would seem 
        reasonable to think that there might also be such micro tremors 
        in the vocal tract, which would produce micro tremors in the 
        voice. However, research has found no such micro tremors, 
        either in the muscles of the vocal tract or in the voice 
        itself. So the basic idea underlying voice stress technologies-
        that stress causes the normal micro tremors in the voice to be 
        suppressed-is not supported by the evidence.

          The claim is not that voice stress technologies do not work, 
        only that there has been extensive testing with very little 
        evidence that such technologies do work. It is possible that 
        some of the technologies do work under certain conditions and 
        in certain circumstances, but if that is so, more careful 
        testing will be needed to determine what those conditions and 
        circumstances are. And only when such testing has been carried 
        out and the appropriate conditions and circumstances identified 
        will it make sense to carryout field evaluations of such 
        technologies. At this point, voice stress technologies are not 
        ready for field evaluation. For the most part the intelligence 
        community has now stayed away from voice stress technologies 
        mainly because of the absence of any evidence supporting their 
        accuracy. But the law enforcement community has taken a 
        difference approach. Despite the lack of evidence that the 
        various voice stress technologies work, and despite the absence 
        of any field evaluations of them, the technologies have been 
        put to work by a number of law enforcement agencies around the 
        country and around the world. It is not difficult to understand 
        the reasons. The devices are inexpensive. They are small and do 
        not require that sensors be attached to the person being 
        questioned; indeed, they can even be used in recorded sessions. 
        And they require much less training to operate than a 
        polygraph. Many people in law enforcement believe that the 
        voice stress technologies do work; even among those who are 
        convinced that the results of the technologies are unreliable, 
        many still believe that the devices can be useful in 
        interrogations. They contend that simply questioning a person 
        with such a device present can, if the person believes that it 
        can tell the difference between the truth and a lie, induce 
        that person to tell the truth.

          Preliminary Credibility Assessment Screening System

          With the reliability of voice stress technologies called into 
        question, the intelligence community needed another way to 
        screen for deception. Donald Krapohl, special assistant to the 
        director of the Defense Academy for Credibility Assessment 
        (DACA), described to the how, several years ago, the Pentagon 
        asked DACA for a summary of the research on voice stress 
        technologies. DACA, which is part of the Defense Intelligence 
        Agency in the Department of Defense, provided a review of what 
        was known about voice stress analysis, and, as Krapohl put it, 
        ``it was rather scary to them, and they decided to pull those 
        technologies back.''

          The need for deception detection remained, however, and 
        DACA's headquarters organization, the Counterintelligence Field 
        Activity (CIFA) (CIFA was shut down in 2008 and its 
        responsibilities were taken over by a new agency, the 
        DefenseCounterintelligence and Human Intelligence Center), was 
        given the job of finding a new technology that would do the 
        same job that voice stress technologies were supposed to 
        perform, but with significantly more accuracy. There were a 
        number of requirements in order for a device to be effective in 
        the field: it had to have low training requirements, as it 
        would be used by soldiers on the front line rather than 
        interrogation specialists; ideally it would require no more 
        than a week of training. It needed to be highly portable and 
        easy to use for the average soldier. It needed to be rugged, as 
        inevitably it would be dropped, get wet, and get dirty.

          And it had to be a deception test, not a recognition test. 
        That is, instead of recognizing when someone knows something 
        that they are trying to hide-the so-called guilty knowledge 
        test-it should be able to detect when someone was giving a 
        deceptive answer to a direct question. There is a great deal of 
        research concerning the guilty knowledge test, Krapohl 
        explained, but the test is not particularly useful in the field 
        because the interviewers must know something about the ``ground 
        truth.'' Deception tests, by contrast, are not as well 
        understood by the scientific community, but they are far more 
        useful in the field, where interviewers may not know the ground 
        truth.

          The final requirement for the device was that it needed to be 
        relatively accurate as an initial screening tool. It was never 
        intended to provide a final answer of whether someone was 
        telling the truth. Its purpose instead was to provide a sort of 
        triage: when soldiers in the field question someone who claims 
        to have some information, they need to weed out those who are 
        lying. The ones who are not weeded out at this initial stage 
        would be questioned further and in more detail. There are 
        polygraph examiners who can perform extensive examinations, 
        Krapohl explained, but their numbers are limited. ``So if you 
        could use a screening tool up front to decide who gets the 
        interview, who gets the interrogation, who gets the polygraph 
        examination, the commanders thought that would be very 
        useful,'' he said. ``It was not designed to be a standalone 
        tool. It was designed only as an initial assessment.''

          One of the key facts about PCASS is that it was designed 
        specifically to detect deception, which made it possible, 
        Krapohl said, to create an algorithm that considers all of the 
        response data and provides a straightforward answer to the 
        question of whether a person is being deceptive: yes, no, or 
        maybe. It does not provide nearly as much information as a 
        polygraph can, but that is not its purpose. The main use for 
        PCASS is on the front lines where soldiers need help in 
        determining who seems trustworthy and who seems to have 
        something to hide. But the technique is not assumed to give a 
        definite answer, only a conditional one. Because PCASS is used 
        on the front lines, it has never been field tested. Still, it 
        has proved its value in various ways, he said. In a recent 
        operation in Iraq, for example, it allowed U.S. forces to 
        identify a number of individuals who were working for foreign 
        intelligence services and others who were working for violent 
        extremist organizations.

          Still, Krapohl said, there is more work to be done. The group 
        at DACA thinks, for example, that by taking advantage of some 
        of the state-of-the-art technologies for deception detection, 
        it should be possible to develop more accurate versions of 
        PCASS. In particular, by using the so-called directed lie 
        approach-in which those being questioned are instructed to 
        provide false answers to certain comparison questions-it should 
        be possible to get greater standardization and less 
        intrusiveness, he said. Still, the issue of field evaluation 
        remains, Krapohl said. Although the technique has been tested 
        in the laboratory, there are no data on its performance in the 
        field. ``Doing validation studies of the credibility assessment 
        technology in a war zone has a number of problems that we have 
        not been able to figure out,'' he said. Nonetheless, DACA 
        researchers would like to come up with ideas for how PCASS and 
        other credibility assessment technologies might be evaluated in 
        the field.

          In later discussions at the workshop, it became clear that a 
        number of participants had serious doubts about the 
        effectiveness of PCASS in the field, despite the fact that it 
        is in widespread use and popular among at least some of the 
        troops in the field. ``Everybody in this room knows that there 
        are real limitations to it,'' Fein said. ``I think we can do 
        better than put something out there that has such 
        limitations.'' And Brandon commented that ``if we were doing 
        really good field validation with the PCASS'' then it might 
        well become obvious that other, less expensive methods could do 
        at least as good a job as PCASS at detecting deception. There 
        are a number of important questions concerning the validity and 
        reliability of PCASS that can be addressed only by field 
        evaluation, and until such validation is done, the troops in 
        the field are relying on what is essentially an unproved 
        technology.

          Obstacles To Field Evaluation

          A number of the workshop presenters and participants spoke 
        about various obstacles to field evaluation inside the 
        intelligence community- obstacles they believe must be overcome 
        if field evaluation of techniques and devices derived from the 
        behavioral sciences is to become more common and accepted.

          Lack of Appreciation of the Value of Field Evaluations

          Perhaps the most basic obstacle is simply a lack of 
        appreciation among many of those in the intelligence community 
        for the value of objective field evaluations and how inaccurate 
        informal ``lessons learned'' approaches to field evaluation can 
        be. Paul Lehner of the MITRE Corporation made this point, for 
        instance, when he noted that after the9/11 attacks on the World 
        Trade Center there was a great sense of urgency to develop new 
        and better ways to gather and analyze intelligence information-
        but there was no corresponding urgency to evaluate the various 
        approaches to determine what really works and what doesn't.

          David Mandel commented that this is simply not a way of 
        thinking that the intelligence community is familiar with. 
        People in the intelligence and defense communities are 
        accustomed to investing in devices, like a voice stress 
        analyzer, or other techniques, but the idea of field evaluation 
        as a deliverable is foreign to most of them. Mandel described 
        conversations he had with a military research board in which he 
        explained the idea of doing research on methods in order to 
        determine their effectiveness.''The ideas had never been 
        presented to the board,'' he said. ``They use [various 
        techniques], but they had never heard of such a thing as 
        research on the effectiveness of [them].'' The money was there, 
        however, and once the leaders of the organization understood 
        the value of the sort of research that Mandel does, he was 
        given ample funding to pursue his studies.

          One of the audience members, Hal Arkes of Ohio State 
        University, made a similar point when he said that the lack of 
        a scientific background among many of the staff of executive 
        agencies is a serious problem. ``If we have recommendations 
        that we think are scientifically valid or if there are tests 
        done that show method A is better than method B, a big 
        communication need is still at hand,'' he said. ``We have to 
        convince the people who make the decisions that the 
        recommendations that we make are scientific and therefore are 
        based on things that are better than their intuition, or better 
        than the anecdote that they heard last Thursday evening over a 
        cocktail.''

          A Sense of Urgency to Use Applications and Institutional 
        Biases

          A number of people throughout the meeting spoke about the 
        pressures to use new devices and techniques once they become 
        available because lives are at stake. For example, Anthony 
        Veney, chief of counterintelligence investigation and 
        functional services at U.S. Central Command, spoke passionately 
        about the people on the front lines in Iraq and Afghanistan who 
        need help now to prevent the violence and killings that are 
        going on. But, as other speakers noted, this sense of urgency 
        can lead to pressure to use available tools before they are 
        evaluated-and even to ignoring the results of evaluations if 
        they disagree with the users' conviction that the tools are 
        useful.

          Robert Fein described a relevant experience with polygraphs. 
        The NRC had completed its study on polygraphs, which basically 
        concluded that the machines have very limited usefulness for 
        personnel security evaluations, and the findings were being 
        presented in a briefing (National Research Council, 2003). It 
        was obvious, Fein said, that a number of the audience members 
        were becoming increasingly upset. ``Finally, one gentleman 
        raised his hand in some degree of agitation, got up and said, 
        `Listen, the research suggests that psychological tests don't 
        work, the research suggests that background investigations 
        don't work, the research suggests interviews don't work. If you 
        take the polygraph away, we've got nothing.'' A year and a half 
        later, Fein said, he attended a meeting of persons and 
        organizations concerned with credibility assessment, at which 
        one security agency after another described how they were still 
        using polygraph testing for personnel security evaluations as 
        often as ever. It seemed likely, Fein concluded, that the 
        meticulously performed study by the NRC had had essentially no 
        effect on how often polygraphs were used for personnel 
        security.

          The reason, suggested Susan Brandon, is that people want to 
        have some method or device that they can use, and they are not 
        likely to be willing to give up a tool that they perceive as 
        useful and that is already in hand if there is nothing to 
        replace it. This was probably the case, she said, when the U.S. 
        Department of Defense decided to stop using voice stress 
        analysis-based technologies because the data showed that they 
        were ineffective. The user community had thought they were 
        useful, and when they were taken away, a vacuum was left. The 
        users of these technologies then looked around for replacement 
        tools. The problem, Brandon said, is that the things that get 
        sucked into this vacuum may be worse than what they were 
        replacing. So those doing field evaluations must think 
        carefully about what options they can offer the user community 
        to replace a tool that is found ineffective.

          I offered a similar thought. The people in the field often do 
        not want to wait for further research and evaluation once a 
        technology is available and there are those out there that will 
        exploit some of these gray areas and faults and will try to 
        sell snake oil to us. The question is, How to push back? How to 
        prevent the use of technology that has not been validated, 
        given the sense of urgency in the intelligence field? And how 
        does one get people in the field to understand the importance 
        of validation in the first place? These are major concerns. 
        Some of the most intractable obstacles to performing field 
        evaluations of intelligence methods are institutional biases. 
        Because these can arise even when everyone is trying to do the 
        right thing, such biases can be particularly difficult to 
        overcome.

Threatening Communications
    In March 2011, the NRC released a small collection of papers on the 
subject of threatening communications and behavior. In my introduction 
(along with Barbara A. Wanchisen) to the volume, we say:

          ``Today's world of rapid social, technological, and 
        behavioral change provides new opportunities for communications 
        with few limitations of time or space. The ease by which 
        communications can be made with-out personal proximity has 
        dramatically affected the volume, types, and topics of 
        communications between individuals and groups. Through these 
        communications, people leave behind an ever-growing collection 
        of traces of their daily activities, including digital 
        footprints provided by text, voice, and other modes of 
        communication. Many personal communications now take place in 
        public forums, and social groups form between individuals who 
        previously might have acted in isolation. Ideas are shared and 
        behaviors encouraged, including threatening or violent ideas 
        and behaviors. Meanwhile, new techniques for aggregating and 
        evaluating diverse and multimodal information sources are 
        available to security services that must reliably identify 
        communications indicating a high likelihood of future 
        violence.''

    The papers reviewed the behavioral and social sciences research on 
the likelihood that someone who engages in abnormal and/or threatening 
communications would actually then try to do harm. They focused on 
``how scientific knowledge can inform and advance future research on 
threat assessments, in part by considering the approaches and 
techniques used to analyze communications and behavior in the dynamic 
context of today's world. Authors were asked to present and assess 
scientific research on the correlation between communication-relevant 
factors and the likelihood that an individual who poses a threat will 
act on it. The authors were encouraged to consider not only 
communications containing direct threats, but also odd and 
inappropriate communications that could display evidence of fixation, 
obsession, grandiosity, entitled reciprocity, and mental illness.''
    ``The papers in this collection were written within the context of 
protecting high-profile public figures from potential attack or harm. 
The research, however, is broadly applicable to U.S. national security 
including potential applications for analysis of communications from 
leaders of hostile nations and public threats from terrorist groups. 
This work high-lights the complex psychology of threatening 
communications and behavior, and it offers knowledge and perspectives 
from multiple domains that can contribute to a deeper understanding of 
the value of communications in predicting and preventing violent 
behaviors.''
    This volume focused on communication, forensic psychology, and the 
analysis of language-based datasets (corpora) to help identify and 
understand threatening communications and responses to them through 
text analysis. It serves as an example of the kind of synthesis of 
current knowledge that is useful for generating ideas for potential new 
research directions. (Chung & Pennebaker, 2011; Meloy, 2011; O'Hair, et 
al, 2011).

TSA's SPOT program
    The United States Government Accountability Office's (GAO) May 2010 
report, ``Aviation Security: Efforts to Validate TSA's Passenger 
Screening Behavior Detection Program Underway, but Opportunities Exist 
to Strengthen Validation and Address Operational Challenges,'' 
questioned whether there was a scientifically valid basis for using 
behavior and appearance indicators as a means for reliably identifying 
passengers who may pose a risk to the U.S. aviation system. The report 
said that, ``According to TSA, SPOT was deployed before a scientific 
validation of the program was completed in response to the need to 
address potential threats, but was based upon scientific research 
available at the time regarding human behaviors. TSA officials also 
stated that no other large-scale U.S. or international screening 
program incorporating behavior-and appearance-based indicators has ever 
been rigorously scientifically validated.'' The GAO report also 
mentioned a separate report by the JASON group (``The Quest for Truth: 
Deception and Intent Deception'') that had significant concerns about 
the SPOT program.
    The GAO pointed out that a 2008 NRC report indicated that 
information-based programs, such as behavior detection programs, should 
first determine if a scientific foundation exists and use 
scientifically valid criteria to evaluate its effectiveness before 
going forward. ``The report added that programs should have a sound 
experimental basis and that the documentation on the program's 
effectiveness should be reviewed by an independent entity capable of 
evaluating the supporting scientific evidence. Thus, and as recommended 
in GAO's May 2010 report, an independent panel of experts could help 
DHS develop a comprehensive methodology to determine if the SPOT 
program is based on valid scientific principles that can be effectively 
applied in an airport environment for counterterrorism purposes. 
Specifically, GAO's May 2010 report recommended that the Secretary of 
Homeland Security convene an independent panel of experts to review the 
methodology of a validation study on the SPOT program being conducted 
by DHS's Science and Technology Directorate to determine whether the 
study's methodology is sufficiently comprehensive to validate the SPOT 
program. GAO recommended that this assessment include appropriate input 
from other federal agencies with expertise in behavior detection and 
relevant subject matter experts. DHS concurred and stated that its 
current validation study includes an independent review of the program 
that will include input from other federal agencies and relevant 
experts.'' According to DHS, this independent review is expected to be 
completed soon.
    As indicated above, I am a member of the Technical Advisory 
Committee (TAC) for SPOT. As the GAO report indicates, TAC's role is 
extremely limited, focusing in the main on determining whether or not 
the research program successfully accomplished the goal of evaluating 
whether SPOT can identify ``high-risk travelers'' (i.e., individuals 
who are knowingly and intentionally attempting to defeat the airport 
security process). TAC has not been asked to evaluate the overall SPOT 
program, the validity of indicators used in the program, consistency 
across measurement, field conditions, training issues, scientific 
foundations of the program and/or behavioral detection methodologies, 
etc. In order to appropriately scientifically evaluate a program like 
SPOT, all of these and more would be needed.

How to Move Forward: Some Recommendations
        <bullet>  Create a reliable research base of studies examining 
        many of the issues related to security and the detection of 
        deception. Peer review, where and when possible, is 
        particularly important. Shining a light on the process by 
        making information on methodologies and results as open as 
        possible (such as with devices like the polygraph, PCASS, 
        voice-stress analysis, and neuroimaging) is necessary for 
        determining if these technologies and devices are performing in 
        a known and reliable manner. Clearly establishing the 
        scientific validity of underlying premises, foundations, 
        primitives, is essential. The larger the base of comparable 
        scientific studies, the easier it is to establish the validity 
        of techniques and approaches. A good example of this is the 
        Bhatt and Brandon (2009) meta-analysis of the outcomes of 
        studies in the literature related to voice stress analysis 
        technologies. Similarly, the NRC Threatening Communications 
        paper collection (2011) is an initial small step at 
        establishing a body of literature on scientific approaches to 
        understanding threatening communications and behavior.

        <bullet>  Develop model systems, simulations, etc. The use of 
        model organisms in biology, such as Drosophila (a small fly) 
        for helping to understand genetics and development, and Aplysia 
        (the sea slug), for understanding neurons and memory, has 
        spurred considerable scientific progress in these areas. 
        Different kinds of model systems are needed for understanding 
        behavior at the level of issues such as deception. Here we 
        should look to the law enforcement community, the criminal 
        justice system, and possibly border security, for models, 
        approaches, analogies, data, and scientific guidance. Examples 
        of advances related to the complexity of behavior include well-
        known work on eyewitness identification (Loftus, 1996; Wells & 
        Quinlivan, 2009).

        <bullet>  Incorporate knowledge on the complexity, subtleties 
        and idiosyncracies of human behavior. Progress has been made on 
        understanding how cognitive influences (Heuer, 1996; Pohl, 
        2004), psychological biases, and language use affect judgment, 
        decision making, and risk assessment (Kahneman & Tversky, 1972; 
        Thompson, 1999; Barrett, 2007). Also consider cultural and 
        social contexts (Nisbett, 2003; Gordon, et al., in press).

        <bullet>  Understand the interplay and differences between 
        affect, emotion, stress, and other factors. We have a tendency 
        to oversimplify, categorize, and label complex behavior. The 
        issues related to such matters can be seen in the contentious 
        scientific debates on emotion and deception, discussed by other 
        participants in today's hearing and summarized in part in a 
        Nature article by Sharon Weinberger (2010). (See, also: 
        Aviezer, et al., 2008; Barrett, 2006; Barrett, et al., 2007; 
        Ekman, 1972; Ekman & Friesen, 1978; Ekman & O'Sullivan, 1991; 
        Ekman, et al., 1999; Ekman, 2009; Hartwig, et al., 2006; 
        Russell, et al., 2003; Widen, et al., in press.)

        <bullet>  Make sure that we are not distracted or misled by the 
        tools and toys that fascinate us. While technological 
        developments often hold considerable promise, they can be 
        seductive and sometimes even can be counterproductive. The 
        desire for automaticity and scale, coupled with urgent 
        exigencies, should not reduce our need to attend to human 
        aspects of the process and to the importance of devoting 
        sufficient time to adequately understand behavior and manage 
        interpersonal interactions.

        <bullet>  Pay serious attention to the ethical issues and 
        regulations related to human subjects research, including 45 
        CFR 46 (``The Common Rule''), where applicable. Emerging areas 
        include neuroethics (Farah, 2010) and autonomous agents 
        (Wallach and Allen, 2010).

        <bullet>  Reduce conflicts of interest to the extent possible, 
        particularly financial conflict of interest. The opportunity to 
        profit from new and emerging technologies that have not been 
        carefully and clearly scientifically validated and/or field 
        evaluated, if necessary and possible, potentially puts our 
        citizens, soldiers, and intelligence community at risk and 
        could undermine our national security. We should have a clear 
        understanding of both the strengths and weaknesses of tools, 
        techniques, and technologies that are either being deployed or 
        considered for future use.

        <bullet>  Develop an understanding of how urgency, 
        organizational structure, and institutional barriers can shape 
        program development and assessment. A detailed discussion of 
        these issues is provided in the NRC Field Evaluation Workshop 
        Summary (2010), summarized above in the Field Evaluation 
        section. We should also strive to avoid the tendency to view 
        results of the latest study as instantly confirming or 
        falsifying controversial, new, or untested technologies (Mayew 
        & Venkatachalam, in press). Consistency across multiple studies 
        is essential.

        <bullet>  Support the importance of and need for independent 
        evaluation of new and controversial projects and issues with 
        appropriate scientific, technical, statistical, and 
        methodological expertise. The NRC Polygraph and Lie Detection 
        report (2003) provides a good case study for the importance of 
        this point and the preceding bullet. Other examples of such 
        independent evaluations include many of the NRC reports listed 
        in the References section, below. Another possible example is 
        the JASON report on the SPOT program. Such reports should be 
        seen as part of an iterative process that requires periodic 
        modification and updating.

    In our desire to protect our citizens from those who intend to harm 
us, we must make sure that our own behavior is not unnecessarily shaped 
by things like fear, urgency, institutional incentives or pressures, 
financial considerations, career and personal goals, the selling of 
snake oil, etc., that lead to the adoption of approaches that have not 
been sufficiently and appropriately scientifically vetted. To do so 
might ultimately end up being costly and counterproductive. We must not 
be distracted from the need for careful, well-considered, and well-
established approaches for evaluating programs and technologies. We 
must be careful and thoughtful before investing in speculative or 
premature technologies that may be used out of desperation or because 
of potential commercial benefit. Where and when new technologies appear 
to be promising, we should obtain truly independent scientific 
expertise and assistance to provide context and guidance for the 
development possibilities and, if needed, for the consideration of 
appropriate metrics and methodologies for assessment and use. We should 
also keep in mind human costs and unintended consequences. As we all 
know, freedom and privacy must be considered in the context of safety 
and security. These values and goals are not incompatible. Sacrificing 
freedom and privacy to purchase illusory safety and security benefits 
only those who hope to harm us.
    Chairman Broun, Ranking Member Edwards, and members of the 
Committee, I appreciate the opportunity to testify today. I would be 
happy to answer any questions that you might have about my testimony or 
related issues. Thank you.

REFERENCES

          Aviezer, Hillel, Hassin, Ran R., Ryan, Jennifer, Grady, 
        Cheryl, Susskind, Josh, Anderson, Adam, Moscovitch, Morris, and 
        Bentin, Shlomo. (2008). Angry, disgusted or afraid? Studies on 
        the malleability of emotion perception. Psychological Science, 
        Vol. 19, No. 7, 724-732.

          Barrett, Lisa Feldman. (2006). Are emotions natural kinds? 
        Perspectives on Psychological Science, Vol. 1, #1, 28-58.

          Barrett, Lisa Feldman, Lindquist, Kristen A., and Gendron, 
        Maria. (2007). Language as context for the perception of 
        emotion. TRENDS in Cognitive Sciences, Vol. 11, No. 8, 327-332.

          Bhatt, S., and Brandon, S. E (2009). Review of voice stress-
        based technologies for the detection of deception. Unpublished 
        manuscript, Washington, DC.

          Chung, Cindy K. and Pennebaker, James W. (2011). Using 
        computerized textanalysis to assess threatening communications 
        and behavior. In National Research Council, Threatening 
        Communications and Behavior: Perspectives on the Pursuit of 
        Public Figures. National Academies Press, Washington, DC, 3-32.

          Damphouse, Kelly R. (2011). Voice Stress Analysis: Only 15 
        percent of lies about drug use detected in field test. National 
        Institutes of Justice (NIJ) Journal, 259, 8*12.

          Ekman, Paul. (1972). Universals and Cultural Differences in 
        Facial Expressions of Emotions. In J. Cole (ed.), Nebraska 
        Symposium on Motivation, 1971, University of Nebraska Press, 
        Lincoln, Nebraska, 1972, 207-283.

          Ekman, P. and Friesen, W. (1978). Facial Action Coding 
        System: A Technique for the Measurement of Facial Movement. 
        Consulting Psychologists Press, Palo Alto.

          Ekman, Paul. (2009). Lie catching and micro expressions. In 
        Clancy Martin (ed.), The Philosophy of Deception. Oxford 
        University Press.

          Ekman, Paul and O'Sullivan, Maureen. (1991). Who can catch a 
        liar? American Psychologist, 46(9), Sep. 1991, 913-920.

          Ekman, Paul, O'Sullivan, Maureen, and Frank, Mark G. (1999). 
        A few can catch a liar. Psychological Science, 10(3), May 1999, 
        263-266.

          Farah, Martha J. (ed.). (2010). Neuroethics: An introduction 
        with readings. The MIT Press, Cambridge, MA.

          Gazzaniga, Michael S. (2011). Neuroscience in the courtroom. 
        Scientific American, April 2011, 54-59.

          Gordon, J. B., Levine, R. J., Mazure, C. M., Rubin, P. E., 
        Schaller, B. R., and Young,J. L. (in press). Social contexts 
        influence ethical considerations of research. American Journal 
        of Bioethics, 2011.

          Hartwig, Maria, Granhag, Par Anders, Stromwall, Leif A., and 
        Kronkvist, Ola. (2006). Strategic use of evidence during police 
        interviews: When training to detect deception works. Law and 
        Human Behavior, 30(5), 603-619.

          Heuer, Richards J., Jr. (1999). Psychology of intelligence 
        analysis. Center for the Study of Intelligence, Central 
        Intelligence Agency, Washington, DC.

          Intelligence Science Board. (2006). Educing Information: 
        Interrogation: Science and Art. The National Defense 
        Intelligence College.

          Kahneman, D. and Tversky, A. (1972). Subjective probability: 
        A judgment of representativeness. Cognitive Psychology, 3, 430-
        454.

          Loftus, Elizabeth F. (1996). Eyewitness Testimony. Harvard 
        University Press, Cambridge, MA.

          Mayew, William J. and Venkatachalam, Mohan. (in press). The 
        power of voice: Managerial affective states and future firm 
        performance. Journal of Finance, forthcoming.

          Meloy, J. Reid. (2011). Approaching and attacking public 
        figures: A contemporary analysis of communications and 
        behavior. In National Research Council, Threatening 
        Communications and Behavior: Perspectives on the Pursuit of 
        Public Figures. National Academies Press, Washington, DC, 75-
        101.

          Moreno, Jonathan D. (2006). Mind Wars: Brain Research and 
        National Defense. The Dana Foundation, New York and Washington, 
        DC.

          O'Hair, H. Dan, Bernard, Daniel Rex, and Roper, Randy R. 
        (2011). Communications-based research related to threats and 
        ensuing behavior. In National Research Council, Threatening 
        Communications and Behavior: Perspectives on the Pursuit of 
        Public Figures. National Academies Press, Washington, DC, 33-
        74.

          National Research Council. (2003). The Polygraph and Lie 
        Detection. Committee to Review the Scientific Evidence on the 
        Polygraph. Board on Behavioral, Cognitive, and Sensory Sciences 
        and Committee on National Statistics, Division of Behavioral 
        and Social Sciences and Education. National Academies Press, 
        Washington, DC.

          National Research Council. (2008). Behavioral Modeling and 
        Simulation: From Individuals to Societies. Committee on 
        Organizational Modeling: From Individuals to Societies. Board 
        on Behavioral, Cognitive, and Sensory Sciences, Division 
        ofBehavioral and Social Sciences and Education. National 
        Academies Press, Washington, DC.

          National Research Council. (2008). Emerging Cognitive 
        Neuroscience and Related Technologies. Committee on Military 
        and Intelligence Methodology for EmergentNeurophysiological and 
        Cognitive/Neural Science Research in the Next Two Decades. 
        Standing Committee for Technology Insight - Gauge, Evaluate, 
        and Review Division on Engineering and Physical Sciences. Board 
        on Behavioral,Cognitive, and Sensory Sciences, Division of 
        Behavioral and Social Sciences andEducation. National Academies 
        Press, Washington, DC.

          National Research Council. (2008). Human Behavior in Military 
        Contexts. Committee on Opportunities in Basic Research in the 
        Behavioral and SocialSciences for the U.S. Military. Board on 
        Behavioral, Cognitive, and SensorySciences, Division of 
        Behavioral and Social Sciences and Education. Washington, 
        National Academies Press, Washington, DC.

          National Research Council. (2008). Protecting Individual 
        Privacy in the Struggle Against Terrorists. Committee on 
        Technical and Privacy Dimensions ofInformation for Terrorism 
        Prevention and Other National Goals; Committee on Law and 
        Justice (DBASSE); Committee on National Statistics (DBASSE); 
        Computer Science and Telecommunications Board (DEPS). National 
        Academies Press, Washington, DC.

          National Research Council. (2010). Field Evaluation in the 
        Intelligence and Counterintelligence Context. Workshop Summary. 
        Planning Committee on Field Evaluation of Behavioral and 
        Cognitive Sciences-Based Methods and Tools for Intelligence and 
        Counterintelligence. Board on Behavioral, Cognitive, and 
        Sensory Sciences, Division of Behavioral and Social Sciences 
        and Education. National Academies Press, Washington, DC.

          National Research Council. (2011). Intelligence Analysis: 
        Behavioral and Social Scientific Foundations. Committee on 
        Behavioral and Social Science Research to Improve Intelligence 
        Analysis for National Security. Board on Behavioral, Cognitive, 
        and Sensory Sciences, Division of Behavioral and Social 
        Sciences andEducation. National Academies Press, Washington, 
        DC.

          National Research Council. (2011). Intelligence Analysis for 
        Tomorrow: Advances from the Behavioral and Social Sciences. 
        Committee on Behavioral and Social Science Research to Improve 
        Intelligence Analysis for National Security. Board on 
        Behavioral, Cognitive, and Sensory Sciences, Division of 
        Behavioral and Social Sciences and Education. National 
        Academies Press, Washington, DC.

          National Research Council. (2011). Threatening Communications 
        and Behavior: Perspectives on the Pursuit of Public Figures. 
        Board on Behavioral, Cognitive, and Sensory Sciences, Division 
        of Behavioral and Social Sciences and Education.National 
        Academies Press, Washington, DC.

          National Science and Technology Council, Subcommittee on 
        Social, Behavioral and Economic Sciences. Executive Office of 
        the President of the United States. (2009). Social, Behavioral 
        and Economic Research in the Federal Context. January 2009.

          Nisbett, Richard E. (2003). The Geography of Thought: How 
        Asians and Westerners Think Differently... And Why. Free Press.

          Pohl, Rudiger F. (2004). Cognitive Illusions: A Handbook on 
        Fallacies and Biases in Thinking, Judgement and Memory, 
        Psychology Press, Hove, UK, 215-234.

          Rubin, P. (2003). ``Introduction.'' In S. L. Cutter, D. B. 
        Richardson, & T. J. Wilbanks (Eds.), The Geographical 
        Dimensions of Terrorism. Routledge, New York.

          Rubin, P. and Wanchisen, B. (2011). ``Introduction.'' In 
        National Research Council, Threatening Communications and 
        Behavior: Perspectives on the Pursuit of PublicFigures. 
        National Academies Press, Washington, DC.

          Russell, James A., Bachorowski, Jo-Anne, and Fernandez-Dols, 
        Jose-Miguel. (2003). Facial and vocal expressions of emotion. 
        Annual Review of Psychology, 54, 329349.

          Thompson, Suzanne C. (1999). Illusions of control: How we 
        overestimate our personal influence. Current Directions in 
        Psychological Science, 8(6), 187-190.

          United States Department of Health and Human Services (HHS). 
        (2009). Code of Federal Regulations. Human Subjects Research 
        (45 CFR 46). (See: http://www.hhs.gov/ohrp/humansubjects/
        guidance/45cfr46.html )

          United States Government Accountability Office (GAO). (2010). 
        Aviation Security: Efforts to Validate TSA's Passenger 
        Screening Behavior Detection Program Underway, but 
        Opportunities Exist to Strengthen Validation and Address 
        Operational Challenges. GAO-10-763, May 2010, Washington, DC.

          Wallach, Wendell and Allen, Colin. (2010). Moral Machines: 
        Teaching robots right from wrong. Oxford University Press, New 
        York.

          Weinberger, Sharon. (2010). Airport security: Intent to 
        deceive? Nature, 465, 412*415.

          Wells, Gary L. & Quinlivan, Deah S. (2009). Suggestive 
        Eyewitness Identification Procedures and the Supreme Court's 
        Reliability Test in Light of Eyewitness Science: 30 Years 
        Later. Law & Human Behavior, 33, 1-24.

          Widen, S. C., Christy, A. M., Hewett, K., and Russell, J. A. 
        (in press). Do proposed facial expressions of contempt, shame, 
        embarrassment, and compassion communicate the predicted 
        emotion? Cognition & Emotion, in press, 1-9.

    Chairman Broun. Thank you, Dr. Rubin. And I want to express 
my appreciation for your being here. I know you have had some 
recent challenges and I greatly appreciate you being here in 
spite of those. So thank you very much.
    Dr. Rubin. Thank you.
    Chairman Broun. And I want to thank all the panel for your 
testimony. Reminding Members that the Committee rules limit 
questioning to five minutes. The Chair at this point will open 
the round of questions and the Chair recognizes himself for 
five minutes.
    Mr. Willis, when can we expect the SPOT validation report?
    Mr. Willis. The report was delivered to me by AIR last 
night. It is being submitted through DHS's review and release 
distribution process. I am not exactly sure what that time is 
or when it is ultimately disseminated. I can certainly get that 
information for you, sir.
    Chairman Broun. I would appreciate getting that report to 
us as quickly as possible.
    Mr. Willis. Yes, sir.
    Chairman Broun. What additional steps have to be taken 
before we get the report?
    Mr. Willis. I don't know what DHS's distribution process 
entails. I know that I will submitting it this morning 
following my participation here.
    Chairman Broun. Do you have any problems in releasing the 
preliminary results?
    Mr. Willis. I don't know what DHS's policy is on that, but 
I am happy to provide whatever is consistent with DHS's S&T's 
policy on release.
    Chairman Broun. I understand that the results, I assume, 
are still preliminary. There appears to be a discrepancy in the 
SPOT's success rate. In your testimony you state ``the study 
did indicate that a high-risk traveler is nine times more 
likely to be identified using Operational SPOT versus random 
screening.'' Yet when you met with the staff from the I&O 
Subcommittee on March 3 you said that the SPOT program was 50 
times more effective than random screening. One of our other 
witnesses, Dr. Ekman, also makes a similar claim in his 
testimony saying ``malfeasance, felons, smugglers, et cetera, 
identified more than 50 times as often by those selected by 
SPOT.'' Can you please explain the discrepancy?
    Mr. Willis. Well, there shouldn't be a discrepancy. We use 
four metrics by which to evaluate SPOT. The first one was the 
possession of illegal or prohibited items. The second one was 
possession of fraudulent documents. The third was LEO arrest, 
law enforcement arrest. And the fourth was a combination 
thereof. The LEO arrest has the higher number that you referred 
to in your question, sir.
    Chairman Broun. The 50 times?
    Mr. Willis. Yes, sir. The possession of prohibited items 
and fraudulent documents is approximately four and a half 
times, and if one combines all of them, it is nine times.
    Chairman Broun. Are those that were identified--how many of 
those were actually convicted?
    Mr. Willis. Sir, I would have no idea. Our effort stops at 
whether a decision is recorded as being arrested or not, and 
that is the information that is available through the SPOT 
database. It doesn't go beyond that.
    Chairman Broun. Do you have any data about false negatives? 
I mean false positives?
    Mr. Willis. On?
    Chairman Broun. On the people that have been identified at 
the 50 times or 9 times or 4-1/2 times?
    Mr. Willis. Are you talking about the false positive 
associated with arrests?
    Chairman Broun. No, with arrest or--yes, sir, with arrest 
and with prosecution--the ultimate prosecution, et cetera.
    Mr. Willis. Yes, sir. We do have information available on 
that. So for example, if one looks at the false positive index, 
which is for every person that you correctly classify as a 
high-risk traveler, what is the number of travelers you 
misclassify? We have that information on any of the four 
metrics that we discussed. And so for example, combined outcome 
for every person that you correctly identify using Operational 
SPOT, 86 were misidentified. For the base rate or random study, 
for every person that you correctly identify, 794 were 
misidentified.
    Chairman Broun. Wow. SPOT was initially developed as 
intended to stop terrorism. That is the whole point of it. Now, 
we see that the program has expanded to include criminal 
activity. Why was this done?
    Mr. Willis. You are asking a question about the mission. I 
am from Science and Technology, sir. I am unable to answer 
that. May I refer you to TSA?
    Chairman Broun. Well, that is the reason TSA should be here 
and the reason that I think Ms. Edwards and I are both 
extremely disappointed that they are not here.
    Mr. Willis. I could, sir, talk to you about why we use 
metrics that deal more with criminal than with terrorism.
    Chairman Broun. That would be sufficient--or helpful.
    Mr. Willis. Sure.
    Chairman Broun. You have got a few seconds, so go ahead.
    Mr. Willis. Okay, sir.
    Chairman Broun. My time is out.
    Mr. Willis. The reason we use those metrics that we had 
just listed, sir, was because they were available to us through 
the data in sufficient numbers to analyze, even though they 
themselves are low base rate or extremely rare. And data 
directly dealing with terrorism is unavailable and, thus, can't 
be used as a metric.
    Chairman Broun. Okay. My time is up. Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman. And as I mentioned 
earlier, I am disappointed that TSA isn't here because I think 
that there are a number of questions that actually go to things 
like training protocols and other aspects of the SPOT program 
that they would have, you know, really useful information to 
share and so I look forward to working with the Chairman and 
the Committee.
    This question about who needs to appear or not is not a 
decision, really, for the Administration. Congress determines, 
under its Constitutional authority, who appears before the 
Committees and what the jurisdiction is. So I do share that 
concern.
    I want to go to this question, though, of profiling----
    Chairman Broun. Does the gentlelady yield?
    Ms. Edwards. Yes.
    Chairman Broun. I appreciate your comment. You took up 
about almost a minute with that and I would like to give you an 
extra minute on top of that, so I don't want to charge you that 
time.
    Ms. Edwards. I appreciate that, Mr. Chairman.
    Chairman Broun. So I will give you the extra minute. So if 
you all would start her clock again, please.
    Ms. Edwards. Thank you. Thank you again, Mr. Chairman. I 
have a question, really, that goes to this issue of profiling. 
I mean, as an African American woman who sometimes, because I 
have short hair and I get cold, I wear a scarf on my head and 
that is true in the airports especially. I have had the 
experience of actually being pulled over, questioned, and it 
hasn't just happened once or twice. It has actually happened 
multiple times. And, you know, I don't want to make any 
speculation about that, but it does raise the question of who 
is identifying me and how and what I am sending off.
    I am also reminded in Dr. Hartwig's testimony that, you 
know, I remember when I broke a lamp and I tried to glue it 
together and my mother walked in and she said what did you do? 
And I suspect that part of the reason that she could say that 
and she knew--and then I proceeded to tell her a lie, but I 
suspect that part of the reason that she knew I was lying is 
because she knew me and because she had had experience with me 
and because she had read my both verbal and nonverbal cues many 
times over, which gave her a much better indication of when I 
was doing truth-telling and when I wasn't.
    We don't have that experience in our airports, and so I 
have a question for Lieutenant DiDomenica, and that is whether 
it is possible to train officers of all kinds not to engage in 
profiling? And I have done police training, law enforcement 
training as well, and I think it is tough to train out culture, 
culture in the sense of a police culture and a law enforcement 
culture where you have to train against type when it comes to 
these issues. And so I am curious, Lieutenant DiDomenica, if 
you can share with us whether it is possible to train officers 
not to engage in profiling?
    Mr. DiDomenica. I believe it is so and I have been training 
in biased policing and racial profiling for over a decade now. 
Principally, with the state police I designed statewide 
programs for the Massachusetts police community on racial 
profiling, biased policing, and it is possible to make people 
aware of their own unconscious bias and tendency to want to 
make snap decisions about people based on very superficial 
things. We all have this hardware, it is a survival instinct, 
and when we look at somebody, we are automatically making an 
opinion about them. And a lot of it has to do with our 
background and cultural influence, and a lot of those are 
negative. But, you know, this part of your brain is about 
survival, and it wants to understand what is going on very 
quickly. And it actually gets a jump on your conscious 
awareness. So right away when I walked in here and you saw me 
and I saw you, we made a decision about each other before we 
were even consciously aware of who we were and what we are. And 
that is going on all the time. And this is the source of bias.
    Now, knowing that I can't stop my feelings about someone 
based on how they look, that initial survival reaction about 
whether the person might be dangerous or not, but I can take a 
few seconds, maybe minutes, to think about, you know, what is 
going on, what do I know objectively, and maybe even do some 
race transposition. If this person was another race, you know, 
how would I feel about the situation? And then I can make a 
decision. So it takes self-awareness. It takes training. It 
takes the ability--willing to change and monitor yourself. But 
it can be done.
    One of the foundations of the behavior assessment training 
I have done and what I initially gave to TSA for the SPOT 
program is you have to address bias and racial profiling. In 
fact, I call it--you know, it was--to me it was an antidote to 
racial profiling----
    Ms. Edwards. Lieutenant DiDomenica, I would love to hear 
but I just have just a minute and a half left and I wanted to 
get to--I appreciate your answer. I wanted to get to Dr. Ekman 
because I have to tell you, you have been unnerving me the 
entire time I have been in here and I am sure we have been 
reading those cues. And I wonder if you have something to share 
with us on this issue of whether you can train against those 
kind of--what could be negative instincts in one context but 
train them to be positive factors in recognizing behavior?
    Dr. Ekman. Yes. And thanks for the opportunity to respond 
to that. I wanted to quickly put in that we did research years 
ago that show that the better you knew someone, the worse you 
were in identifying when they lied to you because you are 
biased. If they are your friend, your spouse, et cetera, you 
don't want to discover that they are lying. Strangers do better 
than close people.
    But the issue is monitoring--building into the SPOT program 
some monitoring to discover the actual incidents of racial 
profiling. And my bet is that some people show a lot more of it 
than others. Not everybody can learn everything. Not everybody 
can unlearn everything. What we want as BDOs are the people who 
have the flexibility of mind to benefit from that training and 
be susceptible to racial profiling. How can we find out? It is 
not rocket science. It is by having unannounced observers 
checking on who is it they pay attention to and finding out 
whether there are some people who are repeatedly showing racial 
profiling. And you either reeducate or you reassign them to a 
different job.
    Ms. Edwards. Thank you, Dr. Ekman, and thanks for your 
indulgence, Mr. Chairman.
    Chairman Broun. You know, we will always be friends and I 
will always give you some variances on the time so I am not 
going to be worried about that at all.
    Dr. Benishek, you are up next for your questions. Go ahead, 
sir.
    Mr. Benishek. Thank you, Mr. Chairman. Thanks to the panel, 
as well, for being here.
    It is our job here to try to spend the money of the 
taxpayer the most efficacious way and listening to the 
testimony here, it is really difficult for me to determine 
whether this SPOT process is accurate or not. But I would like 
to address Mr. DiDomenica about the process a little bit more. 
From your comments today it seems as if there is some doubt, I 
mean, even after the BDO sees some kind of behavior, then what 
is the process after that? If there is someone there, it sounds 
as if you have some doubt as to the next step as to what is 
happening, the next screening step. Are those people not 
trained in the same thing? I mean I would hate to see somebody 
get missed. So I would like to know more about the exact 
process from the moment that the person gets taken out of the 
queue. Is that effective? Is it--are we doing any good? Are we 
missing people? I mean, this is the kind of thing I think you 
brought up in your testimony.
    Mr. DiDomenica. I think it is effective and I also think we 
are missing people, but I think that could be improved. The 
process actually starts with an observation that may indicate a 
person that is high-risk, that maybe should not get on that 
airplane or get onto that train or into that government 
building, whatever the critical infrastructure is. And based on 
the evaluation, this SPOT scoring, which I really can't go into 
because that is, you know, that is sensitive information.
    But there are two levels, and one is more screening, and 
one is a law enforcement response. So for the people deemed to 
be the most high-risk, the protocol is to invite or call a law 
enforcement officer to do a follow-up interview. Now, this 
follow-up interview is the opportunity to address the false 
positives, because a lot of people that exhibit the behaviors 
that may indicate possible terrorist intent or criminal intent 
are just people that are upset or distracted or late for work 
or going to a funeral, whatever it is, that maybe a lot of 
people just get on the radar. And this interview, which really 
only takes a couple of minutes to do, is the opportunity to 
resolve that so you are not creating false positives. And it is 
also an opportunity to determine if you have got the real 
thing, that this person is high-risk. And so that is another 
skill. I mean that is the interview skill, which is another 
part of this process. So there are----
    Mr. Benishek. Are those people skilled enough in your 
opinion?
    Mr. DiDomenica. When you say ``those people''----
    Mr. Benishek. The people--the secondary person. Are there 
enough of those people?
    Mr. DiDomenica. I think the responsibility ultimately falls 
on police officers when there is a high-risk person. I think 
they are capable. Every day they are making decisions around 
this country whether to arrest somebody, not to arrest 
somebody, use lethal force in some cases, deny people their 
freedoms, and so I don't think it is too much to ask them to 
make a decision, is this person a high-risk person and do we 
need to slow down the process to figure out what is going on? I 
think they are capable of doing it. We are doing it--whether 
this program gets funded or not, cops are making these 
decisions every day. But I would like to see them get more 
training and more support to make them better at what they do. 
And this program has that potential.
    Mr. Benishek. All right. Thank you. I don't know where we 
are at with the time, but I will yield back the remainder of my 
time, if any.
    Chairman Broun. Thank you, Doctor. I just want to say your 
questioning just shows further why TSA should be here so that 
we could answer those questions, because if they were, then you 
could direct it to the TSA individuals and it would be very 
instructive to the whole Committee, Democrats and Republicans 
alike, and help us to go forward.
    The next person on the agenda is my friend, Mr. McNerney. 
You are recognized for five minutes.
    Mr. McNerney. Thank you. And I appreciate you calling this 
hearing. It is interesting. I have watched ``Lie to Me'' on 
occasion and I find it is compelling but not too scientific in 
my opinion. But it is good for us to examine this issue and see 
how much utility there can be from it and how much money should 
be expended to find that utility.
    Dr. Hartwig, I think I heard you say--and you can correct 
me if I am wrong--that you fail to see how knowledge of the 
indicators could be useful.
    Dr. Hartwig. I think that is, again, an empirical question. 
There isn't enough research on--well, there is a lot of 
research on demeanor cues, but as far as I know, there is no 
study that tests whether knowledge about, for example, micro-
expressions help people not display them. But that would be a 
second step. It would be a good first step to establish that 
these expressions occur reliably.
    Mr. McNerney. Okay, and I was----
    Dr. Hartwig. So countermeasures come second.
    Mr. McNerney. Okay. Thank you, Dr. Hartwig. And I was going 
to follow up with you, Dr. Ekman, to basically say would you 
agree that knowledge of those indicators would also be useful 
to potential wrongdoers?
    Dr. Ekman. We don't know. I mean you are basically asking 
the question in polygraph terms is could you develop 
countermeasures?
    Mr. McNerney. Right. Right.
    Dr. Ekman. A proposal I put in to the government to find 
out--I mean I have reason to believe that the Chinese know the 
answer because they were sending me questions that you would 
want to prepare on if you were going to do a training study to 
see whether you could inhibit people from showing not just 
micro-expressions but there are dozens of items on that 
checklist. The--our government has not decided that it is worth 
finding out whether you can beat the system. Other governments 
are finding out and may be selecting people who can and 
training them so they can. We just don't know. We know about 
the polygraph. We know countermeasures are quite successful. We 
know about some verbal means and we know they are quite 
successful.
    If I can have a moment more, sir.
    Mr. McNerney. Yeah, go ahead.
    Dr. Ekman. You heard some complete contradictions between 
Dr. Hartwig and myself. I think if you look carefully at the 
literature, you would find that it comes out supporting me. But 
how can you know? And I think you need to do, when you get a 
disagreement among scientists, is you need to establish an 
advisory panel, experts, who have no vested interest and no 
connections to hear from the people who disagree and look at 
the literature and resolve it because you are really being 
given, in this testimony, advice that is 180 degrees opposite 
in terms of is there a scientific basis for what is being done?
    But you could argue--and I don't know whether Mr. Willis 
would--that if this validity study holds up to scientific 
scrutiny, to everyone who has looked at it, to this Committee, 
if it is as successful as the report is, you have got to be 
doing something right to get that kind of success. So maybe 
it----
    Mr. McNerney. It----
    Dr. Ekman. --is of scientific interest to find out.
    Mr. McNerney. Thank you, Dr. Ekman. Mr. Lord is chomping at 
the bit here. Go ahead.
    Mr. Lord. I would like to respond to Dr. Ekman's point. In 
fact, that was the key recommendation of our May 2010 report 
was to have an independent panel review the results of this 
current AIR validation effort. We think it is very important 
for a panel to be established that has no ties to the current 
program, that is not an advocate of the current program, to 
help weigh in on this very issue. I think it is very 
interesting that the panel today shows a lack of consensus, 
which was the basic point I made in my earlier statement. There 
is no scientific consensus----
    Mr. McNerney. Well, a subject like this you would expect to 
be--a broad range of disagreements. Has a panel--like what you 
are recommending--been suggested in one of the budgets or lined 
out somewhere or is this something----
    Mr. Lord. Yeah, DHS agreed to establish an independent 
panel to review the methodology of the AIR validation effort, 
as well as to review the final results, but as Mr. Willis 
indicated, the final results of this latest validation effort 
have only recently been submitted. I believe he said as of last 
night.
    Mr. McNerney. I think I have run out of time so I am going 
to yield back.
    Chairman Broun. Mr. Hultgren, five minutes.
    Mr. Hultgren. Thank you, Doctor. Thank you all for being 
here. I share the frustration with some of the others that TSA 
is not here today. I am a new Member here at Congress, along 
with quite a few others, and so have been traveling much more 
in the last 3 months than I have ever traveled in my life. In 
fact, just on Monday, the trip out here, I had my first 
experience of the full treatment by TSA out of O'Hare and it 
was interesting. Didn't realize that it involved turning your 
head and coughing, but I now know that that does--is what it 
is. But, you know, it is important for us to have these 
discussions again to protect our liberty and freedom, while at 
the same time making sure that we have security. So I do thank 
you for your role. What I am learning is that we have got a lot 
more work to do and a lot more discussion that needs to take 
place.
    I just have a couple questions. Dr. Rubin, if I can address 
my questions to you if that would be all right. Much has been 
made about the science and research behind the ability for an 
individual--or in this case, BDO--to detect emotion, deceit, 
and intent in another individual based on a combination of 
verbal and nonverbal and micro-facial expressions. I wonder, 
speaking broadly and keeping it as simple as you can for those 
of us laymen, could you just tell us the state of the science 
as it relates to the detection of emotion, deceit, and intent 
of behavioral cues?
    Dr. Rubin. Yes. In general I guess I would agree with Dr. 
Ekman in the sense that we are at the point where there are two 
things going on. If you look at something like voice stress 
analysis and look at the meta-analysis done by Sujeeta Bhatt 
and Susan Brandon coming out of the Defense Department. What 
you basically see in most of these studies is that the results 
are no different than chance. Agreeing with both Dr. Hartwig 
and Ekman, there is a lot of controversy here and there is very 
little real science and validation.
    And it is not just that field evaluation when you can't do 
it. Again, there has been a committee established on the SPOT 
Program regarding the report. I am on that committee. And we 
have not been asked to do any overall scientific validation for 
the program, just to look at one particular thing, are the 
results different than chance? So I am agreeing here that what 
is really needed on these issues, before we continue to invest 
more money, is to really establish, without putting any 
information at risk, a baseline about what is doable, what is 
not doable, what is known, and what is not.
    So this is the classic issue of do you test first and then 
field a product or project? Or field it and test? And this 
particular instance, considering the investment, considering 
the intrusion on people's privacy, I think it is absolutely 
time to be testing, validating, and scientifically exploring 
these things now before we continue to do significant 
investment. I am not saying we shouldn't continue the program. 
I think it is important. But right now we need to establish on 
some of the known kind of things that we are doing without 
giving anything away. Is there good science behind it? 
Otherwise, we are simply throwing money down the drain.
    Mr. Hultgren. I think kind of following up on that, one of 
the concerns that operators have is that behavioral science is 
not dismissed because there are issues dealing with the 
validation of specific cues. Can you speak for a moment on the 
importance of behavioral science in counterterrorism context 
and then what its limitations are, what its strengths are as 
far as our work for counterterrorism?
    Dr. Rubin. Okay. Well, we are changing the topic a little 
bit because we are moving to counterterrorism. I think that the 
behavioral work is broad in counterterrorism. I think it is 
extremely important. Again, when we get to counterterrorism, 
you are broadening your argument out because you get to 
analysts. There has been an excellent report from an NRC 
Committee chaired by Barouche Fish. There is a lot that is 
known.
    And again, we touched on some of this and a number of the 
panelists did. You are starting to get involved in behavioral 
issues of attitude, of biases. Some of this was described in 
the original intelligence work of Richards Heuer on cognitive 
biases. There is a lot that we know. The issue becomes 
structural and organizational.
    Consider, two things. What do we know? And what don't we 
know? With the stuff that we do know, how do we make sure it is 
being most effectively used by the intelligence community and 
by whomever else needs to use it on those issues where we are 
not entirely clear? Where things are uncertain or controversy, 
how can we move ahead? And then there are emerging technologies 
that we are going to start to be seeing used. We see some of 
them in terms of the kind of devices like x-ray, but things 
like euro-imaging, remote imaging, and sensing of other things. 
That is where I was speaking of the seduction of technology. I 
support that stuff greatly, but we need to make sure on stuff 
that is new and emerging that we also get a handle on it.
    So I think the behavioral tools and technologies are stuff 
is growing rapidly, and are extremely important, but I think we 
are not developing a comprehensive approach to appropriately 
evaluating them before deploying them in the field.
    Mr. Hultgren. I see my time is up. I do want to thank you 
all for being here. I do feel like this is a start of a 
discussion that we need to continue, so I appreciate so much 
all of you being here. I also would ask for any advice any 
micro-facial expressions I might have so I don't have to go 
through that examination again. That would be helpful. So pass 
that along to me. Thank you.
    Chairman Broun. Thank you, Mr. Hultgren. I ask unanimous 
consent that the gentleman from Florida, Mr. Mica, be allowed 
to sit on the dais with the Committee and participate in the 
hearing. Hearing none, so ordered. Mr. Mica, you are recognized 
for five minutes.
    Mr. Mica. Well, thank you. And first of all, thank you, Mr. 
Chairman, Mr. Broun, and Ranking Member Edwards and other 
Members of the panel.
    I have great interest in the subject that you have before 
you. As you may know, I was involved in the creation of TSA 
when I chaired the Aviation Subcommittee in 2001 for some six 
years after that and watched its evolution.
    First, I might say that I am absolutely distraught that 
your Subcommittee would be denied by TSA the opportunity for 
them to be here and possibly learn something or participate. I 
don't want you to feel like they are just ignoring you. They 
have ignored our Committee and others, so they have a history 
of this. And I will work with you and others. In fact, I think 
we need to convene a panel of Chairs of various Committees and 
somehow rein this Agency in. And it has an important mission. I 
am just stunned, again, that they would not have someone at 
least to hear from the excellent panel of witnesses you have 
had here today, particularly when they come and ask for more 
money.
    Let me just tell you my involvement with the SPOT program, 
again, as Chair of the Committee that created it. I followed 
TSA in its successes and failures and we have deployed a lot of 
expensive technology out there, and unfortunately, the 
technology does not do a very good job and the personnel 
failure performance rate is just off the charts.
    And if you haven't had the classified briefing on the 
latest technology, which are both the backscatter and the 
millimeter wave, I urge you to do that. I had GAO review that 
in December of last year and then the pat-down, which was sort 
of their backup new procedure, which they put in place the end 
of last year. And then I had that reviewed by GAO in January. 
But that failure rate is totally unacceptable.
    The way we got started on SPOT is I found the technology 
lacking in reports of performance both by screeners and the 
equipment they used as leaving us vulnerable, particularly 
after the Henchmen bombers. And I think we bought some puffer 
machines at the time. I remember going up, having those tested. 
They didn't work but they promised me they would. They deployed 
them and they didn't work. So we needed something in place. We 
encouraged looking at the Israeli model and you can't really 
adopt the Israeli model because they have a much smaller amount 
of traffic. We have 2/3 to 3/4 of all the passenger traffic in 
the world and that is part of America. You know, you get on a 
plane, you go where you want. People just have a magic carpet 
through aviation in this country.
    That is how we started this. I have observed their 
operations and I can't evaluate them. We had GAO evaluate them 
and you have some representatives here to tell you that the 
failure rate is unacceptable. It is almost a total failure. If 
it wasn't money and personnel, maybe it wouldn't matter, but 
they have got 3,300 SPOT officers, I believe, in the program 
and they have got a quarter of a billion dollars in 
expenditures and asking for more.
    What I heard today is that, again, it doesn't work. I had 
to leave before I heard all the suggestions and I would look 
for--. Some of the suggestions on the amount of time to do a 
verbal interview would improve it, but maybe finding some way 
to get us to a number that we could have some exchange.
    Ms. Edwards made some excellent points in her opening 
comments, too, that we have got to have some way to improve 
this and that unless there is some verbal exchange, I think 
that we are with this standoff observation, we are wasting 
time, money, and resources. So I don't have a specific 
recommendation for the replacement. I do know what is in place 
does not work. But I can't tell you how much I appreciate your 
Subcommittee taking time to review this matter and try to seek 
a better approach, a better science, and better application of 
something that is so important. Because we are at risk. These 
people are determined to take us out.
    I just came from another meeting, the folks that developed 
both backscatter and millimeter wave, which is two technologies 
we are using, and the scary thing there is we had witnesses in 
one of the other hearings that said that both of those 
technologies will not be able to detect either body cavity or 
surgical implants. And we already see that they are always 
going one step ahead of whatever we put in place. So we have 
got a failed system, we are spending a lot of money on it, it 
is supposed to provide us with a backup. The information we 
have and the review of the performance shows that it is not 
doing that and it needs to be replaced or dramatically revised 
if it is going to be effective in keeping us from this next set 
of threats.
    So those are my comments. I would ask that if you have 
suggestions, we do have an FAA bill which we can include some 
positive suggestions. We couldn't do that in the House side 
because of jurisdiction, but we can do it in conference and the 
door has already been opened by the Senate. And I would love to 
hear recommendations from you and from those who participated 
today how we can do it better. So thank you for allowing me to 
participate.
    Chairman Broun. Well, thank you, Chairman Mica. I 
appreciate your being here and appreciate your comments. I can 
speak for Ms. Edwards. We both are very concerned about 
national security. We both are concerned about civil liberties. 
We both are concerned about that we make sure that the flying 
public are safe and I appreciate her input. And I hope that you 
will find some way that maybe we will have those terrorists 
subjects that we can put in a study so that maybe some kind of 
behavioral science could be developed to try to identify these 
folks.
    We will go to our next round of questioning. So I will 
recognize myself for five minutes for questioning. Even if SPOT 
is more than nine times more effective than random, we still 
are talking about very low base rates. Lieutenant DiDomenica 
who states in his testimony that the base rate for terrorism is 
.000000--I think one more 0, 6--I hope I didn't get too many 
zeros and did not leave that one. Can any of the panelists help 
put that into perspective? Anybody? Mr. Lord?
    Mr. Lord. Sure. That statistic implies that acts of 
terrorism are very rare events. That makes it very difficult to 
test the efficacy of the program and develop, as we recommended 
in our report, performance metrics to allow you to better judge 
whether the program works as designed. But we don't think that 
should deter you from trying to craft what we would call proxy 
measures, other measures that help you get at this at least 
indirectly. And we made that very important recommendation, and 
TSA and DHS agreed to try to develop these indicators.
    There is one step we think they could take that would make 
this exercise a lot more useful, currently they use a very long 
list of behaviors, the exact number and the characteristics are 
considered sensitive security information. But we posed a 
question, how do you know this is the right number? And they 
also assign point scores to each of these behaviors. Again, the 
details are sensitive security information. But that would be 
one way that we think would make the program more useful in 
identifying potential acts of terrorism, validate the point 
system, scrub the list of behaviors, cull the list, and try to 
come up with something that is more related to an eventual 
arrest or a hostile act. And there are ways to do that 
statistically.
    Chairman Broun. Thank you, Mr. Lord. Anybody else? Mr. 
Willis, yes?
    Mr. Willis. Thank you, Mr. Chairman. So first off, proxy 
measures are a standard part of research, especially in the 
area of terrorism, because again, there are no direct measures 
in sufficient quantities, typically, to use for terrorism. 
Criminal activity is often used as a proxy measure. It is an 
accepted practice mainly because when one is looking for 
terrorism or acts of terrorism in a lot of transit areas, you 
are looking for somebody who is coming in to try to use some 
false identification or you are looking for somebody who is 
smuggling. And both of these things are represented in higher 
numbers, even though they are still low base rate numbers in 
criminal activity. And so that is why that is typically used 
and used by other organizations as proxy measures. So I want to 
make sure that we were comfortable that we had given 
forethought to that and used what is a best practice for proxy 
measures, sir.
    Chairman Broun. Dr. Ekman?
    Dr. Ekman. There are a number of organizations. I work with 
airport security in England. I have seen the videos of the 
bombers before they bombed. I have worked in Israel where they 
do a lot of, of course, security. But even within our own 
government, the different parts of DOD that deal with 
counterterrorism and the attempts to identify terrorists in 
field military situations, there is no sharing of information. 
There is a lot of information out there that hasn't been 
brought together. It is sensitive, but it needs to be brought 
together and then with that database, take a look at what is on 
the SPOT list. I haven't seen what is on the SPOT list for four 
years so I don't know how it has changed and I don't know how 
it has been informed by research findings from our group and 
other groups and from observations by Special Forces, by our 
counterintelligence, by NYPD. There is a lot of information in 
this country in separate little pockets that hasn't been 
brought together.
    Chairman Broun. Thank you. My time has expired. For my 
questioning now, I recognize the Ranking Member, Ms. Edwards, 
for five minutes.
    Ms. Edwards. Thank you, Mr. Chairman. I want to go to a 
question that was raised by Mr. Mica's comments when he was 
here. And I just want to be clear that from the perspective of 
GAO and the report and analysis that you have done, Mr. Lord, 
we don't yet know if the SPOT program is ``a fiasco.'' Isn't 
that correct?
    Mr. Lord. Yes, that is absolutely correct. Those were his 
words. That is not in our vocabulary. Thank you.
    Ms. Edwards. And just to be clear again, what metrics again 
would you use to determine the success or failure as an 
operational program?
    Mr. Lord.Since we have identified several instances of 
terrorists transiting through the U.S. system, studied the 
videotapes of their movement. Are they, in fact, exhibiting 
signs of stress? Are they, as some literature suggests, they 
don't typically emote much because they believe they are going 
on to a more blissful state. So it is unclear to us at this 
juncture whether there would be discernible signs of stress or 
fear. But there is videotape evidence that would allow you to 
get at that and we think that would be invaluable in fine-
tuning the program.
    Ms. Edwards. Yeah, I think I highlighted that in your 
testimony because there are a number of examples that we have. 
And I wonder, Mr. Willis, has DHS made an attempt to pull 
together not just video evidence here in the United States but 
with our international partners to do some kind of an 
assessment stacked up against the screening techniques that 
have been identified to see whether we are on target? It is an 
awful lot of money to spend without, you know, putting it up 
against real-time data.
    Mr. Willis. Thank you. Again, I represent DHS Science and 
Technology, not the operational community. From a----
    Ms. Edwards. This is a science question.
    Mr. Willis. Yeah, from a Science and Technology 
perspective, we are attempting to locate video of terrorist 
threats in other countries, as well as within the United 
States. And it is very difficult to try to get access to that 
information or to successfully get access to that video. And so 
if----
    Ms. Edwards. Well, part of the reason that we pulled DHS 
together is because it was--you know, because it is a, you 
know, a collection of all of our, you know, sort of security 
and investigative interests under one house to work with our 
international partners. And so it is a little staggering to me 
to know that you have not had the capacity in now a decade to 
look at video and use it to make an analysis about whether the 
techniques that you seem to be employing are--would be 
successful. I mean that seems to me kind of a basic scientific 
question that DHS should be in a position with our partners 
internationally and here in the United States to get that video 
and, you know, conduct some real scientific analysis of that. 
So I would urge DHS to consider that.
    I want to go to Dr. Hartwig for a minute because in your 
testimony you indicated that there are some other 
recommendations that you might make and I wonder if you could 
just describe very briefly those to us because I don't think 
you had an opportunity here in your testimony.
    Dr. Hartwig. Right. I think it is roughly captured by what 
Mr. Mica said before he left, that is it important to engage a 
person in conversation to elicit cues to deception. Overall, 
the research shows that statements carry some cues to 
deception. And also there is an emerging wave of new research 
that focuses on how to create cues to deception, how to elicit 
cues to deception because there is such an abundance of 
research showing that people don't just automatically leak. So 
my basic answer is that some form of questioning protocol, some 
kind of brief interview protocol that is based on the 
scientific research on how to elicit cues to deception, how to 
ask questions so that the liars and truth-tellers respond 
differently. I think that would be a worthwhile enterprise.
    Ms. Edwards. So you are not really saying--and this is a 
yes and no--saying scrap the program, but you are saying that 
there are areas where we need to significantly improve the 
techniques that we are using to take us down a track of really 
being able to identify potential terrorists?
    Dr. Hartwig. Yes, I think if efforts would be spent on the 
questioning part of the program, that would put it much more in 
line with the scientific research.
    Ms. Edwards. Thank you. Thank you, Mr. Chairman.
    Chairman Broun. Thank you, Ms. Edwards. We have been joined 
by the Congresswoman from Florida, Ms. Adams. You are 
recognized for five minutes.
    Mrs. Adams. Thank you, Mr. Chair. Mr. Willis, earlier you 
said that there had been 71,000 referrals and you made a 
distinction of that, the behavior leading to arrest. How many 
of those were arrested?
    Mr. Willis. Of the 71,000?
    Mrs. Adams. Yes.
    Mr. Willis. That is the random selection method.
    Mrs. Adams. Correct.
    Mr. Willis. 71,000 were referred in the random selection. 
Nine arrests were made.
    Mrs. Adams. Nine?
    Mr. Willis. Yes.
    Mrs. Adams. And in the other method?
    Mr. Willis. Using SPOT 23,000 and a little bit were 
referred and 151 were arrested.
    Mrs. Adams. And the types of arrests?
    Mr. Willis. I don't have the nature of the arrests in the 
data that we looked at, ma'am.
    Mrs. Adams. So it could have been belligerency or any other 
thing for that matter?
    Mr. Willis. Some of them were for prohibited items that 
were on them at the time. Others could have been through 
outstanding warrants or something of that nature, ma'am.
    Mrs. Adams. Do you think that I have an appearance or would 
I be a target for SPOT? I mean every time I go through the 
airport I get pulled aside and searched. And the reason I ask 
that is because, you know, being a past law enforcement officer 
and trained, I have some concerns about the way you are 
identifying pulling people aside. Dr. Hartwig, you said you 
wanted--you thought the program would work if more tools were 
available. Would it be better to use a validated system as 
opposed to one that is untested and invalidated?
    Dr. Hartwig. Well, first of all, I didn't say that about 
that the program would work. I was talking about where I think 
more emphasis should be spent or put.
    Mrs. Adams. So even with the more emphasis do you believe 
that it would work?
    Dr. Hartwig. I don't know. I think we would need a properly 
conducted study to find that out. And I think it would be 
important to go beyond examining the arrest rates and to look 
at what are the actual behaviors that are displayed by these 
people who are arrested and to compare those behaviors with 
those that are in the list of queues. I don't know what those 
queues are because it is not available. And to look at are the 
SPOT criteria actual indicators. So I think that--it is 
definitely--we need to know whether it works or now.
    Mrs. Adams. Mr. DiDomenica, you are a law enforcement 
officer. I am a past law enforcement officer. Do you believe 
that the TSA employees have enough training and the skills sets 
based on the training they are receiving to--you know, to 
provide this type of screening at this level?
    Mr. DiDomenica. I think with a proper follow up by trained 
law enforcement that they do. But if we don't have the proper 
follow up by the police officers to figure out what is going on 
because this is just like an alarm. It is like going through 
the magnetometer and beeps. Well, what does that mean? So 
someone comes over and pats you down. Well, the cops are like 
the pat-downs. All right. Why did this beep? And so if you have 
that level of follow up by trained law enforcement, I am 
comfortable with the training they receive. But without that 
level of follow up, I am not comfortable.
    Mrs. Adams. So would it be your opinion that there needs to 
be more training?
    Mr. DiDomenica. Yes.
    Mrs. Adams. I yield back.
    Chairman Broun. Thank you, Ms. Adams. Mr. Willis, I have 
got another question for you. Does TSA plan to use R and D to 
improve the SPOT program or does it believe the program cannot 
be improved upon?
    Mr. Willis. We do have some ongoing research with them and 
if I may say this is one of the beginning research elements 
that we have with TSA, sir, and in fact it was started in 2007 
prior to GAO's interests. Its focus is specific, not to 
evaluate absolutely everything going on with SPOT. That is a 
huge tasking of which we are not tasked or resourced to do. 
This is looking at the indicators, the checklist itself, the 
existing checklist.
    The first question that needs to be asked from a scientific 
perspective is does the checklist as it is currently put 
together and as it is currently deployed accomplish its 
mission. You would like to be able to compare that against 
random and against something else that has been shown to be out 
there and valid, but the fact is that there isn't another 
behavioral-based screening out there employed by any other 
group that we are aware of, either in the United States or 
abroad, that has been statistically validated. And so we have 
not been able to address that. So we compared this against 
random, which is the first scientific basis.
    Chairman Broun. So TSA is doing research?
    Mr. Willis. We are doing research that supports TSA.
    Chairman Broun. Ms. Edwards, do you have another question?
    Ms. Edwards. I do, thank you, Mr. Chairman. I just want to 
follow up with you, Mr. Willis, because I am confused. My 
understanding is that you shared with our staff that there is a 
pool video available of suicide bombers and the like that could 
be used to study. And I mean I would expect that if TSA were 
operating the right kind of way that would also be used for 
training. And so I am a little confused by your answer and I 
just want to be clear. Do we have video both from ourselves and 
perhaps from our international partners that we could use to 
assess the techniques that have been developed and the 
questions that--the assessment questions that have been 
developed so that we can make sure that we have a program that 
is working as effectively as we know it can work?
    Mr. Willis. We don't presently have a sufficient number of 
videos to conduct scientific analysis on. S&T is attempting to 
work with our partners in the United States and internationally 
to gather these, but being a resource organization, we do not 
have the ability to compel operational organizations, much less 
international ones to provide us with that video. What we are 
doing is attempting to continue to collect that at--the best we 
can, as well as to conduct other kinds of supporting things 
such as interviews of direct eyewitnesses to suicide bombings, 
international subject matter experts in the area to go beyond 
what the current validation study was, which is of the existing 
indicators, to try to help establish from a scientific 
perspective what is being used operationally abroad and, in 
fact, what is being witnessed by, again, eyewitnesses and 
subject matter experts so that we may be able to then bring 
that information back and test it to see----
    Ms. Edwards. Is S&T doing that or TSA? Who----
    Mr. Willis. That is S&T research, ma'am.
    Ms. Edwards. Okay. And so I guess I mean for the--for our 
Drs. Hartwig and Ekman, it would be useful, wouldn't it, to 
have a pool, a real data pool to be able to assess that and 
develop a research protocol that enabled us to stack our 
assessment tools against that? And so my question, though, for 
Mr. Willis whether or not--what agency do you think is--would 
be the responsible one to get this pool together? Is it DHS? Is 
it TSA? Mr. Lord?
    Mr. Willis. I don't know the right organization for that.
    Mr. Lord. In our report, we made 11 recommendations. One of 
the recommendations was to use and study available video 
recording to help refine the SPOT program. In their formal 
Agency comments, the Department indicated they agreed and they 
were taking steps to do that so I think the Department is 
already on record for saying they agreed. It is a good idea. We 
are going to do it. So I mean they are--they bought into this 
idea. To the extent they have actually implanted it, we will 
have to follow up and see the extent they have addressed it. 
But just so--to clarify, DHS has bought into this idea. They 
have already agreed to do it.
    Ms. Edwards. Thank you. And then finally, Mr. Lord, since 
you already have the microphone, DHS hasn't done a cost/benefit 
analysis on the program or a risk assessment. And it is my 
understanding that they don't do a great job actually--and I 
apologize for the critique--of either conducting cost/benefit 
analyses or risk assessments for many of their programs. How do 
we know if we even need the program?
    Mr. Lord. Well, typically, as part of our analysis, we 
would look at the cost/benefit analysis or the risk assessment 
to study, number one, how they decided--for example, you need a 
risk assessment, we would assume, to show where you needed to 
deploy the program. It is at 161 airports, so our question was 
how did you establish this number? Did you have a risk 
assessment? And the answer was no. They are in the process of 
ramping up the program now. Every year, you know, the funding 
has increased. We assumed that would be justified by a cost/
benefit analysis. They don't have one yet, although to their 
credit they have agreed to complete both a risk assessment and 
a cost/benefit analysis. But traditionally, we would expect to 
find that early at program inception, not 4 or five years after 
you deployed a program.
    Ms. Edwards. Well, thank you all for your testimony. And 
Mr. Chairman, I would just say for the record, it would be good 
to get a cost/benefit analysis and risk assessment before we 
spend another, you know, $20 million, $2 million, or $2 on the 
program. Thank you very much.
    Chairman Broun. And I agree with you, Ms. Edwards. Ms. 
Adams, you are recognized.
    Mrs. Adams. Thank you, Mr. Chair. The program, Mr. Willis, 
has been ongoing since 2007? Is that what I heard?
    Mr. Willis. The validation research study has been ongoing 
since 2007.
    Mrs. Adams. A validation research study since 2007. And I 
heard you say there was no system out there that you could use 
that was validated or available, is that correct?
    Mr. Willis. We are unaware of any behavioral-based 
screening program that is used that has been rigorously 
validated, yes.
    Mrs. Adams. What about Israel's program?
    Mr. Willis. We have not located any study that rigorously 
tests that.
    Mrs. Adams. Did they study it?
    Mr. Willis. We are not provided any information----
    Mrs. Adams. Did you ask?
    Mr. Willis. Yes.
    Mrs. Adams. And they have said they would not provide it?
    Mr. Willis. We have not been--they didn't say they wouldn't 
provide it.
    Mrs. Adams. Okay. So it is maybe the way you were--you 
asked for it maybe? I am trying to determine, since '07 you 
have been doing a study. We don't have anything validated. You 
can't give us a cost/benefit analysis. We are four years out 
and when you say there is no other programs out there, there 
are some out there, I believe. Mr. DiDomenica, are there 
programs out there?
    Mr. DiDomenica. There are similar programs--excuse me. 
There are similar programs for behavior assessment, principally 
for law enforcement. I mean I have been teaching BASS. There is 
a DHS program called--it is proved by DHS called Patriot. I 
have another training course called HIDE, Hostile Intent 
Detection Evaluation. But these programs are given, it may be a 
few days of training, and then people go off and do their 
thing. There is no follow up, in other words, how successful it 
is. I mean people, I think, are getting good ideas, they are 
getting good techniques, but it is not done in a way where it 
can be measured and followed up on, and I think that needs to 
be done.
    Mrs. Adams. And these programs are all from DHS also?
    Mr. DiDomenica. There is one that is approved. In other 
words, it is approved for funding. And--but they are not DHS 
programs.
    Mrs. Adams. Okay. So they are funded but they are trying to 
then--they are kind of sent out and there is no true follow up. 
Is that what you are saying?
    Mr. DiDomenica. Yeah, there is no collection of data about 
success or failures or effectiveness. It is like a lot of law 
enforcement training, and you are probably aware of this, that 
you go in for a class, you sit there for a week, you get a 
certificate, and you walk out the door and that is the end of 
it. So I think, unfortunately, that just falls in line with a 
lot of the training that is done. And I think for this program, 
it is--you know, what is at--for what is at stake, we need to 
be better at how we follow up on this.
    Mrs. Adams. I know in my certificate we had to go back for 
training every so often or else we lost our certificate. So I 
can relate to having to keep your training and your skills 
honed. I appreciate that. No more questions, Mr. Chair.
    Chairman Broun. Thank you, Ms. Adams. I want to thank the 
witnesses for being here today. I appreciate you all's 
testimony and I appreciate the Members, all the questions that 
we have had. This is a very interesting topic. I am, again, 
very disappointed the TSA has refused to come because there are 
a lot of questions that I know Ms. Edwards and I both would 
like to have asked TSA if they had graced us with their 
presence. And hopefully we don't have to go down the road of 
requiring them to be here in the future. But we will look into 
that and they will be here at some point, I hope voluntarily. 
And I hope you will pass that along to the folks that are in 
the position to make that decision.
    Members of the Subcommittee may have additional questions 
for the witnesses, and we ask that you all will respond to 
those in writing. The record will remain open for two weeks for 
additional comments by Members. The witnesses are excused and 
the hearing is now adjourned.
    [Whereupon, at 12:00 p.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Mr. Stephen Lord, Director, Homeland Security and Justice 
        Issues,
Government Accountability Office
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Responses by Mr. Larry Willis, Program Manager, Homeland Security 
        Advanced
Research Projects Agency, Science and Technology Directorate,
Department of Homeland Security

Questions submitted by Chairman Paul C. Broun

Q1.  Question: Does S&T's evaluation seek to validate the underlying 
behavioral indicators that form the basis of the SPOT program?

A1. Response: The scope of the study was to conduct an operational 
examination of the existing indicators contained within the Screening 
Passengers by Observational Techniques (SPOT) Referral Report. The 
results of the study provide evidence to support the criterion-related 
validity (classification accuracy) of the SPOT Referral Report. In a 
comparison of Operational SPOT and random screening selection outcomes, 
the classification accuracy for Operational SPOT was significantly more 
accurate in identifying high-risk travelers as defined by possession of 
serious prohibited and illegal items (weapons, fraudulent documents, 
etc.) and law enforcement arrests. This finding was based upon a 
comparison of Operational SPOT and random screening at 43 airports for 
a period of nine months and included over 23,000 Operational SPOT 
screenings and 70,000 random screenings.

Q2.  Question: For the purpose of the S&T study, you describe `high 
risk travelers' as ``those passengers in possession of serious 
prohibited and/or illegal items or individuals engaging in conduct 
leading to an arrest.''

a.  Why is `terrorism' not included in the definition of high risk 
travelers?

A2 a. The number of terrorists identified as traveling through airports 
is too infrequent to support the inclusion of terrorists as high-risk 
passengers in an empirical comparative analysis of screening 
methodologies. In keeping with the best practice of developing proxy 
measures, the Science and Technology Directorate's study defined high 
risk travelers using behaviors common to both terrorists and criminals, 
such as attempting to conceal identity and smuggling of potentially 
dangerous materials.
b.  Has the definition of high risk travelers changed from when SPOT 
was first implemented? If so, how?

A2 (b.) The definition has not changed.

Q3.  At a recent Oversight and Government Reform hearing, TSA stated 
that it was introducing training for screeners to put travelers at ease 
while going through screening.

a.  What impact would this, and other countermeasures employed by 
travelers such as training to hide indicators, or anti-anxiety drugs, 
have on a BDO's ability to identify an individual intending to cause 
harm?

A2 (a.) Screening of Passengers by Observation Techniques (SPOT) 
indicators are based on the involuntary physical and physiological 
behaviors that occur when a person has a fear of discovery. Research 
supports that these behaviors are difficult to countermeasure. First, 
involuntary behaviors originate in an area of the brain that 
individuals do not have control over. People cannot stop these 
behaviors from occurring; rather they must try to mask or suppress them 
once they are triggered. Second, nonverbal behavior is more complex and 
more difficult to control than verbal communication because there are 
many areas of nonverbal behavior an individual needs to control, such 
as facial expression, posture, etc. Third, deception is a cognitively 
demanding state, and this makes body movements even more difficult to 
control, because people have lower cognitive capacity when they are 
trying to lie.
    Research has not yet examined how medication, surgery, disguise, or 
drugs affect human behavior in these situations, and this research is 
needed by the scientific community. Even though medication or drugs may 
suppress some behaviors and body movements, they may produce other 
signals to suggest that the person has taken this medication.

Q4.  How does TSA ensure that BDOs are using indicators to screen 
passengers rather than something more troublesome like profiling or 
racial bias?

A4. Behavior Detection Officers (BDO) and candidates are trained to 
identify behaviors, and work to resolve any suspicions based on the 
training protocols. The BDO training distinguishes between subjective 
profiling and proven scientific methods. They are specifically trained 
not to consider ethnicity or race-and or other traits that are not 
associated with behavior. Additionally, BDOs work in teams which aids 
in integrity. Furthermore, the program office regularly performs 
Standardization Visits with refresher training. Finally, the Screening 
of Passengers by Observation Techniques (SPOT) Transportation Security 
Managers, who are the first line supervisors to the BDOs, are required 
to spend time on the floor monitoring the BDOs to ensure they are 
applying the behaviors in accordance with the SPOT standard operating 
procedures.

Q5 a.  On what basis was the SPOT checklist of indicators selected?

A5 (a.) The behavioral indicators incorporated within Screening of 
Passengers by Observation Techniques (SPOT) are based on both law 
enforcement experience and the most recent scientific findings.
    Additionally, the work of Dr. David Givens, Director of the Center 
for Nonverbal Studies, was utilized in selecting the SPOT behaviors. 
Dr. Givens is recognized as an expert in nonverbal behavior. Behaviors 
outlined in his Nonverbal Dictionary were selected based on their 
relationship to stress, fear, and deception cues associated with the 
fear of discovery and integrated into the SPOT program.

Q5 b.  Why doesn't the S&T study evaluate the validity of the indicator 
list? Do you believe this would be helpful?

A5 (b.) The Science and Technology Directorate's (S&T) study did 
directly evaluate the indicator list as executed through the existing 
Screening Passengers by Observational Techniques (SPOT) Standard 
Operating Procedure (SOP).

Q6.  According to the GAO report, S&T officials ``agreed that SPOT was 
deployed before its scientific underpinnings were fully validated.'' 
(p. 15). Additionally, in discussing the S&T study, the GAO report 
states, ``S&T's current research plan is not designed to fully validate 
whether behavior detection and appearances can be effectively used to 
reliably identify individuals in an airport terminal environment who 
pose a risk to the aviation system.'' (p. 20). Additionally, in the 
first paragraph of Dr. Maria Hartwig's written testimony, she says, 
``In brief, the accumulated body of scientific work on behavioral cues 
to deception does not provide support for the premise of the SPOT 
program. The empirical support for the underpinnings of the program is 
weak at best, and the program suffers from theoretical flaws.''

a.  Prior to implementing SPOT, why did TSA not validated the science 
behind the program?

A6 (a.) Prior to the Transportation Security Administration's Screening 
of Passengers by Observation Techniques (SPOT) program, no behavior-
based program had ever been rigorously scientifically validated. The 
program was established on widely accepted principles supported by 
leading experts in the field of behavioral science and law enforcement.

b.  Why did the S&T validation study not validate ``whether behavior 
detection and appearances can be effectively used to reliably identify 
individuals in an airport terminal environment who pose a risk to the 
aviation system?''

A6 (b.) The Science and Technology Directorate (S&T) sponsored study 
did directly examine the extent to which ``behavior detection and 
appearances,'' as represented in the existing Screening Passengers by 
Observational Techniques (SPOT) indicators, can be effectively used to 
identify high-risk travelers, which is an examination of classification 
accuracy (criterion-related validity). Results of the study found 
support for criterion-related validity; that is, there is evidence that 
the SPOT indicators are accurate in identifying outcomes and is 
significantly more accurate in doing so than random screening.

c.  How do you respond to Dr. Hartwig's comment?

A6 c. During the recent testimony, Dr. Rubin responded to a similar 
question by stating that the published research literature on the link 
between behavioral, physiological, and verbal cues to deception and 
general suspicious behaviors is mixed, rather than non-supportive as 
represented by Dr. Hartwig. The Science and Technology Directorate 
(S&T) agrees with Dr. Rubin's assessment.

Q7.  Who originated the SPOT program, was it Carl Maccario, as Dr. 
Ekman states in his written testimony, or was it Lieutenant DiDomenica, 
who says his PASS program was the basis for SPOT? Response: After the 
terrorist attacks of 9/11, behavior recognition and analysis concepts 
were adapted and modified by the Massachusetts State Police (MSP) Troop 
F (Lieutenant DiDomenica) assigned to Boston Logan International 
Airport (BOS). Their program was modified to meet the legal, social, 
political, financial, and resource limitations of the United States and 
was merged with drug interdiction techniques used by United States law 
enforcement. MSP named this program Behavior Assessment Screening 
System and trained all law enforcement officers assigned to BOS in its 
use as an enhanced security measure to the newly instituted security 
checkpoint screening system of the Transportation Security 
Administration (TSA).

  The Screening of Passengers by Observation Techniques (SPOT) program 
was developed by TSA (Carl Maccario), with assistance from MSP, to meet 
TSA-specific security and public service needs, with particular 
emphasis on the protection of individual civil rights, privacy, and to 
mitigate possible complaints of racial profiling.

a.  What role did the Israeli model play?

A7 (a.) The SPOT subject matter expert was initially trained in Israeli 
Behavior Pattern Recognition (BPR). Many of the BPR concepts are 
contained in SPOT such as informally interacting with passengers who 
are in line at the security checkpoint queue.

b.  What aspects of the Israeli model are based on behavioral science?

A7 (b.) TSA defers to the Government of Israel to respond as 
appropriate, as they are the subject matter experts on their security 
model.

Q8.  Dr. Ekman distinguishes his experiments from those of his critics 
by emphasizing that his focus is on ``high stake lies, in which the 
person lying has a lot to gain or lose by success or failure.'' He 
specifically addresses the work conducted by Dr. Hartwig, stating, 
``She has dealt with low-not-high-stake lies which have little 
relevance to my work or to the situation faced in SPOT.'' Conversely, 
Dr. Hartwig states, ``Neither the research in general nor specific 
results on high-stake lies support the assumption that liars leak cues 
to stress and emotion, which can be used for the purposes of lie 
detection.''

a.  Given these opposing views, what is your assessment?

A8. As Dr. Rubin stated during his testimony, the published research 
literature is mixed on the topic of behavioral, physiological, and 
verbal cues to deception and general suspicious behaviors. Ideally, one 
might expect greater consensus and support from the academic research 
base prior to fielding a screening program; however, academic research 
alone is insufficient. Once a screening program is fielded, regardless 
of how supportive the academic research base may be, prudent research 
requires the conduct of operational experiments to validate the 
effectiveness of the screening program and if effective, to then 
conduct additional research to optimize its effectiveness. The reality 
is that behavior-based screening is currently used operationally by 
DHS, the U.S. Department of Defense, the U.S. intelligence community, 
law enforcement, and by numerous other countries. Increased focus 
should be applied to conducting field research on these programs.

Q9.  Please indicate each and every research effort that the DHS 
Science & Technology Directorate (S&T) is conducting on behalf of the 
Transportation Security Administration (TSA). This should include all 
efforts the S&T Directorate is taking on behalf of TSA and not simply 
be limited to work that S&T is performing regarding the TSA SPOT 
program.

  Please include in this list the following information:

    <bullet>  The name of the TSA effort DHS S&T is supporting.

    <bullet>  The purpose of the S&T research or task.

    <bullet>  The amount of financial reimbursement S&T is receiving 
from TSA for each effort.

A9. The Science and Technology Directorate (S&T) partners with the 
Transportation Security Administration (TSA) on several research and 
development tasks. Below are the projects and associated funding from 
FY 2010 reimbursed by TSA:
    (NOTE: * indicates projects are funded by TSA and do not appear in 
S&T budget documents)

      Project Name: Secure Carton
      Financial Reimbursement from TSA: N/A
      Description: Develop (at the request of TSA and DHS Policy) a 
shipping carton embedded with security sensors that detects tampering 
or opening of the carton once closed. It is scalable and applicable 
across various shipping modalities, including maritime and air cargo, 
and can communicate a tamper event of the internal cargo to a radio 
frequency identification reader, when interrogated. The interaction 
with TSA has been to keep them informed of the project. S&T intends to 
test the product for inclusion on the TSA qualified products list. 
Secure Carton is a Phase-III Small Business Innovation Research (SBIR) 
- Phases I & II were funded by S&T SBIR Program and Phase III was 
funded with S&T Borders and Maritime Security Division FY09/10 project 
funds.

      Project Name: Secure Wrap
      Financial Reimbursement from TSA: N/A
      Description: Secure Wrap is being developed for TSA and DHS 
Policy. It is a flexible wrapping material that provides a visible 
indication of tamper evidence and can be deployed with little to no 
change to current supply chain logistics and processes. The interaction 
with TSA has been to keep them informed of the project. S&T intends to 
test the product for inclusion on the TSA qualified products list. 
Secure Wrap is a Phase-II SBIR with all funding provided by DHS S&T 
SBIR Program.

      Project Name: Autonomous Rapid Facility Chemical Agent Monitor 
Project
      Financial Reimbursement from TSA: N/A
      Description: Develop a low-cost, fully autonomous, chemical vapor 
monitor that is intended to ``detect-to-warn'' of the presence of up to 
17 chemical warfare agents and high-priority toxic industrial chemicals 
within a single device at both immediately dangerous to life and health 
and permissible exposure limit concentrations. The monitor will be able 
to operate continuously in closed or partially enclosed facility 24hrs/
day, 365 days/yr.

      Project Name: Chemical Security Analysis Center (CSAC) Project
      Financial Reimbursement from TSA: N/A
      Description: Develop and sustains expert reach-back capabilities 
to provide rapid support in domestic emergencies. The CSAC serves as 
the Nation's first centralized repository of chemical threat 
information (hazard and characterization data) for analysis of the 
Nation's vulnerabilities to chemical agent attacks. To ensure a 
cohesive effort to evaluate threats and countermeasures, CSAC conducts 
key analytical assessments, such as material threat assessments (MTAs), 
hazard assessments, and the Chemical Terrorism Risk Assessment (CTRA). 
The DHS Office of Infrastructure Protection, Office of Health Affairs, 
TSA, and Intelligence & Analysis are the primary DHS customers for CSAC 
products. CSAC provides completed MTAs to Health and Human Services to 
fulfill BioShield requirements.

      Project Name: Model Large-Scale Toxic Chem Transport Release 
Project
      Financial Reimbursement from TSA: $800,000
      Description: Focus on developing an improved understanding of 
large-scale releases of toxic inhalation hazards. Aspects of the 
project include improved modeling, first responder procedures, and 
industrial safety in addition to the development of enhanced mitigation 
strategies.

      Project Name: Canine Detection R&D Project (FY10)
      Financial Reimbursement from TSA: N/A
      Description: Assess the performance of TSA certified explosive 
detection canine teams when screening air cargo. This effort is in 
support of the TSA National Explosives Detection Canine Team Program 
(NEDCTP) effort to independently test performance measures in 
operational environments in order to make decisions on concepts of 
operations. Independent experts collect and present the data from 
canine operational assessments and make recommendations on canine 
training or deployment to optimize canine explosives detection.

      Project Name: Homemade Explosives (HMEs) Stand Alone Detection 
Project (FY10)
      Financial Reimbursement from TSA: N/A
      Description: Identify, evaluate, and improve HME detection 
technologies and screening methods through the collection and analysis 
of detection data and images from a wide variety of commercial off-the-
shelf (COTS) explosive detection systems (EDS), computed tomography, 
and x-ray diffraction equipment. This helps TSA determine how to 
improve screening system performance through hardware and software 
(image processing) upgrades. In addition, this project evaluates COTS 
explosives detection equipment in laboratory settings to determine 
detection limits, false-alarm rates, and documents unique homemade 
explosive (HME) properties for detection exploitation.

      Project Name: Air Cargo Project (FY10/FY11)
      Financial Reimbursement from TSA: FY 10 $1.1 million
      Description: Identify and develop next generation screening 
systems to mitigate the threat of explosives placed in air cargo 
containers. Activities include developing technologies to enable more 
effective and efficient air cargo screening (including break-bulk, 
palletized, and containerized configurations screening) with reduced 
operational costs and false-alarm rates.

      Project Name: Algorithm and Analysis of Raw Images (FY10/FY11)
      Financial Reimbursement from TSA: N/A
      Description: Develop a non-proprietary database of explosive-
detection images which will be provided to all detection-program 
participants. Collect and consolidate images, including those of novel 
explosives, from commercial vendors and coordinates the purchase of 
additional images and data from computed tomography, explosive 
detection systems, trace, emerging devices and other technologies. The 
evaluation of these images will help determine the causes of false 
alarms over many types of scanning systems.

      Project Name: Automated Carry-On Detection (FY10/FY11)
      Financial Reimbursement from TSA: N/A
      Description: Develop advanced capabilities to detect explosives 
and concealed weapons in carry-on luggage. This project also will 
introduce new standalone or adjunct imaging technologies, such as 
computed tomography, to continue the improvement of checkpoint 
detection performance and the detection of novel explosives.

      Project Name: Automated Threat Recognition (FY10/FY11)
      Financial Reimbursement from TSA: N/A
      Description: Develop and evaluate automated target recognition 
algorithms for advanced imaging technology in a test bed with the goal 
to automatically and reliably detect threats on passengers, eliminating 
the need for human interpretation in order to improve detection and 
false alarm performance and reduce privacy concerns. The December 25, 
2009 incident clearly shows the importance of detecting threats hidden 
on passengers' bodies. This research will guide further enhancements 
necessary to reach full-scale development and deployment.

      Project Name: Detection Technology and Material Science (FY10/
FY11)
      Financial Reimbursement from TSA: N/A
      Description: Evaluate advanced detection algorithms, improves 
explosives detection and develops and tests advanced materials for 
trace sample collection.

      Project Name: Explosives Trace Detection (FY10/FY11)
      Financial Reimbursement from TSA: N/A
      Description: Develop advanced capabilities to detect explosives 
(including homemade explosives) through improved trace sampling and 
detection technologies. Develops trace detection standard materials 
that can be used as field performance standards for deployed trace 
detection systems. Characterizes trace explosives chemical and physical 
signature properties to inform advanced trace detector system design.

      Project Name: Checked Baggage (FY10/FY11)
      Financial Reimbursement from TSA: FY 10 $5.5 million
      Description: Drive commercial development of next-generation 
systems that will substantially improve performance and affordability 
of checked baggage screening. Commercial development is driven when the 
test results referred to below are incorporated into TSA's increased 
performance requirements for screening systems. Vendors must then meet 
these requirements for consideration during TSA acquisition. Test and 
evaluation of these systems will focus on probability of detection, 
number of false alarms, and throughput. The project also measures 
affordability of these systems by evaluating initial purchasing cost, 
operating costs, maintainability, and other elements of the full life-
cycle costs.

      Project Name: Mass Transit (formerly Suicide Bomber) (FY10/FY11)
      Financial Reimbursement from TSA: N/A
      Description: Identify the infrastructure characteristics and 
security concept of operations for surface transportation systems in 
order to drive a security technology development strategy designed to 
combat the explosive threat within the operational requirements of the 
transportation systems. Assessments will be conducted at transit 
authorities to frame the technology development solution space. 
Currently fielded technologies will be evaluated for potential 
enhancement.

      Project Name: Next Generation Passenger Checkpoint (FY10/FY11)
      Financial Reimbursement from TSA: FY 10 $2.1 million
      Description: Develop the next-generation detection system 
architecture to screen passengers for explosives at aviation 
checkpoints. This project also investigates new emerging liquid- and 
gel-based explosive threats and includes them in a comprehensive 
detection system.

      Project Name: Predictive Screening Project
      Financial Reimbursement from TSA: N/A
      Description: Derive the observable behavioral indicators and 
develops technologies to automatically identify, alert authorities to, 
and track suspicious behaviors that precede suicide bombing attacks. 
The Science and Technology Directorate will test technologies at ports-
of-entry, transit portals, and special events.

      Project Name: Aircraft Vulnerability Tests (FY10/FY11)
      Financial Reimbursement from TSA: FY10 $6.6 million
      Description: Assess the vulnerability of narrow- and wide-body 
aircraft passenger cabins and cargo holds to explosives. These 
vulnerability assessments will analyze blast/damage effects of 
explosives and determine the minimum threat mass required to cause 
catastrophic damage to various aircraft types. The assessments will 
also identify the detection limits for bulk screening systems. Develop 
and assess hardened unit load devices (HULDs) for blast mitigation in 
air cargo. These HULD development efforts will provide reduced weight 
air cargo containers for blast protection while minimizing impact on 
commerce.

      Project Name: Homemade Explosives (HME) Characterization (FY10/
FY11)
      Financial Reimbursement from TSA: N/A
      Description: Determine the impact, friction, and electrostatic-
discharge sensitivities of HME threats. This data facilitates the safe 
handling and storage of HME materials during research and development 
activities. Technology efforts to identify, evaluate, and improve HME 
detection technologies and screening methods through the collection of 
raw data and images from a wide variety of commercial off-the-shelf 
(COTS) explosive detection systems (EDS), computed tomography, and x-
ray diffraction equipment are also conducted. This helps TSA determine 
how to improve EDS performance through hardware and software (image 
processing) upgrades. In addition, this project evaluates COTS 
equipment in laboratories to determine detection limits, false-alarm 
rates, and documents unique HME properties for detection exploitation.

      Project Name: Facility Restoration Demonstration Project
      Financial Reimbursement from TSA: N/A
      Description: Develop a systems approach to response and recovery 
of critical transportation facilities following a chemical agent 
release. This project develops remediation guidance, efficient pre-
planning tools, identifies decontamination methods, identifies sampling 
methods, and develops decision analysis tools.

      Project Name: Operational Tools for Response and Restoration 
Project
      Financial Reimbursement from TSA: N/A
      Description: Develop a suite of state-of-the-science indoor-
outdoor predictive tools to characterize the extent and degree of 
biological contamination, incorporating the best-available deposition, 
degradation, and surface viability data. This project will provide 
validated interagency sampling plans and improved statistical sampling 
design to support characterization and decontamination planning.

      Project Name: Bridge Vulnerability Project
      Financial Reimbursement from TSA: None
      Description: Develop an understanding of the vulnerabilities of 
different types of bridges to terrorist threats. This project will 
evaluate vintage bridge components to improve understanding of 
explosives effects and to refine blast modeling tools. The approach is 
unique in that it examines actual bridge sections exposed to wear or 
aging instead of fabricated specimens. As a result, it will provide 
more accurate vulnerability information for aging bridges and allow for 
refinement of existing numerical models that predict failure of bridge 
components. The project is using the Golden Gate Bridge, Crown Point 
Bridge (New York State - Lake Champlain), and Manhattan Bridge (New 
York City East River), and the Fort Steuben Bridge (Ohio) for homeland 
security research on potential effects of an improvised explosive 
device (IED) attack and other plausible threats against a bridge. These 
efforts are in partnership with the Maine Department of Transportation 
(DOT), NY DOT, NYC DOT, Ohio DOT, Golden Gate Bridge Authority, and the 
Federal Highway Administration.

      Project Name: Blast/Projectile - Protective Measures and Design 
Tools
      Financial Reimbursement from TSA: None
      Description: Identify and evaluate protective measures and design 
guidance for protecting the Nation's most critical infrastructure 
assets. The project considers novel materials, design procedures, and 
innovative construction methods to aid in constructing or retrofitting 
infrastructure. This will numerically analyze protective designs 
against blast and projectile threats and conduct physical 
demonstrations to assess effectiveness.

      Project Name: Advanced Incident Management Enterprise System 
(AIMES)
      Financial Reimbursement from TSA: None
      Description: Develop the next-generation incident-management 
enterprise system and builds upon the Unified Incident Command and 
Decision Support architecture and Training, Exercise & Lessons Learned 
framework. This will integrate all elements of the incident management 
enterprise to provide a secure, scalable, interoperable, and unified 
situational awareness to the responder community.

      Project Name: Rapid Mitigation and Recovery Project
      Financial Reimbursement from TSA: None
      Description: Investigate, assess, and develop candidate 
technologies and methodologies that will reduce or eliminate the 
release of toxic inhalation hazard (TIH) from the two threat scenarios 
of interest (.50 caliber AP and small IED). Assess potential TIH 
mitigation technologies, to include development of interface 
documentation to ensure that identified technologies can be integrated 
into any existing and or future rail car design efforts. Mitigation 
technologies and approaches to be assessed include: Self-sealing 
Technologies and Blast and Fragment Penetration Resistant Materials.

      Project Name: Blast Projectile-Advanced Materials Design
      Financial Reimbursement from TSA: None
      Description: Assess the risk to a tunnel or mass transit station 
due to a terrorist attack that has the potential of causing 
catastrophic losses (fatalities, injuries, damage, and business 
interruption). Information from Integrated Rapid Visual Screening Tool 
(IRVS) can be used to support higher level assessments and mitigation 
options by experts. In coordination with TSA, IRVS for Mass Transit 
Stations and Tunnels were tested in various cities: Boston (Boston 
Massachusetts Bay Transportation Authority (MBTA), Cleveland, St. 
Louis, and others. TSA will use the tool to enhance risk assessments of 
transportation hubs around the country. In addition to TSA, potential 
users include Office of Infrastructure Protection, Federal Emergency 
Management Agency, Commercial and Government Facilities, State and 
local governments, code officials, associations of engineers and 
architects, the design and construction industry.

      Project Name: Community Based CIP Institute
      Financial Reimbursement from TSA: FY11 $1million
      Description: The shipment of hazardous materials provides a 
significant target for terrorists. The ability to track hazardous 
materials (HAZMAT) shipments on a real-time basis is essential for 
providing an early warning of an impending terrorist threat. The 
University of Kentucky (UK) will design and organize a functional 
prototype of a HAZMAT truck tracking center. This project supports a 
Transportation Security Administration (TSA) program that tracks motor 
carrier shipments of security-sensitive materials. Collaborating with 
UK on the project are Morehead State University, Coldstream Digital and 
General Dynamics Advanced Information Systems. The prototype software 
is integrated with ``smart truck'' technology and will contain 
operational components that will integrate reporting and shipping 
information with a real-time tracking and situation display capability.

      Project Name: Suspicious Activity Reporting Project
      Financial Reimbursement from TSA: None
      Description: S&T is developing an enhanced analytical tool 
prototype for the Federal Air Marshal Service (FAMS), Investigations 
Division. This application, now named iConnex, is a suite of analytical 
tools that allows investigators to search, find, explore, link, 
visualize and understand relationships within Suspicious Activity 
Reports and other law enforcement data sets. The iConnex application is 
under development using predominantly open-source technologies. The 
application's architecture targets the technical needs of the law 
enforcement community by being able to work with an array of structured 
and unstructured data. The system is designed to be user friendly, and 
does not require extensive training or support to reach operational 
capabilities. Once completed, iConnex will be made available to any DHS 
component or law enforcement agency as a cost-free Government Open 
Source solution.

      Project Name: Law Enforcement Data Fusion
      Financial Reimbursement from TSA: None
      Description: The Science and Technology is working with Federal 
Air Marshal Service (FAMS), Investigations Division to develop a 
geospatial predictive analytics product that will detect, forecast, and 
disrupt future terrorist attacks and criminal activity - leveraging 
predictive analytic algorithms and software developed for the 
Department of Defense community that successfully `forecast' improvised 
explosive device locations in Iraq and Afghanistan. This capability 
will provide FAMS with actionable guidance on the most effective 
location and allocation of agents to place on high risk flights as well 
as providing them with increased knowledge of the tactics and 
procedures of the adversary. This effort utilizes a cloud-computing 
environment in which national data (Homeland Security Infrastructure 
Protection Gold, among others) are being brought together and analyzed 
to support the FAMS mission to discern threats and forecast the 
location of attacks. As this technology matures at FAMS, the final 
product will be made available to any DHS component or law enforcement 
agency as a cost-free Government Open Source solution.

      Project Name: Cross-Cultural Validation of Screening of 
Passengers by Observation Techniques (SPOT)
      Financial Reimbursement from TSA: N/A
      Description: Provide empirical validation of existing behavioral 
indicators employed by DHS' operational components to screen passengers 
at air, land, and maritime ports, including those indicators contained 
within TSA's SPOT. This effort complements the automated prototype work 
and supports development of an enhanced capability to detect behavioral 
indicators of hostile intent at a distance. The project will integrate 
these validated behavioral indicators into the screening concept of 
operations through each component's existing training programs.

      Project Name: Future Attribute Screening Technologies Mobile 
Module (FAST M2)
      Financial Reimbursement from TSA: N/A
      Description: Develop a prototype screening facility containing a 
suite of real-time, non-invasive sensor technologies to detect behavior 
indicative of malintent (the intent or desire to cause harm) rapidly, 
reliably, and remotely. The system will measure both physiological and 
behavioral signals to make probabilistic assessments of malintent based 
on sensor outputs and advanced fusion algorithms. Federal, state, and 
local authorities may use the fully developed FAST system in primary 
screening environments to increase the accuracy and validity of people 
screening at special events, airports, and other secure areas. FAST 
will measure indicators using culturally independent and non-invasive 
sensors. FAST will use an ongoing, independent peer review process to 
ensure objectivity and thoroughness in addressing all aspects of the 
program.

      Project Name: Hostile Intent Detection - Automated Prototype
      Financial Reimbursement from TSA: N/A
      Description: Develop real-time, non-invasive, and culturally 
independent, hostile-intent detection video extraction algorithms to 
identify unknown or potential terrorists through an interactive 
process.

      Project Name: Human Systems Research
      Financial Reimbursement from TSA: FY10 $1.7 million
      Description: Examine ways to maximize human performance across 
DHS end-user tasks and activities. Activities under this project 
include research on exceptionally performing (EP) screeners, 
development of a human factors research roadmap, a study of airport 
dynamics and the development of a cognitive assessment tool.

      *Project Name: Aviation Security Enhancement Partnership (ASEP) 
Evaluating TSA's Comprehensive Airport Security Strategy
      Financial Reimbursement from TSA: FY10 $1 million
      Description: The project will deliver an evidence-based 
assessment and a research design for a comprehensive evaluation of the 
efficacy of the Transportation Security Administration's Playbook to 
ensure that it has the intended prevention and deterrent effects in and 
around U.S. airports.

      *Project Name: Intelligent Closed Circuit Television (iCCTV) 
Project
      Financial Reimbursement from TSA: FY10 $400,000
      Description: Design and construct a data video collection, 
storage, and distribution capability to support off-line behavioral 
analysis. The resulting analysis will support an inter- and intra-
reliability assessment of the SPOT indicators.

      *Project Name: Behavior Detection Officer (BDO) Selection 
Instrument Validation Project
      Financial Reimbursement from TSA: FY09 $1.25 million (still being 
completed)
      Description: Design and validate a personnel selection instrument 
to support the hiring of TSA BDO.
Responses by Dr. Paul Ekman, Professor Emeritus of Psychology, 
University of California, San Francisco,
and President and Founder, Paul Ekman Group, LLC

Questions submitted by Chairman Paul Broun

Q1.  A Nature article from May, 2010 states that you no longer publish 
all of the details of your works in peer-reviewed literature because 
those papers are closely followed by scientists in countries such as 
Syria, Iran and China, which the United States views as a potential 
threat. A great deal of security related research is conducted in the 
country in a manner that follows both the principles of peer review as 
well as the security classification systems Is your work unique in this 
regard?

A1. I have not done classified research, and I don't know how those who 
do such research handle the matter of publishing their findings, or any 
part of their findings. I have been told that classified research is 
not published, but that is hearsay. Regarding our own research 
findings, 95% of what we call hot spots -- behaviors which indicate 
that full disclosure has not occurred -- has already been published in 
scientific journals or book chapters. We have chosen not to publish a 
few new findings on hot spots in an attempt not to disclose to 
potential and actual enemies of our country everything we have found. 
If we choose to publish a study and it contains these undisclosed hot 
spots, then we exclude those undisclosed hot spots from the statistical 
analyses that we do report. Since the incidence of these undisclosed 
hot spots is quite low, it has not changed the overall findings. Thus 
we are able to publish on the incidence of 95% of hot spots, and keep 
to ourselves and those we teach in law enforcement and national 
security, knowledge of the new unpublished hot spots.

Q2.  On pages five and six of your written testimony, you reference a 
couple of un-published studies spearheaded by Dr. Mark Frank, one of 
which you claim shows ``behavioral markers can be useful even in 
situations where the person has yet to commit an illegal act.'' Did you 
share any preliminary results from these studies with either TSA or 
S&T?

A2. The TSA was fully informed of Dr. Frank's study that showed it was 
possible to detect from hot spots whether or not a person had decided 
to lie. Past research had focused on identifying lies about behavior 
that already had occurred. This study showed it was also possible to 
detect lies about the future intent to engage in a malfeasant action.

Q3.  On page seven of Dr. Hartwig's testimony, she responds to your 
claim from a New York Times interview of being able to teach lie 
detection ``to anyone with an accuracy rate of more than 95 percent.'' 
She goes on to say, ``However, no such finding has ever been reported 
in the peer-reviewed literature. More broadly, there is no support for 
the assertion that training programs focusing on identifying facial 
displays of emotions can improve lie detection accuracy. How do you 
respond to those observations?

A3. Dr. Hartwig has made a mistake in what she claims I said, one of 
many mistakes in her testimony. What I said was that through time-
consuming, careful behavioral measurement we have been able to reach 
accurate determination of who is lying with up to 95% accuracy, but 
this included combining some physiological measures as well. I also 
said that we teach law enforcement and national security personnel 
about our findings, attempting to train them to be able to use our 
findings in their evaluations without doing the actual time-consuming 
research. We have not claimed that those we train reach a 95% accuracy 
level of correct judgments in their work place after our training. We 
receive reports that they have benefited, and we have a paper under 
review by a scientific journal that shows that teaching individuals to 
recognize micro expressions improves their ability to judge the true 
emotional state of people who are lying. This in combination with a 
number of published studies (once again not cited or not known by Dr. 
Hartwig) -- Ekman & O'Sullivan, 1991; Frank & Ekman, 1997; Warren, 
Schertler & Bull, 2008 - which show a correlation between accuracy at 
detecting micro expressions and accuracy at detecting lies. But this is 
found only when the lie is about something the person cares about and 
there is a threat of considerable punishment if detected.
    A meta analysis by Frank & Feeley (2003) and later updated by 
O'Sullivan, Frank & Hurley (2011) on all the published research 
examining whether training improves the ability to detect lies, found 
significant improvements as a result of training. Dr. Hartwig did not 
know or chose not to mention these studies which directly contradict 
her testimony.
    The only study which evaluated training in actual real world high 
stakes security contexts is the new American Institute of Research 
(AIR) report. The training the SPOT personnel received whose decisions 
were found to be highly accurate in the AIR study included our training 
materials, and some of the SPOT personnel were trained by us. Our 
training is not limited to the face, but includes all of demeanor - 
gesture, gaze, voice, and speech as well as facial actions.

Q4.  You claim SPOT needs more funding and BDOs need more training.

a.  How much funding is enough for SPOT?

b.  How much training time would you devote to BDOs?

A4 a. I believe SPOT needs to have its personnel observing line of 
traffic at all major airports. I believe our country would be safer if 
there were also SPOT personnel at all feeder airports, as the 9/11 
hijackers boarded and went through security at feeder airports. The 
information I have received is that there are no SPOT personnel at 
feeder airports, and only enough personnel to conduct surveillance at 
half the lines of traffic at our major airports. I believe this is a 
terrible mistake, especially given the fact that recruiting and 
training enough SPOT personnel to have this layer of security in place 
at all airports would cost less than 1% of last year's DHS budget.
    Although I am not fully informed of the changes in the program now 
underway I believe they include increased training time and more 
selective recruitment.

A4 a. Regarding training time, since the costs of training are low and 
the costs of just one terrorist being missed are very high, I believe 
it merits overkill. I expect that 40 hours of training, spread over a 
few weeks, would be of benefit. But that is a guess as there is no 
research available to determine when adding training time stops 
producing benefits.
    There are many questions that could be answered by doing research 
to find out how many BDOs are needed to cover a given area, what breaks 
are needed and when to optimize performance, and are people missed who 
show many of the behaviors on the SPOT checklist.

Q5.  What steps should TSA have taken prior to implementing the SPOT 
program nationwide?

A5. I believe TSA took the appropriate steps: it found out what the 
Israelis were doing; and it obtained the help and advice from those 
scientists who had done research relevant to its objectives, not just 
my work. By the time TSA consulted with Israel about their training, we 
had already provided training to the Israelis. It should be clear that 
the training included but was not limited to micro expressions. In our 
research we measure and find useful hot spots shown in gesture, voice 
and speech itself. And these too are included in TSA's behavioral 
profiling.
    I believe TSA made the right judgment in adding this layer of 
security prior to research about how effective it would turn out to be 
in catching malfeasants. The recent AIR study showed it is effective, 
but it would have been a mistake, in my judgment, not to have provided 
the American people with this layer of security before that study was 
performed.
    I regret that the American people are not now being provided with 
all the layers of security which are available in England and Israel, 
because there simply are not enough trained Behavior Detection 
Officers.

*Professor Mark Frank, SUNY Buffalo contributed to some of these 
responses.

References

      Ekman, P. & O'Sullivan, M. (1991) Who can catch a liar? American 
Psychologist, 46(9), 913-920.

      Frank, M.G., & Ekman, P. (1997) The ability to detect deceit 
generalizes across different types of high-stake lies. Journal of 
Personality and Social Psychology 72, 1429-1439.

      Frank, M.G, Feeley, T.H., Paolantonio, N. & Servoss, T. J. 
(2004). Individual and Small Group Accuracy in Judging Truthful and 
Deceptive Communication. Group Decision and Negotiation 13(1), 45-59.

      O'Sullivan, M., Frank, M. G., Hurley, C. M., & Tiwana, J. (2009). 
Police lie detection accuracy: The effect of lie scenario. Law and 
Human Behavior 33(6), 542-543.

      Warren, G., Schertler, E., Bull, P. (2008) Detecting Deception 
from Emotional and Unemotional Cues. Journal of Nonverbal Behavior 33, 
59-69.
Responses by Dr. Maria Hartwig, Associate Professor, Department of 
        Psychology,
John Jay College of Criminal Justice

Questions submitted by Chairman Paul Broun

Q1.  Are there any differences in the behavioral cues associated with a 
liar being deceitful and the behavioral cues associated with a truth-
teller stressed about being perceived as a liar? In other words, how 
would one distinguish a liar from a truthful person who's afraid of not 
being believed?

A1. In a situation where liars fear detection, and truth tellers fear 
not being believed, the behavioral patterns of the two are likely to be 
very similar. Research supports this, by showing that when liars and 
truth tellers are highly motivated to be believed, they both display 
patterns of behavior that are likely to attract deception judgments. 
That is, they may both show signs of stress and fear; signs which an 
observer may interpret as indicative of deception. Simply put, it is 
very difficult, if not impossible, to distinguish between the 
behavioral signs of stress of a liar who fears exposure and those 
displayed by a truth teller who fears misjudgment.

Q2.  Your testimony talks about a paradigm shift in the approach to lie 
detection that involves, ``moving from passive observation of behavior 
to the active elicitation of cues to deception.'' Unlike the Israeli 
process, BDOs in the U.S. can't realistically stop and interview each 
passenger several times prior to boarding - how do you propose TSA 
incorporate this mentality into SPOT? Should it? Is it practical?

A2. It is true that it may not be feasible to interview every single 
passenger due to the high volume of travelers in the U.S. My suggestion 
is that the TSA, with the help of an independent panel of experts, 
should review theories and empirical findings on the elicitation of 
cues to deception, and entertain the possibility of incorporating some 
of these methods in their protocol for verbal interactions with 
travelers. Some form of screening is most likely necessary in order to 
select passengers for additional scrutiny in the form of questioning. 
Whether the SPOT method should be used for this screening ultimately 
depends on the findings of the validation study, which, to my 
knowledge, has yet to be released.

Q3.  What steps should TSA have taken prior to implementing the SPOT 
program nationwide?

A3. It would have been beneficial to create and consult with a panel of 
independent experts in the relevant areas, in order to ensure that the 
procedures are in line with the scientific evidence. Moreover, it is my 
view that the TSA should have carried out a validation study prior to 
implementing the program nationwide. Again, a panel of experts could 
have been of assistance in designing and executing such a validation 
study.
Responses by Dr. Philip Rubin, Chief Executive Officer, Haskins 
        Laboratories

Questions submitted by Chairman Paul Broun

Q1.  What are the challenges that scientists need to address in order 
to conduct research in an operational setting? 1b. Can these hurdles be 
overcome?

A1. There are numerous challenges related to conducting research in 
operational settings. I would like to focus on two of these.

    1.  Evaluation and analysis both in the laboratory and in the field 
must be based on specific, testable hypotheses that derive from 
premises that are established in some sort of orderly and/or rational 
manner. For example, using voice stress analysis (VSA) to illustrate 
this, it is essential to first understand what is being measured (that 
is, what is the specific definition of ``voice stress'') and understand 
how these measures might related to outcome measures. In addition, in 
order to isolate critical variables so that then can ultimately be 
validated (in the lab or in the field), we also need to consider 
potential interactions of variables that might affect results and other 
factors that could bias or shape experimental results, including any 
critical contextual considerations. In the case of approaches like VSA, 
field tests should not be conducted prior to demonstrating a valid and 
reliable approach for characterizing and quantifying, if possible, the 
underlying variables. Once these have been established, it is then 
possible to move to the field. If the premises are weak or cannot be 
established, there is little point in moving to field evaluation.

    2.  Laboratory studies have the advantage that they often provide 
for the ability to precisely control experimental conditions. The 
disadvantage is that they often lack what is sometimes called 
``ecological validity.'' That is, what is being measured in the 
laboratory may not accurately capture the phenomena that you are trying 
to study, often because critical contexts have been removed. Field 
evaluation lets you study events in their natural environment. This has 
been standard in the ethological approach and in many other instances 
including primate research, research on children, and research in 
organizational and institutional settings. Unfortunately, with this 
greater realism sometimes comes a consequent loss of experimental 
control.

    Overall, the best approach would be to first clearly nail down a 
good, concrete understanding of critical variables and the premises 
that give rise to them. These should be experimentally evaluated and 
understood prior to field evaluation. An assessment of potentially 
critical contextual variables is also essential. At that point (but not 
until then), field evaluation is possible and can provide a rich and 
realistic approach for evaluating data and programs. Although there are 
often limitations in the field, clever and informed experimental design 
can go a long way to assisting with the design of studies that have 
great utility. If they cannot be used to fully study a system, they can 
often be informative and useful as they relate to aspects of the 
problem.

Q2.  (Regarding the comments of Dr. Ekman and Dr. Hartwig). Given these 
opposing observations, what is your analysis?
    There appears to be very little in the peer-reviewed, scientific 
literature to help differentiate high versus low-risk lying and their 
relationship. As both Dr. Ekman and Dr. Hartwig have indicated, 
research is needed in this area. Peer-reviewed research would be the 
useful to establish and solidify scientific validity of results. Such 
work can be done without jeopardizing security.

Q3.   . . . what thoughts do have on the manner in which the SPOT 
program was implemented?

A3. As you have noted, I agree with Dr. David Mandel's comments from 
the summary of the NRC workshop that I chaired, called ``Field 
Evaluation in the Intelligence and Counterintelligence Context: 
Workshop Summary''.

        ``Another way in which establishing a connection with the 
research community can help the intelligence community is with 
validation, Mandel said. Once knowledge and insights from behavioral 
science are used to develop new tools for the intelligence community, 
it is still necessary to validate them. Simply basing recommendations 
on scientific research is not the same thing as showing scientifically 
that those recommendations are effective or testing to see if they 
could be substantially improved. Even Heuer was unable to do much to 
validate his recommendations, Mandel noted, and, more generally, this 
is not something that the intelligence community is particularly well 
equipped to do.''

        ``It is, however, exactly what research scientists are trained 
to do. Science offers a method for testing which ideas lead to good 
results and which do not. Thus partnering with the behavioral science 
community can help the intelligence community zero in on the techniques 
that work best and avoid those that work poorly or not at all.''

    Unfortunately, it appears that the SPOT program was implemented 
before its underlying premises, measures, indicators, etc., could be 
adequately scientifically evaluated and, if necessary, validated in 
even a remotely meaningful way. Instead, they appear to have been 
rushed into the field due to a combination of fear, zeal, passion, 
folklore, intuition, and enthusiasm about controversial scientific 
results, such as ``micro-expressions.'' As of the time of the April 6, 
2011 hearing, and the end of my contribution to the TAC report, I had 
not been provided with information about the ``indicators'' used in the 
SPOT program, so I can only speculate about them. However, if they were 
things like facial micro-expressions, behavioral indicators such as 
gaze direction or head tapping, etc., then they should all be subject 
to scientific scrutiny. Why are such measures being selected? What is 
the current state of scientific knowledge regarding their validity? If 
little is known about them, can then be evaluated scientifically? If 
not, then they should not be used. On other possible measures such as 
excessive sweating, aberrant behavior, etc., it would be useful to 
understand the science on how these behaviors related to outcome 
measures. For example in voice stress analysis (which does not appear 
to be a reliable measure) which is supposedly related to changes in 
voice ``micro-tremors'', is the appropriate indicator greater or 
smaller magnitude of micro-tremor?
    Given the enormous stakes related to national security in 
transportation, and also to work done by our intelligence and counter-
intelligence communities, my strongest recommendation for the Committee 
would be that the money currently being devoted to (and in my opinion 
wasted on) this program should immediately be redirected to a large-
scale effort to solicit the best possible scientific and technical 
guidance related to the detection of deception using behavioral 
indicators. The end product should include a clear statement of what 
works, what does not, what remains controversial, and how to move 
ahead. The TAC did not have the independence, expertise, breadth of 
knowledge, nor latitude to take on this challenge, not was it asked to 
do so. Such a study should be broader than SPOT and should include 
considerations of approaches like voice stress analysis, facial 
expression, remote physiological monitoring, and neuroimaging. Members 
of such a group should have expertise in physiology, behavioral 
science, psychology, neuroscience, linguistics, statistics and 
methodological design, and related areas. It is essential that any 
group working on such a project be independent of DHS and TSA. 
Scientific evaluation of programs like SPOT and other programs related 
to the detection of deception can be done in a manner that does not 
provide unique knowledge to those who would wish to harm us.

Q4.  How do you respond to DHS' preliminary assertion that SPOT is 
significantly more effective than random screening?

A4. As a member of the Technical Advisory Committee I would have to say 
that this assertion on the part of DHS is not a meaningful or useful 
one. The base rate for outcomes is too small to be statistically 
reliable and/or meaningful. If DHS is making an assertion of this sort, 
then they need to more clearly define and quantify what ``significantly 
more effective than random screening'' means. In a population of 
100,000 events are 2 observations significantly different than 1? How 
about 3 versus 1? Or 100 versus 1? What does significance mean as DHS 
is using the term and what do they mean by ``effective''? Small numbers 
in large populations can be meaningless and simply part of the 
randomness and background noise that normally occur in most systems. 
Given the controversial and costly nature of this program, scientific 
and statistical rigor should be essential. I find such a statement to 
be misleading and potentially dangerous. Politicians, policymakers and 
the lay public, will hear something like ``SPOT is significantly more 
effective than random screening'' and may assume that this program is 
effective, useful, and has been adequately scientifically evaluated. To 
this point the effectiveness and usefulness have not been established. 
The scientific evaluation has been inadequate and has not been 
approached in a manner that would lead to greater knowledge regarding 
the program. Establishing scientific credibility has the potential to 
be helpful to programs of this sort, but that requires full, well 
thought out, independent, credible, and open scientific review.
    Outcomes, which apparently are based on a combination of 
indicators, could result simply from the fact that, according to 
information described by CNN in a report on April 15, 2011, individuals 
are singled out for behaving arrogantly. Arrogant individuals stand a 
greater chance of being referred to a law enforcement official (LEO) 
than do those who not behave arrogantly. LEO referrals are related to 2 
of the 4 the outcome measures (either by occurring individually or in 
combination with another indicator). Thus, almost by definition, the 
SPOT program has a higher probability of producing increases in outcome 
when compared with totally random selection. Positive SPOT outcomes are 
mostly due to observations that result in LEO interaction. These could 
be strongly related to things like ``arrogant'' behavior and be telling 
us little more than that, which is kind of a ``duh?'' result for such a 
serious investment of time and money. TAC had not been provided with 
enough information by the time of the April 6 hearing (when Mr. Willis 
indicated that the report had already been finalized) to determine 
significance and/or potential interaction with other variables. In 
summary, it is unclear what ``effective'' means in this context. The 
most significant outcomes in SPOT were related to LEO referrals. It is 
possible that the outcome of this program is no more than the 
observation that individuals who act like jerks might get arrested. 
What does that have to do with an effective, useful program?
Responses by Mr. Peter J. DiDomenica, Lieutenant Detective,
Boston University Police

Questions submitted by Chairman Paul Broun

Q1.  In your written testimony, you talk about your desire to see some 
sort of SPOT training provided for law enforcement personnel so that 
they can better coordinate and understand a situation when approached 
by a BDO who has suspicions about a traveler. Keeping in mind the 
limited resources we have in terms of federal dollars, can you expand 
on how critical such training would be? Would we be better off having 
fewer BDOs with more SPOT-trained LEOs?

A1. I believe that SPOT-trained police officers working in conjunction 
with the TSA are critical to the success of the SPOT program not only 
because of the ability of law enforcement to coordinate and understand 
the program but, most importantly, because of the absolute need for 
effective resolution of the suspicion. The BDOs are not empowered to 
detain, arrest, or deny access and lack law enforcement training and 
experience in questioning suspicious persons. Moreover, the BDOs do not 
have direct access to the criminal databases that law enforcement 
officers have access. The success of the program relies upon law 
enforcement officers (LEOs) who understand and use behavioral screening 
who follow through with denial of access, detention, or arrest when 
appropriate; otherwise, terrorists or other dangerous people will 
likely pass through the system because there will nothing obvious to 
justify denial of access or arrest such as a pre-existing arrest 
warrant or possession of contraband. The dilemma is that the most 
dangerous people, such as the 16 suspected terrorists who passed 
through SPOT airports, are generally not actively involved in a 
terrorist operation when boarding planes so that, short of finding an 
arrest warrant or contraband, there will be no basis for arrest. Even 
if they are operational and possess a weapon or explosive, there are 
still major gaps in weapon and explosive detection systems that present 
the significant risk of such weapon or explosive getting through the 
physical screening process. In my opinion it is absolutely critical 
that behavior assessment trained LEOs are present who are in a position 
to develop probable cause to arrest and who, absent such probable 
cause, are in a position to deny access when sufficient reasonable 
suspicion exists allowing the time for a more thorough investigation. 
Effective and reasonable security to prevent massive casualties from a 
terrorist attack on venues such as airports and mass transit 
significantly depends, in my opinion, upon behavior assessment trained 
LEOs who have the knowledge, ability, and confidence to deny access, in 
most cases temporarily, to such venues.
    I believe the limited federal dollars available for SPOT screening 
would be better spent on training LEOs in behavior assessment and for 
providing federal support for overtime costs of deploying local and 
state LEOs for specific behavior assessment duties at airports. It 
seems to me that the American public will get ``more bang for the 
buck'' by enhancing the abilities of already trained and experienced 
law enforcement officers who can combine both the functions of being 
the ``spotters'' of suspicious behavior and being the ``resolvers'' of 
suspicious behavior. This would reduce the communication and 
understanding issues between TSA and LEOs that presently impede the 
success of the program. Moreover, the federal government would not be 
saddled with the costs of additional federal employees by contracting 
out the function to employees of state and local government. Such an 
approach would also reduce the civil liability exposure of the federal 
government as well. With this approach I believe there would be more 
effective prevention of terrorism with less expenditure of federal 
dollars.

Q2.  I get the impression from your testimony that after the events of 
9/11, particularly in light of your closeness to the situation, you 
felt the nation had to do something to prevent terrorism in the 
aviation sector. Your experience with Richard Reid appears to provide 
further evidence of that mentality.

a.  Is that assessment of your mindset as you set about creating the 
program?

b.  In the NRC's 2008 Report: Protecting Individual Privacy in the 
Struggle Against Terrorists - A Framework for Program Assessment, one 
of the conclusions reached by the 21-member Committee that published 
the report is:

        In the aftermath of a disaster or terrorist incident, policy 
makers come under intense political pressure to respond with measures 
intended to prevent the event from occurring again. The policy impulse 
to do something (by which is usually meant something new) under these 
circumstances is understandable, but it is simply not true that doing 
something new is always better than doing nothing.''

b.  How do you respond to that conclusion?

A2 (a.) I am not comfortable with the word ``mentality'' as used in the 
question as it implies, in my opinion, a certain rigidity and 
unwillingness to consider differing opinion perhaps to the point of 
being a zealot. I do not believe I had a ``mentality'' about having to 
do something to prevent terrorism construing the word ``mentality'' as 
I have explained. I did believe that our ability to screen passengers 
at airports was deficient and that it could be improved and that the 
Richard Reid example showed how reliance on physical screening without 
use of behavioral screening created a gap in security. I knew from my 
personal experience and from other police officers I worked with that 
persons who are engaged in dangerous or high risk activity tend to 
behave differently than persons not so engaged, particularly in the 
presence of a police officer or other official who could intercept 
them. I also learned through scientific literature that people's 
behavior changes when engaged in dangerous or high risk activity and 
that body language, mental state and paralinguistic attributes can be 
affected. It seemed reasonable to me then as it does today to use the 
ability of trained professionals to detect a person engaged in 
dangerous or high risk activity as another of layer of security at our 
airports provided the training was proper and the public's civil rights 
were protected through adhering to limitations on detentions and 
profiling based on the 4th Amendment and the Equal Protection Clause of 
the 14th Amendment. I do not believe I was under the impulse to do 
anything for the sake of doing anything but was motivated by addressing 
a gap in our security through reasonable, effective, and lawful means.

A2 (b-c.) I agree 100% with the danger presented by catastrophic events 
that can compel governments to respond without due deliberation and in 
haste sometimes with troubling and even devastating consequences. I 
have been an instructor in racial profiling and biased policing for 
over a decade and have included discussion of excesses by the 
government to respond to a serious incident or crisis. For example, the 
internment of more 100,000 Japanese Americans on the West Coast, mostly 
U.S. citizens, simply based on ancestry during World War II because of 
fears of an invasion or sabotage represents such an overreaction to a 
real threat. In fact, the U.S. Congress formally apologized to the 
survivors in 1988. The divisive issue of police racial profiling was 
spawned by overreaction to the real danger of drugs being transported 
on our highways. Well intentioned efforts to make communities safer 
resulted in those very communities feeling disenfranchised from law 
enforcement through the unlawful use of selective enforcement based on 
race. I was well aware of the danger to the American public from 
overreaction to the real threat of Islamic Extremist terrorism and made 
efforts to ensure our response was lawful and effective and consistent 
with our nation's values. I, like many security and law enforcement 
officials, found a gap in our aviation security and sought and found a 
means to address the gap, not because something had to be done but 
because something could be done. I would also like to point out that I 
was not a policy maker but a policy advisor and was not personally 
under any political pressure to do something. I was not an elected 
official nor did I directly serve elected officials. I could have 
simply carried out my duties as a police officer without having 
attempted to address the issue or passenger screening but chose to help 
because I felt I was the type of person who could balance the need for 
response to terrorism with the ability to do it effectively, lawfully, 
and ethically without undue haste and with proper deliberation.

Q3.  Did you consult with any scientists before implementing the BASS 
program? What scientific literature did you research prior to the 
program?

a.  Do you consider this review exhaustive or comprehensive?

b.  Have you ever submitted the BASS system for outside review by 
Behavioral Scientists?

c.  Did you encounter any criticisms- either through your research or 
by talking to people - about the validity of the BASS program?

A3. I consulted with co-panelist Dr. Paul Ekman and Dr. Mark Frank of 
the State University of New York at Buffalo. Then Massachusetts State 
Police Major Thomas Robbins and I went to Quantico, VA and spoke with 
the FBI Behavioral Sciences Unit (Eugene Ragala and Stephen Etter). We 
also spoke with Dr. Jessica Stern of the Harvard Kennedy School of 
Government.
    Literature consulted included: 
    <bullet>  Atran, Scott, University of Michigan, The Surprises of 
Suicide Terrorism, Discover Magazine, Vol. 24 No. 10 (October 2003)
    <bullet>  Lewis, Bernard, What Went Wrong
    <bullet>  The 9/11 Commission Report: Final Report of the National 
Commission on Terrorist Attacks Upon the United States.
    <bullet>  Stern, Jessica, Harvard University John F. Kennedy School 
of Government, The Protean Enemy, Foreign Affairs, Volume 82 No. 4, 
July/August 2003, p. 27.
    <bullet>  Stern, Jessica, Terror in the Name of God
    <bullet>  Richardson, Louise, Harvard University professor, What 
Terrorists Want
    <bullet>  Pape, Robert, University of Chicago, Dying to Win, 
Database of every suicide attack from 1980 to 2003, 315 attacks
    <bullet>  Knapp, Mark, and Hall, Judith, Nonverbal Communication in 
Human Interaction
    <bullet>  Miller, Arthur G., editor, The Social Psychology of Good 
and Evil
    <bullet>  McDermott, Terry, Perfect Soldiers
    <bullet>  Grossman, Dave, On Killing, On Combat
    <bullet>  Dozier Jr., Rush, Why We Hate
    <bullet>  Barber, Benjamin, Jihad vs. McWorld
    <bullet>  Who Becomes a Terrorist and Why (US Government Report)
    <bullet>  Zimbardo, Phillip, Stanford Prison Experiment (1971)
    <bullet>  Milgram, Stanley, Obedience Experiments (1974)
    <bullet>  Givens, David B, Center for Nonverbal Studies, The 
Nonverbal Dictionary of Gestures, Signs & Body Language Cues (2003).
    <bullet>  Sageman, Marc, Former CIA caseworker and forensic 
psychologist, Study of 400 terrorists
    <bullet>  Meta-analysis on deception cues by Bella DePaulo, et al., 
2003. Cues to Deception, Psychological Bulletin, 129(1):74-118, 2003
    <bullet>  Mehrabian, Albert, and Ferris, Susan R. ``Inference of 
Attitudes from Nonverbal Communication in Two Channels,'' Journal of 
Consulting Psychology, Vol. 31, No. 3, June 1967, pp. 248-258
    <bullet>  Mehrabian, A. (1971). Silent messages, Wadsworth, 
California: Belmont
    <bullet>  Mehrabian, A. (1972). Nonverbal communication. Aldine-
Atherton, Illinois: Chicago
    <bullet>  Facial expression of emotion; seven universal expressions 
of emotion. Ekman, Friesen, & O'Sullivan, 1988.
    <bullet>  Darwin, Charles, The Expression of Emotion in Man and 
Animals
    <bullet>  Testimony of Professor Jonathan Turley, Shapiro Professor 
of Public Interest, George Washington University Law School, before the 
U.S. House of Representatives Subcommittee on Aviation, February 27, 
2002. Available on the Internet at http://www.house.gov/transportation/
aviation/02-27-02/turley.html
    <bullet>  Ekman Ph.D., Paul, Telling Lies and Human Emotion 
Revealed

A3 (a.) I do not believe this review to be exhaustive but I do believe 
it was comprehensive.

A3 (b.) I asked Dr. Ekman, Dr. Frank, and the FBI Behavioral Sciences 
Unit to look at the program but this was not in the nature of a formal 
scientific review.

A3 (c.) I participated as a briefer for the JASON (Mitre Corporation) 
Summer Study ``Badguyology'' in June 2008 in which I presented 
information on BASS techniques. Their findings where that anecdotal 
evidence exists that police interviewing methodologies work at 
detecting deception and may be able to be validated and developed 
further. However, they also found that no scientific evidence exists to 
support the detection or inference of future behavior including intent. 
My discussions with Dr. Ekman, Dr. Frank and the FBI Behavioral 
Sciences Unit generally indicated the same assessment of BASS: that 
there was a general scientific foundation for changes in behavior 
related to persons engaged in high risk activity who did not want to be 
detected but specific studies would be needed to validate the use of 
specific behaviors and their significance.

Q4.  What does the BASS/PASS training consist of? What behavior/cues/
deviations did you look for?

A5. The following is the training outline of the BASS program showing 
all the components of the training:

      INTRODUCTION

    <bullet>  War in the Homeland
    <bullet>  Policing in the Post 9/11 Environment
    <bullet>  Rationale for BASS
    <bullet>  What is BASS
    <bullet>  Is BASS Profiling?
    <bullet>  Benefits of BASS

      BASS POLICY AND LEGAL CONSIDERATIONS

    <bullet>  Definitions
    <bullet>  Prohibition on Racial Profiling
    <bullet>  Voluntary Encounters

      BASS GENERAL GUIDELINES AND PROCEDURES

    <bullet>  Methods of Contact
    <bullet>  Guidelines for Elevated and Reasonable Suspicion

      UNDERSTANDING THE TERROR THREAT

    <bullet>  Islamic Fundamentalist Terror
    <bullet>  History of Conflict
    <bullet>  The Current Threat

      STEP (1) OBSERVATION OF BEHAVIOR

    <bullet>  Theory of Behavioral Analysis
    <bullet>  Understanding Baselines
    <bullet>  Baseline Field Exercise
    <bullet>  Low Level Behavioral Indicators
    <bullet>  High Level Behavioral Indicators
    <bullet>  Surveillance Indicators
    <bullet>  Unusual Items in Baggage
    <bullet>  Explosive Components
    <bullet>  Suicide Bomber Indicators
    <bullet>  Detecting Bomb Activity in Vehicles and Buildings
    <bullet>  London Bombings
    <bullet>  9/11 hijackers
    <bullet>  Evolving Suicide Bomber
    <bullet>  High and Low Risk Passengers

      STEP (2) EXAMINATION OF TRAVEL DOCUMENTS

    <bullet>  Resident Alien
    <bullet>  Passport
    <bullet>  Visa
    <bullet>  I-94 and I-94W forms
    <bullet>  Elevated Suspicion Factors
    <bullet>  Terrorist Sponsoring and Terrorist Suspicious Countries

      STEP (3) INTERVIEW

    <bullet>  Purpose of Interview
    <bullet>  Format of Questions o Travel/Visit Questions
       <bullet>  Vehicle Stop Questions
       <bullet>  Question Form and Technique
    <bullet>  Two-Step Baseline Approach to Resolving Elevated 
Suspicion
    <bullet>  Signs of Deception
    <bullet>  Analysis of Interview Videos
    <bullet>  Classroom Interview Exercise

      STEP (4) RESOLUTION

    <bullet>  Three Dispositions of Person
    <bullet>  Case Studies

    <bullet>  FIELD INTERVIEW EXERCISES COURSE CONCLUSION

    <bullet>  Summary of Course
    <bullet>  Q & A
    <bullet>  Evaluations

    The specific behavior/cues/deviations may be protected under TSA 
regulations as Sensitive Security Information so I cannot answer this 
question without further guidance from legal counsel.

Q5.  Page two of Dr. Hartwig testimony states..How do you respond to 
Dr. Hartwig and Dr. Rubin's testimony?

A5. BASS is not a lie detection program: BASS is a program designed to 
detect behavioral changes associated with a person who is engaged in 
high risk or dangerous activity and to prevent such persons from 
entering critical infrastructure until the status of the person is 
resolved. Detection of deception constitutes one factor of many as part 
of an overall assessment of dangerousness and this factor, while 
useful, is not required for identification of potentially dangerous 
people. I have attended the following courses on interviewing that 
include detection of deception components and this training indicates 
that with such interviewing training, police officers can improve their 
ability to detect deception:

      Paul Ekman Group Training Division
      Evaluating Truthfulness Train-the Trainer Workshop, February 16-
18, 2006.

      Institute of Analytic Interviewing
      Interviewing, Credibility, and Emotion, January 10-14, 2005.

      Department of the Treasury, Bureau of Alcohol, Tobacco, and 
Firearms
      Analytic Interview School, April 19-23, 1999 at State Police New 
Braintree.

      Wicklander - Zulawski & Associates
      The Reid Method of Criminal Interviews and Interrogation, April 
16-18, 1996 at State Police New Braintree.

    Moreover, I am certified as a trainer in deception detection by the 
Paul Ekman Group Training Group and have conducted this training for 
the TSA and the Department of State. From my understanding of the 
research, there are techniques considered fairly reliable in detection 
of deception and that if used as part of an integrated approach that 
considers both emotional and cognitive aspects of deception and memory, 
the seriousness of the potential deception, alternative explanations 
for perceived cues, and evaluation of subject baseline, can allow 
police officers to be more effective and accurate in the assessment of 
credibility. I believe the DHS SPOT validation study provides striking 
evidence for the effectiveness of the SPOT/BASS techniques I designed: 
A high-risk traveler is nine times more likely to be identified using 
operational SPOT versus random screening and that this result was 
achieved by BDOs engaging 50,000 fewer passengers than the random 
selection process. When it came to arrests in this study, the SPOT 
program was found to be 50 times more effective than random screening. 
Moreover, the research by Dr. Frank cited in Dr. Ekman's testimony 
indicates that, ``In a situation set up to resemble an airport security 
context, we could predict at 90% accuracy who intended to lie about an 
action which s/he had not yet taken. This was accomplished by analysis 
solely on their emotional reaction, eye contact, and nervous body 
behaviors. These are the types of actions security officers look for in 
behavioral observation programs. These results are the first study to 
show that intentions can be detected from behavior.'' Combining my 
training and experience and this recent research I am confident that 
properly trained LEOs have a significantly better than chance ability 
to detect potential terrorists and other dangerous people.
    I agree with Dr. Rubin's testimony that shows there is an 
inclination by those who are involved in evaluations in the criminal 
and homeland/national security arena to be dismissive of scholarly 
research that may contradict their views. This is an aspect of basic 
human nature that we all tend to become defensive when our basic 
assumptions are challenged and this includes police officers, 
scientists, and congressmen. Nobody likes being told they are wrong. I 
have always tried to keep an open mind in my professional work and my 
work in developing SPOT/BASS was done in this way to the best of my 
ability. Most of what I learned and experienced pointed to the programs 
going in the right direction and I always welcomed review and advice. I 
welcome continued research and testing and know there is a great deal 
more to be learned. I agree with the GAO report 10-763 of May 2010 that 
called for more scientific validation of SPOT and I am personally 
disappointed that TSA did not do more to validate the program after I 
left in 2004. To be blunt in my opinion, TSA dropped the ball in its 
efforts to validate SPOT and, as a result have put many people and 
entities on the ``spot'' to defend it and to question it including 
myself, DHS, and this Subcommittee. But as Chairman Broun stated at the 
April 6, 2011 hearing, ``The goal is not to throw out the proverbial 
baby with the bath water.'' I believe SPOT/BASS programs provide a 
critical layer in our multifaceted approach to aviation security and 
the effort to validate the programs, however belated, is worth our time 
and expense.
    Thank you for this additional opportunity to address the 
Subcommittee.
                              Appendix II

                              ----------                              


             Additional Materials Submitted for the Record


<SKIP PAGES = 000>

Material Submitted by Mr. Stephen Lord, Director, Homeland Security and 
            Justice Issues, Government Accountability Office
[GRAPHIC] [TIFF OMITTED] 65053.001

[GRAPHIC] [TIFF OMITTED] 65053.002

[GRAPHIC] [TIFF OMITTED] 65053.003

[GRAPHIC] [TIFF OMITTED] 65053.004

[GRAPHIC] [TIFF OMITTED] 65053.005

[GRAPHIC] [TIFF OMITTED] 65053.006

[GRAPHIC] [TIFF OMITTED] 65053.007

[GRAPHIC] [TIFF OMITTED] 65053.008

[GRAPHIC] [TIFF OMITTED] 65053.009

[GRAPHIC] [TIFF OMITTED] 65053.010

[GRAPHIC] [TIFF OMITTED] 65053.011

[GRAPHIC] [TIFF OMITTED] 65053.012

[GRAPHIC] [TIFF OMITTED] 65053.013

[GRAPHIC] [TIFF OMITTED] 65053.014

[GRAPHIC] [TIFF OMITTED] 65053.015

[GRAPHIC] [TIFF OMITTED] 65053.016

[GRAPHIC] [TIFF OMITTED] 65053.017

[GRAPHIC] [TIFF OMITTED] 65053.018

[GRAPHIC] [TIFF OMITTED] 65053.019

[GRAPHIC] [TIFF OMITTED] 65053.020

[GRAPHIC] [TIFF OMITTED] 65053.021

[GRAPHIC] [TIFF OMITTED] 65053.022

[GRAPHIC] [TIFF OMITTED] 65053.023

[GRAPHIC] [TIFF OMITTED] 65053.024

[GRAPHIC] [TIFF OMITTED] 65053.025

[GRAPHIC] [TIFF OMITTED] 65053.026

[GRAPHIC] [TIFF OMITTED] 65053.027

[GRAPHIC] [TIFF OMITTED] 65053.028

[GRAPHIC] [TIFF OMITTED] 65053.029

[GRAPHIC] [TIFF OMITTED] 65053.030

[GRAPHIC] [TIFF OMITTED] 65053.031

[GRAPHIC] [TIFF OMITTED] 65053.032

[GRAPHIC] [TIFF OMITTED] 65053.033

[GRAPHIC] [TIFF OMITTED] 65053.034

[GRAPHIC] [TIFF OMITTED] 65053.035

[GRAPHIC] [TIFF OMITTED] 65053.036

[GRAPHIC] [TIFF OMITTED] 65053.037

[GRAPHIC] [TIFF OMITTED] 65053.038

[GRAPHIC] [TIFF OMITTED] 65053.039

[GRAPHIC] [TIFF OMITTED] 65053.040

[GRAPHIC] [TIFF OMITTED] 65053.041

[GRAPHIC] [TIFF OMITTED] 65053.042

[GRAPHIC] [TIFF OMITTED] 65053.043

[GRAPHIC] [TIFF OMITTED] 65053.044

[GRAPHIC] [TIFF OMITTED] 65053.045

[GRAPHIC] [TIFF OMITTED] 65053.046

[GRAPHIC] [TIFF OMITTED] 65053.047

[GRAPHIC] [TIFF OMITTED] 65053.048

[GRAPHIC] [TIFF OMITTED] 65053.049

[GRAPHIC] [TIFF OMITTED] 65053.050

[GRAPHIC] [TIFF OMITTED] 65053.051

[GRAPHIC] [TIFF OMITTED] 65053.052

[GRAPHIC] [TIFF OMITTED] 65053.053

[GRAPHIC] [TIFF OMITTED] 65053.054

[GRAPHIC] [TIFF OMITTED] 65053.055

[GRAPHIC] [TIFF OMITTED] 65053.056

[GRAPHIC] [TIFF OMITTED] 65053.057

[GRAPHIC] [TIFF OMITTED] 65053.058

[GRAPHIC] [TIFF OMITTED] 65053.059

[GRAPHIC] [TIFF OMITTED] 65053.060

[GRAPHIC] [TIFF OMITTED] 65053.061

[GRAPHIC] [TIFF OMITTED] 65053.062

[GRAPHIC] [TIFF OMITTED] 65053.063

[GRAPHIC] [TIFF OMITTED] 65053.064

[GRAPHIC] [TIFF OMITTED] 65053.065

[GRAPHIC] [TIFF OMITTED] 65053.066

[GRAPHIC] [TIFF OMITTED] 65053.067

[GRAPHIC] [TIFF OMITTED] 65053.068

[GRAPHIC] [TIFF OMITTED] 65053.069

[GRAPHIC] [TIFF OMITTED] 65053.070

[GRAPHIC] [TIFF OMITTED] 65053.071

[GRAPHIC] [TIFF OMITTED] 65053.072

[GRAPHIC] [TIFF OMITTED] 65053.073

[GRAPHIC] [TIFF OMITTED] 65053.074

[GRAPHIC] [TIFF OMITTED] 65053.075

[GRAPHIC] [TIFF OMITTED] 65053.076

[GRAPHIC] [TIFF OMITTED] 65053.077

[GRAPHIC] [TIFF OMITTED] 65053.078

[GRAPHIC] [TIFF OMITTED] 65053.079

[GRAPHIC] [TIFF OMITTED] 65053.080

[GRAPHIC] [TIFF OMITTED] 65053.081

[GRAPHIC] [TIFF OMITTED] 65053.082

[GRAPHIC] [TIFF OMITTED] 65053.083

[GRAPHIC] [TIFF OMITTED] 65053.084

[GRAPHIC] [TIFF OMITTED] 65053.085

[GRAPHIC] [TIFF OMITTED] 65053.086

[GRAPHIC] [TIFF OMITTED] 65053.087

[GRAPHIC] [TIFF OMITTED] 65053.088

[GRAPHIC] [TIFF OMITTED] 65053.089

                                   

</pre></body></html>
